<html>
<title> - REAUTHORIZING THE HIGHER EDUCATION ACT: IMPROVING COLLEGE AFFORDABILITY</title>
<body><pre>[Senate Hearing 115-749]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-749

                           REAUTHORIZING THE
                         HIGHER EDUCATION ACT:
                    IMPROVING COLLEGE AFFORDABILITY

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   ON

EXAMINING REAUTHORIZING THE HIGHER EDUCATION ACT, FOCUSING ON IMPROVING 
                         COLLEGE AFFORDABILITY
                               __________

                            FEBRUARY 6, 2018
                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


        Available via the World Wide Web: http://www.govinfo.gov


                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
28-636 PDF                 WASHINGTON : 2020   




          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  LAMAR ALEXANDER, Tennessee, Chairman
MICHAEL B. ENZI, Wyoming 	   PATTY MURRAY, Washington
RICHARD BURR, North Carolina	   BERNARD SANDERS (I), Vermont
JOHNNY ISAKSON, Georgia		   ROBERT P. CASEY, JR., Pennsylvania
RAND PAUL, Kentucky		   MICHAEL F. BENNET, Colorado
SUSAN M. COLLINS, Maine		   TAMMY BALDWIN, Wisconsin
BILL CASSIDY, M.D., Louisiana	   CHRISTOPHER S. MURPHY, Connecticut
TODD YOUNG, Indiana		   ELIZABETH WARREN, Massachusetts
ORRIN G. HATCH, Utah		   TIM KAINE, Virginia
PAT ROBERTS, Kansas		   MAGGIE HASSAN, New Hampshire
LISA MURKOWSKI, Alaska		   TINA SMITH, Minnesota
TIM SCOTT, South Carolina	   DOUG JONES, Alabama
                                    
                                     
               David P. Cleary, Republican Staff Director
         Lindsey Ward Seidman, Republican Deputy Staff Director
                 Evan Schatz, Democratic Staff Director
             John Righter, Democratic Deputy Staff Director



                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                       TUESDAY, FEBRUARY 6, 2018

                                                                   Page

                           Committee Members

Alexander, Hon. Lamar, Chairman, Committee on Health, Education, 
  Labor, and Pensions, Opening Statement.........................     1
Murray, Hon. Patty, Ranking Member, a U.S. Senator from the State 
  of Washington, Opening Statement...............................     4

                               Witnesses

Robinson, Jenna, Ph.D., President, The James G. Martin Center for 
  Academic Renewal, Raleigh, NC..................................     7
    Prepared statement...........................................     9
    Summary statement............................................    19
Smith, Zakiya, Ed.D., Strategy Director for Finance and Federal 
  Policy, Lumina Foundation, Indianapolis, IN....................    19
    Prepared statement...........................................    21
Baum, Sandy, Ph.D., Senior Fellow, Urban Institute, Washington, 
  DC.............................................................    25
    Prepared statement...........................................    27
    Summary statement............................................    41
Anderson, Robert E., Ph.D., President, State Higher Education 
  Executive Officers Association, Boulder, CO....................    42
    Prepared statement...........................................    43
    Summary statement............................................    54
Pollard, DeRionne, Ph.D., President, Montgomery College, 
  Rockville, MD..................................................    54
    Prepared statement...........................................    56
    Summary statement............................................    60

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.
    American Council on Education................................    81
    National Association of Student Financial Aid Administrators.    82
    College of William & Mary....................................    84

                         QUESTIONS AND ANSWERS

Response by Jenna Robinson to questions of:
    Senator Sanders..............................................    85
    Senator Warren...............................................    86
    Senator Kaine................................................    87
Response by Sandy Baum to questions of:
    Senator Sanders..............................................    87
    Senator Warren...............................................    88
    Senator Kaine................................................    90

 
                           REAUTHORIZING THE
                         HIGHER EDUCATION ACT:
                    IMPROVING COLLEGE AFFORDABILITY

                              ----------                              


                       Tuesday, February 6, 2018

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:08 a.m. in 
room SD-430, Dirksen Senate Office Building, Hon. Lamar 
Alexander, presiding.
    Present: Senators Alexander [presiding], Isakson, Cassidy, 
Young, Scott, Murray, Casey, Bennet, Baldwin, Murphy, Warren, 
Kaine, Hassan, Smith, and Jones.

                 OPENING STATEMENT OF SENATOR ALEXANDER

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will please come to order.
    This is another in a series of hearings reauthorizing the 
Higher Education Act. I look back, and this Committee has held 
22 hearings over the last four and a half years, including five 
this year, in preparation for reaching a bipartisan result by 
early spring that we can recommend to the full Senate.
    Senator Murray and I will each have an opening statement, 
and then we will introduce the witnesses. After the witnesses' 
testimony, Senators will each have 5 minutes of questions.
    At the end of World War II, just 5 percent of Americans had 
bachelor's degrees. When Congress enacted the Higher Education 
Act in 1965, that number had increased to 10 percent; and 
today, 35 percent of Americans have bachelor's degrees. That is 
a remarkable story.
    Today, there are over 20 million students that attend 6,000 
colleges, universities, community colleges, and technical 
institutions.
    This hearing is about the cost of going to college.
    While it is never easy to pay for college, it is easier 
than many think, and it is unfair and untrue to suggest that 
for most students, college is out of reach financially.
    Each year, 32 percent of students--those from low-income 
families--qualify for up to $5,920 in a Pell Grant that they do 
not pay back.
    According to the College Board, the average tuition at a 2-
year community college is about $3,600 for the 2017-2018 
academic year. So a maximum Pell Grant would more than cover 
tuition. Almost 40 percent of undergraduates attend community 
colleges.
    In 2015, Tennessee became the first state to offer 2 years 
of tuition-free education at community colleges and technical 
institutes to every high school graduate. According to ``U.S. 
News and World Report,'' 12 states have now passed laws 
providing some free community college.
    The average tuition at a 4-year public college is just 
under $10,000 for the 2017-2018 academic year, according to the 
College Board. So a maximum Pell Grant would cover about 60 
percent of tuition. About 40 percent of undergraduates attend 
public 4-year colleges, which include many of the best 
universities in the world.
    Federal aid does not take into account other scholarships a 
student may receive.
    For example, at the University of Tennessee, Knoxville, 
one-third of students have a Pell Grant. In addition, 92 
percent of in-state freshmen receive a State Hope Scholarship, 
which provides up to $3,500 annually for the first 2 years, and 
up to $4,500 annually for the next two. If a student receives 
both a Pell Grant and the Hope Scholarship, that would nearly 
cover the full cost of tuition.
    On top of these scholarships that students do not pay back, 
last year taxpayers loaned students $92 billion that students 
must pay back, but on generous terms. For Federal loans, there 
is no credit check, and in some cases, students may elect to 
pay loans back based on their income, and after 20 to 25 years, 
the loans may be forgiven.
    At one of our previous hearings, Dr. Susan Dynarski 
testified, ``In the United States, typical undergraduate debt 
is less than $10,000 for those who do not complete a 4-year 
degree and about $30,000 for those who do.''
    For most students, an education at a public college or 
university is affordable.
    Many Members of this Committee believe taxpayers should 
spend even more on Federal aid to college students. Whether 
there will be additional Federal dollars will be decided by the 
Appropriations Committee, where Senator Murray is the Ranking 
Member.
    As we continue to consider the cost of college, I would 
suggest we also consider what is known as the ``Bennett 
Hypothesis.'' In 1987, then U.S. Education Secretary Bill 
Bennett said, ``If anything, increases in financial aid in 
recent years have enabled colleges and universities blithely to 
raise their tuitions, confident that Federal loan subsidies 
would help cushion the increase. In 1978, subsidies became 
available to a greatly expanded number of students. In 1980, 
college tuitions began rising year after year at a rate that 
exceeded inflation. Federal student aid policies do not cause 
college price inflation,'' he said, ``But there is little doubt 
that they help make it possible.''
    In 1987, 31 years ago when there were almost 13 million 
college students, taxpayers spent $3.7 billion on Pell Grants; 
today, there are 20 million college students and we spend $28 
billion.
    In 1987, taxpayers backed $11.3 billion in student loans; 
last year, taxpayers directly made $92 billion in new loans to 
students.
    Thirty-one years ago, the average tuition at a 4-year 
college was $3,200; today it is $10,000.
    To the extent that the Bennett Hypothesis is true, research 
suggests that the loans are more of a cause of tuition rising 
than the grants.
    As Congress considers increasing Federal spending on 
grants, and especially loans, we should also consider whether 
those increases have an effect on rising tuition.
    Despite this, there is no doubt college costs are rising 
and that a growing number of students are having trouble paying 
back their debt.
    Our work over the last four and a half years has produced a 
number of proposals to reduce the cost of going to college and 
making it more affordable that do not necessarily include 
asking the taxpayer to spend more money on student aid.
    First, simplifying the FAFSA, the burdensome Free 
Application for Federal Student Aid that 20 million families 
struggle each year to fill out. This would remove it as a 
barrier to college, and help students better understand the 
range of schools they can afford. Of course, to receive a Pell 
Grant, or any other Federal aid, a student must complete the 
FAFSA.
    After hearing testimony at our November hearing, I believe 
Senator Bennet and I are now able to finalize a proposal to 
reduce the number of questions from 108 to 15 to 25.
    The former president of Southwest Community College in 
Memphis told me he believes that he loses 1,500 students each 
semester because of the complexity of the FAFSA.
    Our proposal would also mean that students are able to 
apply for financial aid earlier in their senior year, and can 
know about how much college aid they are eligible for, and 
which schools they could afford, as early as when they enter 
high school.
    Simplifying the FAFSA would make it easier to apply for a 
Pell Grant, which in turn, should help more low-income students 
unlock money to pay for college.
    A second way to make college more affordable, without 
appropriating additional dollars, is to simplify the existing 
two grant programs, five loan programs, and nine different 
repayment programs, and direct some of those dollars to higher 
priorities; for example, creating additional Pell Grants.
    This complex system confuses students about aid and 
repayment options and makes it harder for them to receive the 
aid that can make college affordable.
    At our hearing 3 weeks ago, Dr. Matthew Chingos testified 
that any money we save from simplifying the student loan system 
should be put into increasing the number or size of Pell 
Grants.
    Third, more competency based education would allow students 
to more rapidly complete degrees based on knowledge and 
learning, not time in the classroom. Completing a degree faster 
saves the student money.
    Finally, it makes no sense to spend taxpayer dollars 
helping students earn degrees that are not worth the time and 
money.
    At our hearing last week, witnesses testified that 
accountability measures, that hold schools more accountable for 
their students' ability to repay their loans, would help make 
sure college programs are worthwhile and loans are repaid.
    I believe these are all ways that Congress can make college 
more affordable.
    The Appropriations Committee will consider whether Congress 
should appropriate more tax dollars for student aid, but in the 
meantime, Congress can also help students afford college by 
better spending the $28 billion in grants and $92 billion in 
loans that we now spend each year.
    This would mean simplifying student aid, redirecting 
existing dollars for more Pell Grants, helping students 
complete their degrees more rapidly, and making colleges more 
accountable for students repaying loans.
    Simplifying programs and regulations to make colleges more 
affordable, and make it easier for students to apply for 
financial aid and pay back their loans, will help higher 
education become more financially in reach for students.
    Senator Murray.

                  OPENING STATEMENT OF SENATOR MURRAY

    Senator Murray. Thank you, Chairman Alexander.
    Before I begin, I do want to say I am pleased that we are 
having ongoing conversations about the concerns with the 
implementation of our education loans. I appreciate that and I 
want to keep working with you on that. So thank you for that.
    Thank you to all of our witnesses for being here today. I 
look forward to your thoughts on what colleges, and states, and 
the Federal Government should be doing to lower the price of 
college for students nationwide.
    As we now wrap up the first round of hearings on 
reauthorizing the Higher Education Act, these conversations 
have made it very clear, we have to address all of the 
challenges that students face. Not just making college more 
affordable, but we also have to increase access to higher 
education for underrepresented students.
    We need to hold college accountable for student outcomes 
and success, and we need to make sure that every student is 
able to learn in a safe environment.
    Last week, the Democratic Caucus released a set of 
principles going into each of these priorities in depth. We 
believe a comprehensive reauthorization has to include 
meaningful reforms in all of those areas. It is the only way to 
truly help students overcome the many barriers in higher 
education.
    Now, I am very pleased that we are finally discussing an 
issue that is hurting so many people across the country, and 
that is the continuous growth of college costs with no end in 
sight.
    With few students able to afford college out of pocket, we 
now have almost $1.5 trillion in student debt. That is more 
than auto loans and credit card debt combined.
    Since 2007, 1 year before the last reauthorization of the 
Higher Education Act, student debt has tripled and the number 
of students with debt has grown from 28 million to 44 million.
    Here is how fast our student debt problem is growing. Every 
second, student debt in this country grows by about $3,000. 
This is really taking a toll on our students.
    A new study suggests up to 40 percent of students may 
eventually default on their loans and it is even worse for 
students of color. When we talk about affordability, we have to 
look beyond averages. That same study showed that African 
American students who graduate with a bachelor's degree are 
five times more likely to default on their loans than their 
white peers.
    There are many reasons why college has gotten so expensive, 
and I will get into those, but the results are the same. Many 
students are choosing to not even apply for college or are 
being forced to drop out before they can finish their degree.
    A shocking number of our students are going hungry or do 
not have a safe place to sleep at night. Student debt stops 
people from buying houses, or starting families, or opening 
their own businesses, or continuing their education; and for 
some, the crushing burden of student debt never ends.
    The way we finance higher education by asking everyone to 
take on debt is sending a very clear message that college is 
for the wealthy, not the students who have the most to gain.
    We can, and we must, work to keep college within reach for 
all students.
    Now, I briefly want to touch on some of the reasons why 
college has gotten so expensive.
    First, colleges themselves are not doing enough to consider 
the burden of debt students have to take out and the challenges 
that they will face in landing a good paying job.
    Second, states are investing less and less into higher 
education. That is not only bad for our students; it is bad for 
our states that have to rely on higher education to fuel their 
workforce and their economies.
    Third, Federal student aid does not go as far as it used 
to. Pell Grants allowed me, and my siblings, to go to college, 
but today's students will tell you Pell Grants are not nearly 
enough to cover the total price they have to pay.
    Since I graduated, tuition where I went to college has 
increased an astounding 338 percent when adjusted for 
inflation.
    Chairman Alexander, you and I agreed that the 
reauthorization of HEA needs to be student-focused. So with 
that in mind, I hope we can discuss college affordability at 
all stages of a student's education.
    Before students enroll, we need to make sure Federal 
investments are going farther for students. Students need to be 
able to cover the full cost of college; that is food, and 
housing, and textbooks, and childcare, and transportation, not 
just tuition and fees.
    Once students are enrolled, we have to make sure the price 
of college does not increase unexpectedly during their 
education. And after students graduate, we must help the 
millions of student loan borrowers manage the burden of their 
debt.
    Borrowers should be able to refinance their student loans 
and have affordable, monthly loan payments. There should be 
light at the end of the tunnel for borrowers including loan 
forgiveness, a cap in the number of years students have to pay 
back their loans, and full relief for those who have been 
cheated by their colleges.
    Chairman Alexander, I look forward to working together on a 
comprehensive reauthorization that will address these and many 
other challenges.
    I am sure there will be a number of issues we do not agree 
on, but I believe there is one question that should guide our 
negotiations. It is not, are we easing regulations to colleges 
and giving student loan companies carte blanche? It is not, are 
we reducing the role of the Federal Government in education?
    The question we have to ask ourselves all the time is: will 
this reauthorization of the Higher Education Act leave students 
better off?
    I am confident we can work together, and negotiate in good 
faith, and get to a yes answer on those.
    Thank you.
    The Chairman. Thank you, Senator Murray.
    I look forward to doing that. We have before, and I 
appreciate your comments on our discussions about ESSA. The 
quicker we can deal with that, the better.
    Now, let me welcome the witnesses.
    Our first witness is Dr. Jenna Robinson, President of The 
James G. Martin Center for Academic Renewal. She previously 
worked at the John Locke Foundation. She serves as a member of 
the North Carolina Advisory Committee for the U.S. Commission 
on Civil Rights. She previously served as a member of the North 
Carolina Longitudinal Data System Board.
    I will turn to Senator Young to introduce our second 
witness.
    Senator Young. Thank you, Chairman Alexander.
    It is my pleasure to introduce Dr. Zakiya Smith. She comes 
to us from Indianapolis, where she serves as a Strategy 
Director for Finance and Federal Policy for the Lumina 
Foundation.
    Dr. Smith previously served as a Senior Advisor for 
Education at the White House Domestic Policy Council, and she 
served as a Senior Advisor at the U.S. Department of Education. 
In this role, she focused on efforts to address affordability, 
completion, and college access.
    In her early career, she was an intern with the 
Congressional Black Caucus Foundation and she worked closely 
with students and their families in roles at TEACH for America 
and the Federal Year Up Program.
    Dr. Smith is very well-credentialed. She has a Bachelor's 
Degree from Vanderbilt University, a Master's Degree from the 
Harvard Graduate School of Education, and a Doctorate from the 
University of Pennsylvania.
    The Lumina Foundation, which is headquartered in 
Indianapolis, is the largest private foundation focused on 
student access and success. Dr. Smith's work at the Lumina 
Foundation plays a critical role to advance Federal policy and 
increasing attainment and developing new post-secondary finance 
models.
    Dr. Smith, I hope we can do some good together moving 
forward. I welcome her testimony before this Committee today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Young.
    Welcome, Dr. Smith. With a Vanderbilt degree, I can 
understand why you are so successful.
    [Laughter.]
    The Chairman. Dr. Sandy Baum, we welcome you, Senior Fellow 
at the Urban Institute.
    Dr. Baum focuses on issues related to college access, 
college pricing, student aid policy, student debt, and 
affordability.
    She has co-authored the College Board's annual ``Trends in 
Student Aid,'' and ``Trends in College Pricing'' publications 
since 2002.
    She is the author of ``Student Debt: Rhetoric and Realities 
of Higher Education Financing,'' and co-author of, ``Making 
College Work: Pathways to Success for Disadvantaged Students.''
    Welcome, Dr. Baum.
    I turn to Senator Bennet for our next witness.
    Senator Bennet. Thank you, Mr. Chairman. Thank you for 
holding this hearing. I thank the Ranking Member as well.
    This morning, it is my pleasure to introduce Dr. Robert 
Anderson from my home State of Colorado.
    For the last 6 months, Dr. Anderson has served as President 
of the State Higher Education Executive Officers Association. 
He is an expert on college affordability and financing.
    The Association, which is based in Boulder, Colorado, works 
to advance policies that expand access to higher education and 
promote college completion.
    Previously, Dr. Anderson served as a Senior Leader for the 
University of Georgia. At the University of Georgia, he worked 
on college completion initiatives and distance learning. He has 
also worked on the State Higher Education Commissions of 
Tennessee and West Virginia.
    I thank him for being here, and I very much look forward to 
his testimony today.
    I am sure that he does not think that his representation in 
the Senate has improved since the time he was in Tennessee.
    The Chairman. Well, I am going to let that stand.
    [Laughter.]
    The Chairman. But welcome, Dr. Anderson.
    Senator Bennet. That is the ``Bennet Hypothesis'' with only 
one ``T''.
    The Chairman. Is that what it is? All right.
    [Laughter.]
    The Chairman. Welcome, Dr. Anderson.
    Now, Dr. DeRionne Pollard is President of Montgomery 
College. At Montgomery College, Dr. Pollard spearheaded a new 
strategic plan and mission for the College. She worked with the 
public school system and local universities to create a support 
program to help disadvantaged students transition from high 
school to college.
    She previously served as President of Las Positas College 
in Livermore, California. She is a member of the Community 
College Advisory Panel at the College Board and the Higher 
Education Research and Development Institute Advisory Board. 
Welcome.
    Welcome to all of you.
    Why do we not begin now with Dr. Robinson?

  STATEMENT OF JENNA ROBINSON, PH.D., PRESIDENT, THE JAMES G. 
  MARTIN CENTER FOR ACADEMIC RENEWAL, RALEIGH, NORTH CAROLINA

    Dr. Robinson. Senator Alexander, Ranking Member Murray, 
Members of the Committee.
    Thank you for inviting me here today to share my thoughts 
about college affordability.
    As Senator Alexander said, and I will remind you, in 1987 
then Secretary of Education, William J. Bennett, penned an 
article in ``The New York Times,'' entitled, ``Our Greedy 
Colleges.''
    In it he wrote, ``If anything, increases in financial aid 
in recent years have enabled colleges and universities blithely 
to raise their tuitions confident that Federal loan subsidies 
would help cushion the increase.''
    Thirty years later, we have empirical research to answer 
the question: does the availability of financial aid to 
students enable the tuition increases that we see year after 
year?
    But before I answer that question, I want to talk a little 
bit about the theory of university spending.
    Before Bennett wrote his op-ed, another economist, Howard 
Bowen, was fleshing out an idea of how universities raise funds 
and spend money. In 1980, he laid out his now widely accepted 
rule.
    He said, first, that the main goals of higher education 
institutions are excellence, prestige, and influence.
    Second, that there is virtually no limit to the amount of 
money colleges and universities can spend to increase these 
qualitative and reputational improvements.
    For example, the spending might go to more administrators, 
better buildings, hiring star scholars, impressive athletics 
programs, or even expensive branding efforts.
    Third, each institution raises as much money as it can, 
including in the form of tuition.
    Last, because there is no profit that is sent to 
shareholders, as there would be with private corporations, and 
therefore no need to hold down costs, the institution spends 
all the money it raises.
    Bennett's theory fits into Bowen's third point; each 
institution raises as much money as it can. Without Federal 
student aid, ``as much money as it can'' has very clear 
limitations.
    Students and parents have limited funds to spend on 
college. I think we all agree on that. The availability of aid 
increases those funds considerably. So when universities 
identify new needs or wants, like a shiny, new student center, 
they can raise tuition to cover it with student aid footing the 
bill.
    I think you will agree that this makes sense in theory, but 
now we have evidence to support it.
    Last year, I examined empirical findings from 25 articles 
published since 1987 on the topic of the Bennett Hypothesis. A 
few early studies seemed to find no relationship between 
Federal financial aid and rising tuition.
    But in 2012, Andrew Gillen formulated an important 
refinement to Bennett's hypothesis. He explained that different 
types of aid affect tuition prices differently. That tuition 
caps and price discrimination sometimes weakens the link 
between aid and tuition, and that scholars must examine both 
dynamic and static considerations when quantifying the 
relationship between aid and tuition.
    With those refinements in mind, let me summarize the 
results.
    The 25 studies I surveyed, seven found no Bennett effect 
whatsoever. Three of the seven were among the earlier studies 
that I already mentioned, and thus relied on the smallest 
sample in terms of the years that were surveyed. They also 
treated all aid and all institution types monolithically.
    Another one of the seven found no effect between increases 
in the maximum Pell Grant awarded and increases in tuition. 
That comports with the intuition that different types of aid 
affect tuition different.
    This is to be expected since the maximum Pell Grant award 
is already considerably lower than tuition at most public and 
private 4-year institutions.
    14 studies, a clear majority, found some positive effect of 
Federal subsidies on the price of higher education in at least 
one segment of the higher education market. Many of these found 
support for the Bennett Hypothesis across all segments of the 
market: public, private, non-profit, and for-profit. The effect 
ranged considerably in size and explanatory power.
    For example, Frederick, et al., find very little evidence 
in support of an expanded Bennett Hypothesis in community 
colleges.
    While Cellini and Goldin, in 2012, find that differences in 
tuition prices at for-profit colleges and institutions map very 
closely to the average amount of Federal grant aid received by 
students and institutions.
    McPherson and Schapiro show that public colleges and 
universities increase tuition by $50 for every $100 in aid. 
Lucca, et al., in 2015 say it is more; $60 for every $100 in 
student aid.
    Across all types of institutions, more studies found that 
loans correlated with increased intuition than did grants. The 
effect was more pronounced at expensive schools than at 
affordable ones, and the effect was stronger at for-profit 
institutions than at public and private non-profit 
institutions.
    Solutions include limiting the total amount of loans 
available; targeting Pell Grants to the neediest students; 
insisting that universities bear some risk of the borrowing; 
and changing the eligibility formula to stop rewarding the most 
expensive institutions.
    Thank you.
    [The prepared statement of Dr. Robinson follows:]
                  prepared statement of jenna robinson
    For nearly half a century, the cost of higher education has risen 
faster than the pace of inflation. Between 1978 (the first year in 
which college tuition had its own CPI category) and the third quarter 
of 2017, the price of tuition and fees increased by 1,335 percent. \1\ 
This rate of growth exceeded that of medical costs (704 percent) \2\, 
new home construction (511 percent) \3\ and the Consumer Price Index 
for all items (293 percent). \4\
---------------------------------------------------------------------------
    \1\  United States Bureau of Labor Statistics. CPI-U: U.S. City 
Average; College Tuition and Fees; 1982--84=100; SA. Raw data. 
(Washington DC: U.S. Bureau of Labor Statistics, October 15, 2017).
    \2\  United States Bureau of Labor Statistics. CPI-U: U.S. City 
Average; Medical Care; 1982-84=100; SA. Raw data. (Washington DC: U.S. 
Bureau of Labor Statistics, October 15, 2017).
    \3\  United States Census Bureau. ``Median and Average Sales Prices 
of New Homes Sold in United States.'' 2017.
    \4\  United States Bureau of Labor Statistics. CPI-U: U.S. City 
Average; All Items; 1982-84=100; SA. Raw data. (Washington DC: U.S. 
Bureau of Labor Statistics, October 15, 2017).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The number of student borrowers increases every year. In 2015, 68 
percent of new graduates left college with student loan debt, up from 
57 percent in 2007. \5\
---------------------------------------------------------------------------
    \5\  The Institute for College Access and Success. Student Debt and 
the Class of 2015, 2016.

    A major contributing factor to this explosion of debt is that the 
bar to receive a Federal loan is exceedingly low. The Federal 
Government issues student loans to any student who attends a qualified 
and accredited institution and meets minimal criteria. Federal loans 
require no credit check and no collateral. In fact, it is even illegal 
for colleges to weigh factors such as a student's program of study, 
borrowing history, or high school academic record to determine loan 
---------------------------------------------------------------------------
amounts.

    The steep increase in the cost of tuition has precipitated myriad 
downstream problems.

    A significant number of students now graduate (or fail to graduate) 
with debt levels incommensurate with their earning potential. Many 
students at community colleges, for-profit institutions, and non-
selective public and private universities default on their debt or 
otherwise fail to make progress toward loan repayment. Three years 
after leaving college, just 41 percent of borrowers have avoided 
default and paid at least one dollar on their principal balance. At 5 
years, that statistic grows slightly--to 47 percent. \6\
---------------------------------------------------------------------------
    \6\  Robert Kelchen, ``How Much Did A Coding Error Affect Student 
Loan Repayment Rates?'' Kelchen on Education (blog), January 13, 2017.

    The profligacy does not end when students reach the limit of their 
borrowing from the government. Almost one-fifth (19 percent) of the 
Class of 2015's debt nationally was comprised of non-federal loans. \7\ 
Many students who use nonFederal loans do so because they have already 
borrowed the maximum Federal loans allowed. These loans often originate 
from private banks, where rates are higher to account for the 
significant risk of nonpayment.
---------------------------------------------------------------------------
    \7\  The Institute for College Access and Success. Student Debt and 
the Class of 2015, 2016.

    This debt has consequences for individual debtors and the national 
economy. Some borrowers have accumulated very large balances; in 2014, 
4 percent of borrowers had balances over $100,000 and 14 percent had 
balances over $50,000. \8\ Many debtors, regardless of the size of 
their outstanding balances, report that they have postponed major life 
events--including marriage, children, and home ownership--because of 
their high levels of student debt. \9\ Their delay, in turn, reduces 
overall consumption and contributes to the economic stagnation of 
recent years.
---------------------------------------------------------------------------
    \8\  Adam Looney and Constantine Yannelis. A Crisis in Student 
Loans? How Changes in the Characteristics of Borrowers and in the 
Institutions They Attended Contributed to Rising Loan Defaults. 
Washington, DC: Brookings Institution, 2015.
    \9\  AICPA, ``One-Third of College Students Say They'll Live at 
Home Post-Graduation Due to Loan Debt,'' 12 Nov. 2015.

    It is not just young people who are adversely impacted by the high 
borrowing levels. In 2012, senior citizens held $36 billion in student 
loan debt \10\, for which the Federal Government can garnish their 
Social Security payments. In 2015 alone, the government took $171 
million in Social Security payments from older Americans who defaulted 
on student loans. \11\ The majority of that debt (73 percent) is for a 
child or grandchild's education.
---------------------------------------------------------------------------
    \10\  Meta Brown, Andrew Haughwout, Donghoon Lee, Maricar Mabutas 
and Wilbert van der Klaauw. ``Grading Student Loans.'' Liberty Street 
Economics (blog), March 5, 2012.
    \11\  Government Accountability Office, Social Security Offsets: 
Improvements to Program Design Could Better Assist Older Student Loan 
Borrowers with Obtaining Permitted Relief, December 2016.

    These problems were anticipated as far back as the 1980's. In 1987, 
then-Secretary of Education William J. Bennett wrote a prescient op-ed 
in New York Times, entitled, ``Our Greedy Universities.'' In the 
article, he explained, ``If anything, increases in financial aid in 
recent years have enabled colleges and universities blithely to raise 
their tuition, confident that Federal loan subsidies would help cushion 
the increase.'' \12\
---------------------------------------------------------------------------
    \12\  William J. Bennett, ``Our Greedy Colleges.'' The New York 
Times, February 18, 1987.

    In other words, Federal student aid encourages tuition inflation. 
The mechanism is not hard to grasp. Private colleges, like all 
customer-oriented organizations, adjust their prices according to what 
the market will bear. In simple terms, if an institution's typical 
student has $1,000 to spend on education, the school will charge 
tuition of $1,000. If students gain access to another $1,000 for 
education from grants or loans, the school will raise tuition to $2,000 
---------------------------------------------------------------------------
to capture the full amount.

    At the time Bennett formulated his hypothesis, very little data 
existed about the effects of Federal spending on higher education. But 
Bennett's intuition was sound. Writing for the National Bureau of 
Economic Research in 2004, Bridget Terry Long examined evidence that 
states and institutions change their policies in response to spending 
on Federal financial aid:

          In fact, many states did react to the introduction of the tax 
        credits by considering ways to capture the Federal resources 
        available through the new tax credits. In a report from 
        California's Legislative Analyst's Office, Turnage (1998) . . . 
        suggests increasing fees at public colleges in California. He 
        asserts that the tax credits would offset the increase for 
        richer students while financial aid could be given to offset 
        the effect for low-income students. According to his 
        calculations, an increase from $360 to $1,000 at the community 
        colleges would increase funding to these schools by over $100 
        million annually without affecting the California state budget.

    It may be that state systems and private colleges indeed raised 
tuitions to capture Federal money through tax credits, as suggested by 
Turnage in the above passage. In the preceding chart, note how there 
was a sharp increase in the rate of growth of student debt in the early 
``aughts.''

    Economist Howard R. Bowen laid the foundation for Bennett's 
understanding of the relationship between aid and tuition in 1980. He 
explained his book, Costs of Higher Education, a revenue theory of cost 
for university spending.

    He wrote:

          . . . at any given time, the unit cost of education is 
        determined by the amount of revenues currently available for 
        education relative to enrollment. The statement is more than a 
        tautology, as it expresses the fundamental fact that unit cost 
        i.e., the cost of education] is determined by hard dollars of 
        revenue and only indirectly and distantly by considerations of 
        need, technology, efficiency, and market wages and prices. \13\
---------------------------------------------------------------------------
    \13\  Howard R. Bowen, Costs of Higher Education: How Much Do 
Colleges and Universities Spend Per Student and How Much Should They 
Spend? (San Francisco, CA: Jossey-Bass Inc., 1980), 19.

---------------------------------------------------------------------------
    His theory can be summarized into these four rules:

          1. The main goals of higher education institutions are 
        excellence, prestige, and influence.

          2. There is virtually no limit to the amount of money 
        colleges and universities can spend to increase these 
        qualitative and reputational improvements. (e.g., the spending 
        can go to more administrators, better buildings, employment of 
        ``star'' scholars and researchers, impressive athletics 
        programs, or even expensive marketing or ``branding'' efforts.)

          3. Each institution raises as much money as it can--including 
        in the form of tuition.

          4. Because there is no profit that is disbursed to 
        shareholders, as there would be with private corporations, and 
        therefore no need to hold down costs, the institution spends 
        all the money it raises.

    In short, institutions have strong incentives to capture increases 
in Federal student aid in order to spend more on ``prestige.'' Robert 
Martin further explored the relationship between Bennett's hypothesis 
and Bowen's observations in a paper for the Martin Center in 2009, 
``The Revenue-to-Cost Spiral in Higher Education.'' \14\
---------------------------------------------------------------------------
    \14\  Robert Martin, ``The Revenue to Cost Spiral in Higher 
Education,'' Raleigh, NC: The James G. Martin Center for Academic 
Renewal, 2009.

    Despite the strong theoretical basis for Bennett's hypothesis, 
several current practices may complicate the relationship between loans 
and tuition. In 2012, Andrew Gillen proposed an updated version of the 
hypothesis, which incorporates Bowen's rule, in a paper for the Center 
for College Affordability and Productivity. He suggested three key 
---------------------------------------------------------------------------
refinements to Bennett's theory.

          1. Different types of aid affect tuition prices differently.

          2. Tuition caps and price discrimination weaken the link 
        between aid and tuition.

          3. Scholars must examine both dynamic and static 
        considerations when quantifying the relationship between aid 
        and tuition.

    In the thirty years since Bennett's famous editorial, 25 empirical 
analyses have been performed examining his eponymous theory. This paper 
summarizes those findings and makes evidence-based policy 
recommendations to address the problem of tuition inflation.
                    TYPES OF AID (In a sidebar/box)
              Loans must be repaid. Grants are free gifts.

    Federal Grants

        <bullet>  Pell Grant: The most common grant program from the 
        Federal Government. Pell Grants are awarded to undergraduates 
        with a clear financial need. The amount awarded is contingent 
        upon the extent of financial need, the cost of attendance, and 
        status as a full-time or part-time student. The maximum award 
        for the 2017-18 school year is $5,920. All students who 
        demonstrate financial need and meet the eligibility 
        requirements are awarded with Pell grants. Pell grants can be 
        received for a maximum of 12 semesters. Approximately $29.9 
        billion in Pell Grants were awarded in fiscal year 2015.

        <bullet>  Federal Supplemental Educational Opportunity Grant 
        (FSEOG): Only available for undergraduate students. Each school 
        is awarded a specified amount of funds from the Federal 
        Government to be spent on student aid. The schools awards the 
        grants to students with significant financial need. FSEOGs are 
        first-come, first-serve: when the funds run out, no more grants 
        are available for the year. Awards vary between $100 and $4,000 
        annually. Approximately $730 million were appropriated as 
        FSEOGs in fiscal year 2015.

        <bullet>  TEACH Grant: Undergraduates and graduate students are 
        eligible for TEACH Grants if they pursue a career in teaching. 
        Recipients can be awarded up to $4,000 a year if they agree to 
        teach in a ``high need field'' and/or serve low-income students 
        for 4 years within 8 years of graduating. Potential recipients 
        must display financial need, and they must meet GPA and 
        standardized test requirements. About $91 million awarded in 
        fiscal year 2015.

        <bullet>  Iraq and Afghanistan Service Grants: Available for 
        students whose parent or guardian died in military service in 
        Iraq or Afghanistan and whose family income exceeds the limit 
        to be eligible for Pell Grants. Students must meet remaining 
        Pell Grant requirements, and the awarded amount is equivalent 
        to that of a Pell Grant.
                             Federal Loans
        <bullet>  Direct/Stafford Loans: Money loaned from the Federal 
        Government to the student. Approximately $95.9 billion was 
        awarded in loans for fiscal year 2015.

        <bullet>   Subsidized Loans: Loans available to undergraduate 
        students at a favorable interest rate. The Federal Government 
        pays the interest on payments while the student attends school 
        and for a few months upon graduation. Only students with 
        displayed financial need can qualify for subsidized loans, and 
        loans can only be received for 150 percent of the time it 
        should take to graduate from the academic program (e.g., 6 
        years of loans for attending a 4-year university). Students 
        cannot accrue more than $23,000 in subsidized Stafford Loans 
        throughout their undergraduate studies.

        <bullet>   Unsubsidized Loans: The Federal Government does not 
        cover the interest on these loans for any grace period. 
        Students do not need to demonstrate financial need and can 
        receive these loans for as many years as they are enrolled. 
        These loans are available to undergraduate and graduate 
        students alike. In total, undergraduate and graduate Stafford 
        Loans cannot exceed $138,500.

    Direct PLUS Loans: Part B of Title IV of the Higher Education Act 
authorizes the $21 billion PLUS loan program, which provides Federal 
loans to graduate students and the parents of undergraduate students.

        <bullet>   Parent PLUS Loans: Parents of undergraduate students 
        are able to borrow up to the cost of attendance at a given 
        college. During the 2011--2012 academic year, the PLUS loan 
        program provided 879,000 parents of undergraduate students with 
        an average of $12,575. There is no limit (either in number of 
        years or aggregate dollars) on how much a parent can borrow, 
        and the loans are available in addition to Federal loans that 
        are already available to the students themselves.

        <bullet>   Graduate PLUS Loans: The Graduate PLUS loan program, 
        open to graduate students who take out loans to finance 
        graduate school, enables students to borrow up to the full cost 
        of attendance at a given school, less any other aid received. 
        During the 2011--2012 academic year, the PLUS loan program 
        provided 360,000 graduate students with an average loan of 
        $19,958.

    Federal Perkins Loans: Undergraduate students can borrow up to 
$5,500 per year ($27,000 total) directly from the university. Graduate 
students can borrow up to $8000 a year ($60,000 total). Money is only 
available to students with exceptional financial need. In fiscal year 
2015, the Federal Government awarded approximately $1.2 billion to the 
universities to distribute as loans.
                                Findings
    A previous review of available literature on the Bennett 
Hypothesis, conducted in 2003, \15\ found that estimates of the impact 
of Federal aid on public tuition level range from negligible to as much 
as 50 percent of the increase in aid. Since then, further studies have 
analyzed 14 additional years of data and significantly enhanced our 
understanding of the effects of financial aid on tuition. A study by 
Donald Heller in 2013 for ACE reviewed eight studies on the Bennett 
Hypothesis published between 1991 and 2012 and concluded that the 
findings were limited and ambiguous. \16\
---------------------------------------------------------------------------
    \15\  Michael T. Rizzo and Ronald G. Ehrenberg. ``Resident and 
Nonresident Tuition and Enrollment at Flagship State Universities.'' In 
College Choices: The Economics of Where to Go, When to Go, and How to 
Pay for It. Edited by Caroline Hoxby. A National Bureau of Economic 
Research Report (Chicago: University of Chicago Press, 2004).
    \16\  Donald Heller, Does Federal Financial Aid Drive Up College 
Prices? (Washington, DC: American Council on Education, April 2013).

    This Martin Center study adds to the literature by incorporating 
evidence both for and against the Bennett Hypothesis and weighing the 
evidence. It synthesizes findings from 25 articles published since 1987 
in peer reviewed journals or respected economic research institutions 
or universities. The studies focus on the empirical evidence for 
Bennett's hypothesis that Federal financial aid drives up the price of 
college and university tuition. They are listed at the end of this 
---------------------------------------------------------------------------
paper.

    Two important studies that came out earlier this year aided our 
efforts greatly. Mark J. Warshawsky and Ross Marchand, \17\ writing for 
the Mercatus Center at George Mason University, did an extensive review 
of the literature in support of the Bennett Hypothesis. Additionally, 
the Heritage Foundation included a discussion of the hypothesis in its 
paper ``Private Lending: The Way to Reduce Students' College Costs and 
Protect America's Taxpayers.'' \18\
---------------------------------------------------------------------------
    \17\  Mark J. Warshawsky and Ross Marchand, Dysfunctions in the 
Federal Financing of Higher Education (Washington, DC: Mercatus Center, 
2017).
    \18\  Mary Clare Reim Private Lending: The Way to Reduce Students' 
College Costs and Protect America's Taxpayers (Washington, DC: Heritage 
Foundation, 2017).

    Of the 25 studies surveyed, seven found no Bennett effect 
whatsoever. Three of the seven were among the earliest studies in the 
sample, and thus relied on the smallest sample sizes in terms of number 
of years analyzed. Another of the seven found no effect between 
increases in the maximum Pell grant awarded and increases in tuition. 
But this is to be expected since the maximum Pell grant award is 
already considerably lower than tuition and public and private 4-year 
---------------------------------------------------------------------------
institutions.

    The most recent study to find no Bennett effect (Kelchen 2017) 
analyzed the relationship between increases in Federal student loan 
limits and law school tuition. The author suggests that the lack of 
correlation could be because students shifted from private loans to 
PLUS loans and thus already had access for loans up to the full cost of 
attendance.

    Fourteen studies, a clear majority, found some effect of Federal 
subsidies on the price of higher education in at least one segment of 
the higher education market. Many of these found support for the 
Bennett Hypothesis across all segments of the market--public, private, 
and for-profit.

    The effects range considerably in size and explanatory power. For 
example, Frederick, et al (2012) find ``at most very limited evidence 
in support of an expanded Bennett hypothesis'' in community colleges 
while Cellini and Goldin (2012) find that differences in tuition prices 
at for-profit institutions map very closely to the average amount of 
Federal grant aid received by students at the institutions.

    In The Student Aid Game (1998), McPherson and Schapiro show that 
public colleges and universities increase tuition by $50 for every $100 
in aid. Lucca et al (2015) say it's more. They find ``a pass-through 
effect on tuition of changes in subsidized loan maximums of about 60 
cents on the dollar.''

    One of the studies that found a positive effect, Curs and Dar 
(2010), also found a negative effect: between merit-based state 
financial aid and listed tuition prices at public and private 
institutions. They posited that this finding was a result of 
institutions competing to attract high-performers and academic 
superstars--an effect that is not generalizable to other types of aid.

    The remaining four studies found negative effects.

    In some cases, the findings were contradictory. For example, some 
studies found that tuition is more sensitive to Federal grant aid than 
Federal loan aid while others presented the opposite finding. But taken 
together, the research suggests that it is likely that Federal 
financial aid does enable or contribute to increases in tuition, 
probably to a large degree.

    Across all types of institutions, more studies found that loans 
contributed to increases in tuition than did grants. This is likely 
because the maximum Pell grant is less than the published price of 
tuition at almost all public and private 4-year institutions. The 
effect was more pronounced at expensive schools (such as private 4-year 
institutions) than at affordable ones (such as public community 
colleges).

    As Gillen noted in his 2012 paper, the effect was also more marked 
at for-profit institutions than at public and private non-profit 
institutions. At public institutions, this is due to tuition caps and 
strong political pressure to keep tuition low. At private non-profit 
institutions, it is due to the common practice of price discrimination. 
(Price discrimination is the practice of charging students different 
prices based on their ability and willingness to pay.)

    Table 1 shows the correlations demonstrated by 24 recent scholarly 
investigations of the Bennett hypothesis. Results shaded in blue are 
positive evidence for a relationship between increasing Federal 
financial aid and tuition. (The citation count is indication of an 
article's academic influence.)

                                       Table 1: Results of recent studies
----------------------------------------------------------------------------------------------------------------
         Study             Positive Correlation        No Correlation       Negative Correlation     Citations
----------------------------------------------------------------------------------------------------------------
Acosta 2001, working     Federal grant loan aid       Federal loan aid                                    10
                paper    tuition at private four- tuition at public four-
                           year institutions.        year institutions
                           Federal grant aid,
                            tuition prices at
                             public four-year
                                institutions.
----------------------------------------------------------------------------------------------------------------
Archibald and Feldman                                 Increases in the        Increases in the           270
         2011, Oxford                             authorized maximum Pell   authorized maximum
     University Press                             award tuition at public  Pell award tuition at
                                                          universities     private universities
----------------------------------------------------------------------------------------------------------------
                    CelliniGrant and loan aid                                                             11
       2014, American    tuition prices at for-
     Economic Journal    profit 2-and 4--year
                                 institutions
----------------------------------------------------------------------------------------------------------------
                    Cunningham et al 2001,          Federal grants and                                     6
            National Center for                       loans changes in
 Education Statistics                             tuition at public and
                                                  private not-for profit
                                                                sector
----------------------------------------------------------------------------------------------------------------
                    Curs and Need-based state                                Merit-based state             7
        working paper       financial aid net                              financial aid listed
                         tuition price at public                              tuition price at
                                  and private                               public and private
                                 institutions                                     institutions
----------------------------------------------------------------------------------------------------------------
Epple et al 2013, NBER    Federal aid tuition                                                             32
        working paper      revenue at private
                         universities (by means
                              of reduction in
                           institutional aid)
----------------------------------------------------------------------------------------------------------------
Frederick et al 2012,                              Federal funding for                                     9
 Economics of Education                             community colleges
               Review                             state appropriations
----------------------------------------------------------------------------------------------------------------
       Gillen 2012, CCAP     Dollar limits on                                                             18
         policy paper    Federal loans tuition
                                       prices
----------------------------------------------------------------------------------------------------------------
          Government                              Increase in the Federal                                  3
 Accountability Office                            student loan limit for
                 2011                             first-and second-year
                                                  students tuition prices
----------------------------------------------------------------------------------------------------------------
  Gordon and Hedlund     Federal loans tuition                                                            13
  2016, working paper
----------------------------------------------------------------------------------------------------------------
  Harvey et al 1998,                              Availability of Federal                                 18
            National Commission on                    grants and loans
                 the Cost of Higher                     tuition prices
            Education
----------------------------------------------------------------------------------------------------------------
Inglet 2016, doctoral    Federal financial aid                                                             0
         dissertation     spending public and
                         private college sticker
                                       prices
----------------------------------------------------------------------------------------------------------------
Kargar and Mann 2017,                                                         Loan eligibility             1
        working paper                                                      limitations tuition
                                                                                        prices
----------------------------------------------------------------------------------------------------------------
Kelchen 2017, working                                Federal PLUS loan
                paper                                limits law school
                                                               tuition
----------------------------------------------------------------------------------------------------------------
Lau 2014, job market       Federal grants and                                                              9
                paper    loans tuition at 4-year
                         and 2-year institutions
----------------------------------------------------------------------------------------------------------------
   Li 1999, doctoral        Pell grant awards                                                              9
         dissertation       tuition prices at
                         public and private 4-
                            year institutions
----------------------------------------------------------------------------------------------------------------
Long 2004, Journal of            Georgia HOPE                                                            164
      Human Resources    Scholarship tuition at
                         public and private 4-
                            year institutions
----------------------------------------------------------------------------------------------------------------
     Long 2004, NBER                                  Federal Hope and                                   146
                                                     Lifelong Learning
                                                                      Credits state
                                                    appropriations for
                                                          colleges and
                                                          universities
----------------------------------------------------------------------------------------------------------------
   Lucca et al 2015,       Federal grants and                                                             37
 Federal Reserve Bank    loans tuition prices at
          of New York      public and private
                             universities and
                           vocational schools
----------------------------------------------------------------------------------------------------------------
McPherson and Schapiro   Federal aid revenues     Federal aid revenues                                   326
      1991, Brookings     tuition revenues at      tuition revenues at
          Institution     public universities     private universities
----------------------------------------------------------------------------------------------------------------
 Rizzo and Ehrenberg     Maximum available Pell   Maximum available Pell                                 165
           2004, NBER    award in-state tuition    awards out-of-state
                             prices at public        tuition prices at
                                 universities      public universities
----------------------------------------------------------------------------------------------------------------
Singell and Stone 2007,  Average size of Pell     Average size of Pell                                    79
 Economics of Education   awards out-of-state     awards in-state tuition
               Review       tuition at public     at public universities
                                 universities
----------------------------------------------------------------------------------------------------------------
    Turner, L. 2017,                                                       Size of Pell grants             0
        working paper                                                                amount of
                                                                             institutional aid
----------------------------------------------------------------------------------------------------------------
    Turner, N. 2010,                                                         Tax-based Federal            61
        working paper                                                      education aid amount
                                                                           of institutional aid
----------------------------------------------------------------------------------------------------------------
Welch 2015, doctoral                                State-funded merit                                     0
         dissertation                             scholarships tuition
                                                                prices
----------------------------------------------------------------------------------------------------------------

                              Implications
    The evidence in favor of the Bennett Hypothesis is compelling. It 
is most likely that Federal financial aid significantly increases the 
cost of college, possibly across all sectors. Scholars should continue 
to study the issue to further refine Federal, state, and institutional 
policy.

    In light of this evidence, the Federal Government and individual 
states should begin to alter their financial aid policies now in order 
to:

          1. Put downward pressure on tuition prices;

          2. Focus aid on universities and students where there is 
        genuine need so that Federal money is not simply an addition or 
        supplement to money that is already available, (e.g. lending to 
        wealthy students or institutions);

          3. End or minimize subsidies that are artificially increasing 
        demand for higher education and/or tolerance for higher prices.

    The specific policies that can accomplish these aims are:

        <bullet>   Eliminate Graduate and Parent PLUS loans: These are 
        the types of loans most likely to drive tuition increases.

            Undergraduate and graduate students already have access to 
        up to $138,500 in Federal loans through the Stafford Loan 
        program. Students enrolled in school to become healthcare 
        professionals can borrow up to $224,000. The Federal Government 
        should not encourage or enable borrowing above those already 
        generous amounts.

            Loans to parents are even less circumscribed. There is no 
        limit on how much a parent can borrow. These loans are 
        available to parents of students who have already maxed out 
        their own Federal borrowing. The availability of such loans has 
        resulted in families incurring substantial debt, while failing 
        to ease the cost of college over time.

        <bullet>   Focus on Pell grants (instead of loans)

            Going forward, the Department of Education's main focus 
        should be on Pell grants to the Nation's neediest students. 
        Such grants, which are limited in scope and size and meet a 
        true need, are the least likely to encourage colleges and 
        universities to raise tuition. Loans should be of secondary 
        importance.

        <bullet>   Change the student aid eligibility formula

            Use the Median Cost of College instead of the Cost of 
        Attendance (COA) at individual institutions to calculate 
        financial need. Using COA discourages students from choosing 
        less expensive schools since the current ``need'' formula 
        awards students more money when they attend institutions with 
        higher tuition.

        <bullet>   Make private student loans subject to bankruptcy 
        laws

            Making private student loans dischargeable in bankruptcy 
        would give private lenders incentives to tighten lending 
        standards and lower maximum loan amounts.

        <bullet>   Cap the growth of tuition and fees at public 
        colleges and universities

            Public colleges and universities should limit the growth in 
        tuition and fees to the rate of inflation.

        <bullet>   End subsidies for Federal student loans

            Lucca et al (2015) found that subsidized loans drive up 
        tuition to a far greater degree than other forms of student 
        aid.

        <bullet>   Improve students' understanding of student loan 
        borrowing and debt obligations

            One possible solution is for other states to adopt a 
        version of a 2015 Indiana law (H. 1042) requiring post-
        secondary educational institutions that enroll students who 
        receive state financial aid to annually provide each student 
        with certain information concerning the student's education 
        loans.

        <bullet>   Demand that institutions have ``skin in the game''

            Institutions should have a share in the credit risk of 
        every student who takes out a loan to attend the institution. 
        This would put pressure on universities to keep tuition low and 
        offset some of the artificial pressure on demand for higher 
        education.
                               Conclusion
    College tuition, student debt, and university spending have 
increased almost unchecked for almost half a century. Students, 
parents, faculty, and the American economy have suffered as a 
consequence.

    The Bennett Hypothesis, with some modern nuances, explains at least 
part of the problem and directs decisionmakers at the state, 
university, and Federal levels to solutions that will work to slow 
tuition increases and stem the tide of runaway student debt and 
profligate university spending.

    Congress, state legislators, and university administrators must act 
to make college affordable and accessible and to head off the looming 
student loan crisis.
                    Studies Included in the Analysis
    Acosta, Rebecca J. ``How Do Colleges Respond to Changes in Federal 
Student Aid.'' Working paper, Department of Economics, University of 
California at Los Angeles, October 2001.

    Archibald, R. B., & Feldman, D. H. Why Does College Cost So Much? 
Oxford: Oxford University Press, 2011.

    Cellini, Stephanie Riegg, and Claudia Goldin. ``Does Federal 
Student Aid Raise Tuition? New Evidence on For-Profit Colleges.'' 
American Economic Journal: Economic Policy 6, no. 4 (2014): 174--206. 
doi:10.1257/pol.6.4.174.

    Cunningham, Alisa F., Jane V. Wellman, Melissa E. Clinedinst, and 
Jamie P. Merisotis. (Project Officer: C. Dennis Carroll). Study of 
College Costs and Prices, 1988--89 to 1997--98, Volume 1, National 
Center for Education Statistics 2002--157 (Washington, DC: 2001).

    Curs, Bradley R., and Luciana Dar. Do Institutions Respond 
Asymmetrically to Changes in State Need-and Merit-Based Aid? (November 
1, 2010).

    Epple, Dennis, Richard Romano, Sinan Sarpca, and Holger Sieg, ``The 
U.S. Market for Higher Education: A General Equilibrium Analysis of 
State and Private Colleges and Public Funding Policies,'' NBER Working 
Paper No. 19298. Cambridge MA: National Bureau of Economic Research, 
August 2013.

    Frederick, Allison B.; Stephen J. Schmidt, and Lewis S. Davis. 
``Federal Policies, State Responses, and Community College Outcomes: 
Testing an Augmented Bennett Hypothesis,'' Economics of Education 
Review 31, no. 6, December 2012: 908-917.

    Gillen, Andrew. ``Introducing Bennett Hypothesis 2.0.'' Policy 
paper, Center for College Affordability and Productivity, Washington, 
DC, 2012.

    Gordon, Grey and Aaron Hedlund. Accounting for the Rise in College 
Tuition. Working Paper--2015--015, Center for Applied Economics and 
Policy Research, Department of Economics, Indiana University at 
Bloomington, 2015.

    Government Accountability Office. Federal Student Loans: Patterns 
in Tuition, Enrollment, and Federal Stafford Loan Borrowing Up to the 
2007-08 Loan Limit Increase, May 25, 2011.

    Harvey, James, Roger M. Williams, Rita J. Kirshstein, Amy Smith 
O'Malley, Jane V. Wellman.Straight Talk about College Costs and Prices: 
Report of the National Commission on the Cost of Higher Education. 
National Commission on the Cost of Higher Education, February 1998.

    Inglet, Jerry. ``Testing the Bennett Hypothesis: Examining the 
Relationship between College Sticker Prices and Total Federal Financial 
Aid Spending on Higher Education.'' Doctoral dissertation, D'Youville 
College, Buffalo, NY, 2016.

    Kargar, Mahyar, and William Mann. Financial Aid and College 
Pricing: Estimates from the PLUS Program (August 7, 2017).

    Kelchen, Robert, An Empirical Examination of the Bennett Hypothesis 
in Law School Prices. AccessLex Institute Research Paper No. 17-09, 
November 8, 2017.

    Lau, Christopher V. The Incidence of Federal Subsidies in For-
profit Higher Education, Working Paper, Department of Economics, 
Northwestern University, 2014.

    Li, J. ``Estimating the Effect of Federal Financial Aid on Higher 
Education: A Study of Pell Grants.'' Doctoral dissertation, Harvard 
University, 1999.

    Long, Bridget Terry. ``How Do Financial Aid Policies Affect 
Colleges? The Institutional Impact of the Georgia HOPE Scholarship.'' 
Journal of Human Resources 39, no. 4 (2004): 1045-066. doi:10.2307/
3559038.

    The Impact of Federal Tax Credits for Higher Education Expenses. In 
College Choices: The Economics of Where to Go, When to Go, and How to 
Pay For It. Edited by Caroline Hoxby. A National Bureau of Economic 
Research Report. Chicago: University of Chicago, 2004.

    Lucca, David O., Taylor Nadauld, and Karen Shen.Credit Supply and 
the Rise in College Tuition: Evidence from the Expansion in Federal 
Student Aid Programs. Federal Reserve Bank of New York. Staff Report 
No. 733, 2015.

    McPherson, M. S., & Schapiro, M. O. Keeping College Affordable: 
Government and Educational Opportunity. Washington, DC: Brookings 
Institution Press, 1991.

    Rizzo, Michael T., and Ronald G. Ehrenberg. Resident and 
Nonresident Tuition and Enrollment at Flagship State Universities. In 
College Choices: The Economics of Where to Go, When to Go, and How to 
Pay for It. Edited by Caroline Hoxby. A National Bureau of Economic 
Research Report. Chicago: University of Chicago, 2004.

    Singell Jr., L.D. and J.A. Stone. ``For Whom the Pell Tolls: The 
Response of University Tuition to Federal Grants-in-aid,'' Economics of 
Education Review 26 (2007), 285-295. (See working paper For Whom the 
Pell Tolls: Market Power, Tuition Discrimination, and the Bennett 
Hypothesis).

    Turner, Lesley J. ``The Economic Incidence of Federal Student Grant 
Aid.'' Working paper, University of Maryland, College Park, MD, 2017.

    Turner, Nick. Who Benefits From Student Aid? The Economic Incidence 
of Tax-Based Federal Student Aid. UC San Diego: Department of 
Economics, 2010.

    Welch, Jilleah Gayle. ``Three Essays on the Economics of Higher 
Education: How Students and Colleges Respond to Financial Aid 
Programs.'' Doctoral dissertation, University of Tennessee, Knoxville, 
TN., 2015.
                                 ______
                                 
                 [summary statement of jenna robinson]
    <bullet>  In 1987, then-secretary of education William J. Bennett 
penned an article in the New York Times entitled ``Our Greedy 
Universities.'' In it, he wrote, ``If anything, increases in financial 
aid in recent years have enabled colleges and universities blithely to 
raise their tuition, confident that Federal loan subsidies would help 
cushion the increase.''

    <bullet>  This study synthesizes empirical findings from 25 
articles published since 1987 in peer-reviewed journals or by respected 
economic research institutions. The studies focus on the empirical 
evidence for Bennett's theory.

    <bullet>  Of the 25 studies surveyed, a majority found some effect 
of federal subsidies on the price of higher education in at least one 
segment of the higher education market.

    <bullet>  Based on these findings, we make policy recommendations 
to help slow the growth of university tuition and fees.
                                 ______
                                 
    The Chairman. Thank you, Dr. Robinson.
    Dr. Smith, welcome.

STATEMENT OF ZAKIYA SMITH, ED.D., STRATEGY DIRECTOR FOR FINANCE 
  AND FEDERAL POLICY, LUMINA FOUNDATION, INDIANAPOLIS, INDIANA

    Dr. Smith. Chairman Alexander, Ranking Member Murray, and 
Members of the Committee.
    Thank you for the opportunity to testify today on the 
important topic of improving college affordability.
    As you heard, my name is Zakiya Smith, and I work on 
Finance and Federal Policy issues at the Lumina Foundation, the 
Nation's largest foundation focused specifically on increasing 
students' access to, and success in, post-secondary education.
    As someone whose grandmother attended college as a 
nontraditional student in the 1950's in South Carolina, before 
there were integrated schools or even a Higher Education Act to 
consider, I know both the transformative power of higher 
education, and the pains that come from lack of equity within 
the system for students of color and for low income students.
    I know from working with students as a college counselor at 
a federally funded GEAR UP program, that when talking to 
students directly, their concerns about college are clear. They 
think it is important, but they just do not know how they are 
going to pay for it.
    We have talked about this issue at the national level for 
decades. We have tried to create measures of transparency, 
which I very vocally supported, with hopes that better 
information could create market pressure and direct students to 
more affordable options. Unfortunately, those efforts alone are 
not enough.
    Today, students have responsibilities and commitments that 
extend far beyond the classroom. Students of color, in 
particular, are more likely to be balancing work and the 
responsibility of parenting with going to college, as over 40 
percent of Black and Native American students are also parents.
    Contrary to popular imagination, students today actually 
have to work far more than past generations did in order to pay 
for college.
    In 1971, students could cover tuition at public colleges by 
working about 10 hours a week throughout the year. Students 
today would have to work about a 60 hour workweek in order to 
cover the full cost of attendance at a public college in-state.
    These affordability concerns are not just in their heads. 
The challenge of paying for college today is greater than it 
was in the past.
    Some might argue that expenses, like rent and food, are not 
really a cost of college, but general cost of living that every 
adult must face.
    But very few people would argue with the notion that the 
traditional student going to college straight from high school, 
living on campus deserves to be able to use their financial aid 
to pay for room and board.
    Take that same student off campus, and now they have to 
find an apartment. Room becomes ``rent,'' and food, whether 
purchased on or off campus, is the ``board''.
    Ensuring these non-tuition needs are covered in some way, 
which could include childcare for student parents, or 
transportation to and from campus, are integral to student 
success. If basic needs are not met, students are less likely 
to do well in school, further impeding completion.
    As we think about how to address this concern, we must 
recognize that affordability means different things to 
different people. What is a bargain to one person may feel like 
an unattainable luxury to another.
    For example, a $10,000 degree could sound great to a family 
making $150,000 yet unimaginable for someone making only 
$20,000 a year, near the poverty line.
    That is why we cannot focus only on the overarching price 
or even the average net price because it alone does not capture 
what is reasonable for families at different income levels.
    We have to start to frame affordability in terms that are 
tailored to individual and family needs, yet are transparent 
enough for most people to understand. In this vein, Lumina has 
developed the concept called the Affordability Benchmark in 
consultation with experts from inside and outside of higher 
education.
    The benchmark is based on some key principles:
    That those with the capacity to save should be encouraged 
to do so with clear guidelines that can be broken down into 
monthly amounts;
    That students without the capacity to save should not be 
expected to, and;
    That no student should have to work so much to pay for 
college that it impacts their ability to be successful in 
school.
    Two interconnected recommendations could make this a 
reality.
    First, is a Federal-state partnership for affordability, 
quality, and completion. A benchmark approach, or any other 
type of affordability guarantee, would require a new type of 
partnership between the Federal and state government in which 
colleges commit to lower prices and better outcomes for 
students over time in order to receive funding.
    States should be encouraged to invest in post-secondary 
education in order to better leverage the Federal spend.
    Because affordability cannot really be conceptually 
separated from value, it will require being more vigilant about 
quality, both to root our fraudulent practices and to ensure 
credentials are meaningful.
    Second, we must strengthen and preserve the Pell Grant. 
Pell is the foundation of Federal student aid, the bedrock on 
which the Federal commitment to students is based. 
Unfortunately, the grant itself has not kept up with the rising 
price of education.
    I urge the Committee to consider ways to strengthen Pell so 
it remains available for future generations and to encourage 
implementation of early awareness and information campaigns to 
ensure would-be students even know it exists.
    I would be happy to answer any questions about these ideas 
or share additional details.
    Thank you.
    [The prepared statement of Dr. Smith follows:]
                   prepared statement of zakiya smith
    Chairman Alexander, Ranking Member Murray, and Members of the 
Committee:

    I'm pleased and grateful to have the opportunity to testify before 
you this morning as you consider the reauthorization of the Higher 
Education Act.

    My name is Zakiya Smith, Strategy Director for Finance and Federal 
Policy at Lumina Foundation. Lumina, based in Indianapolis, is the 
Nation's largest private foundation focused specifically on increasing 
students' access to and success in post-secondary education. I've been 
at Lumina since 2013; before that I advised President Obama on higher 
education policy, worked on budget and policy at the Department of 
Education, conducted research on college access for low income students 
at the Advisory Committee on Student Financial Assistance, and did a 
short stint as a Federal work study student advising high school 
juniors and seniors on their college options at East Boston High 
School. I actually started my career in education with student teaching 
at Franklin Middle School and Freedom High School just outside of 
Nashville, in middle Tennessee.

    I share these details about my background by way of showing that 
I've been focused on helping ensure students successful transition to 
post-secondary education for my entire professional career. It's 
something that I care deeply about on a personal level. As someone 
whose grandmother attended college as a ``nontraditional'' student in 
the 50's in South Carolina before schools there were integrated and 
there was even a Higher Education Act to consider, I know both the 
transformative power of higher education and the pains that come from a 
lack of equity within the system for students of color and low-income 
students. So, I work today to close gaps by race and income and to 
consider how we might make college more affordable and equitable for 
all students.
     Affordability as a Top Concern in Improving Access and Success
    We know from research we've funded at Lumina Foundation that 
individuals of all ages and backgrounds, and particularly people of 
color, continue to believe that higher education is necessary in the 
21st century economy. Increasingly, low-income adults, students of 
color, and their families aspire to attain a post-secondary credential. 
Unfortunately, at the same time, they believe these credentials are 
unaffordable, and see increasing prices and levels of debt as barriers 
to attainment.

    When talking to students, would-be students, and their families 
directly, their concerns about college are clear--they think it's 
important but they just don't know how they will pay for it. And we 
have talked about this issue at the national level for decades. We've 
watched prices rise and tried to create measures of transparency--which 
I've supported--with the hopes that better information could create 
market pressure and direct students to more affordable options. 
Unfortunately, these efforts alone are not enough. And, as we heard in 
the hearing last week, we actually still lack the quality of 
information that would enable students to find affordable options 
tailored to their individual circumstances.

    Nearly 40 percent of today's students are 25 years old or older. 
More than one-third attend part time, and nearly 20 percent are holding 
down full-time jobs as they attend college. And a growing number are 
students of color. From 1996 to 2010, Latino student enrollment grew by 
240 percent, and black enrollment grew by 72 percent (while white 
student enrollment grew by only 11 percent). Students of color, in 
particular, are more likely to be balancing work and the 
responsibilities of parenting with going to college, as over 40 percent 
of black and Native American students are also parents \1\.
---------------------------------------------------------------------------
    \1\  Lumina Foundation (n.d.) Today's Student Statistics. Retrieved 
from: https://www.luminafoundation.org/todays--student-statistics

    Today's students, simply put, have responsibilities and commitments 
that extend far beyond the classroom. And these responsibilities in 
many cases are a real financial burden, which may help explain why 
students continue to list affordability as a top concern. And it's not 
just in their heads--contrary to popular imagination, students today 
actually have to work far more than past generations did in order to 
pay for college. Consider this-in 1971, Americans students could cover 
tuition at public colleges by working about 10 hours a week throughout 
the year. Today's student would have to work 27 hours a week at minimum 
wage to just pay public college tuition and fees alone, and they 
wouldn't have any money left over for non-tuition expenses that are 
necessary for success in college, like books and supplies, not to 
mention room and board--otherwise known as food and rent. Students 
today would have to work about 60-hour work week in order to cover the 
full cost of attendance at a public college. \2\
---------------------------------------------------------------------------
    \2\  Author's calculations derived from National Center for 
Education Statistics (NCES) data and US Department of Labor (DOL), Wage 
and Hour division data, assuming working 50 weeks per year. NCES: 
https://nces.ed.gov/programs/digest/d12/tables/dt12--381.asp,https://
nces.ed.gov/programs/coe/indicator--cua.asp DOL: https://www.dol.gov/
whd/minwage/chart.htm

    Some might argue that expenses like rent and food aren't really 
costs of college, but general costs of living that every adult must 
face. However, very few people would argue with the notion that the 
traditional student going to college straight from high school living 
on campus deserves to be able to use financial aid to pay for their 
room and board. Take that same student off campus, and now they must 
find an apartment. Room becomes rent and board is food whether 
purchased on or off campus. Ensuring these non-tuition needs are 
covered in some way--which could include child care for student parents 
and transportation to and from campus--is integral to student success. 
If basic needs aren't met, students are less likely to do well in 
school, further impeding academic progress.
  Affordability is a Conceptually Vague Term: Affordability Benchmark
    As we think about how to address this concern, we must recognize 
that affordability means different things to different people--what's a 
bargain to one person may feel like an unattainable luxury to another. 
That's why we can't focus only on the overarching price, or even the 
average net price, because it alone does not capture what is reasonable 
for families at different income levels. For example, a $10k price tag 
could sound great to a family making $150k, yet sound unattainable for 
a family making only $20k, near the poverty line. To this end, The 
Institute for College Access and Success recently found that ``families 
earn[ing] less than $30,000 would need to spend 77 percent of their 
total income to cover the net price at public 4-year colleges, more 
than double the burden placed on any other income group'' \3\.
---------------------------------------------------------------------------
    \3\  The Institute for College Access and Success. 2017. College 
Costs in Context: A state-by-state Look at College (Un)affordability. 
https://ticas.org/sites/default/files/pub--files/ college--costs--in--
context.pdf.

    For this reason, it is important to frame affordability in terms 
that are tailored to individual and family needs, yet are transparent 
enough for most people to understand. Past policy efforts to address 
affordability have either focused on targeting to the point of 
obfuscating the process for those who most need the resources or on 
simplicity and transparency without concern for the true underlying 
financial need. We need a new paradigm that addresses both concerns--a 
much clearer message about affordability to would-be students paired 
with a truly reasonable expectation of what those students might 
---------------------------------------------------------------------------
contribute to post-secondary education.

    We at Lumina have spent a lot of time talking with experts in other 
fields about this conundrum and through those conversations have come 
up with the concept of an affordability benchmark. The premise 
underlying the problem is this--students from most low-income families 
just can't afford to save anything for post-secondary education, and 
they work too much once they get to school to try to cover their costs. 
Meanwhile, students from middle and upper income families are also 
struggling, but receive no guidance about how much to save for 
college--other than being told that they should save ``a lot''. Every 
financial expert who knows anything about consumer financial behavior 
can tell you that this is a recipe for disaster. Not having safety nets 
in place for low income students or clear attainable savings goals for 
other groups means that everyone is confused and even those with the 
capacity to save are unlikely to do so.

    The benchmark is based on some key principles--that those with the 
capacity to save should be encouraged to do so with clear guidelines 
that can be broken down into monthly amounts, that students without the 
capacity to save for college shouldn't be expected to do so, and that 
no student should have to work so much to pay for college that it 
impacts their ability to be successful in school.

    The benchmark also suggests that affordability should be gauged by 
the total costs of attendance-not just tuition and fees alone, that 
lower income students should be asked to contribute no more toward the 
costs of post-secondary education than what they can afford to 
contribute from working 10 hours per week, and that middle and upper 
income students (those from families making above 200 percent of the 
poverty level) should be expected save 10 percent of their income over 
10 years to pay for post-secondary education. These numbers are based 
on sound evidence, for instance, that students working more than 10 
hours per week are at greater risk of dropping out.

    Using analyses based on this benchmark and currently available net 
price data, the Institute for Higher Education Policy (IHEP) recently 
published a report suggesting that the vast majority of colleges are 
unaffordable for all but the highest-income families. \4\
---------------------------------------------------------------------------
    \4\  Poutre, A, Rorison, J & Voight, M. (March 2017). Limited 
Means, Limited Options. Institute for Higher Education Policy. 
Retrieved from: http://www.ihep.org/limited-means-limited-options

    Still, the numbers outlined in this affordability benchmark are 
less important than the principles they represent. That is, that some 
students can't afford to pay anything, and shouldn't be expected to do 
so, that other students can afford to pay something and should be 
provided guidance about how to get there, and ultimately that programs 
focused on affordability should be clear about what that means from a 
student perspective (e.g. clearly answer the question ``what will I 
have to pay'') without requiring a maze of paperwork. These 
principles--of transparency, predictability, and reasonableness--could 
be met in a variety of ways, but the first step toward creating a 
meaningful system based on this outline would be to encourage states to 
develop their own benchmarks of reasonableness and incent them for 
meeting students' needs within these more transparent visions.
                 On Affordability and Student Loan Debt
    The idea that affordability cannot really be disconnected from 
quality is especially important to consider when taking stock of the 
growth of our loan-financed education system. In 2011-12, average debt 
for those who completed an undergraduate program (of any type) was 
$11,400, up from $6,400 in 1995-96. Debt is not necessarily bad, but 
our current system is producing terribly inequitable outcomes by race 
and income. Recently unearthed data reveal that nearly one quarter of 
black bachelor's degree graduates have defaulted on student loans, and 
that over 50 percent have higher loan balances after 12 years than when 
they first left school. \5\
---------------------------------------------------------------------------
    \5\  Miller, B. (October 2017). New Federal Data Show a Student 
Loan Crisis for African American Borrowers. Center for American 
Progress. Retrieved from: https://www.americanprogress.org/issues/
education--postsecondary/news/2017/10/16/440711/new-Federal-data-show-
student-loan-crisis-african-american-borrowers/

    Though most people are able to repay their loans without trouble, 
these newly publicized trends suggest a persistent problem with a 
subset of students that must be addressed. We need both to consider 
ways to make college more affordable on the front end and ensure that 
the quality of education is sufficient to help students repay any loans 
on the back end, as well. The additional risk posed to students from 
the reality of student loan debt requires particular attention to labor 
market outcomes. At the same time, we must recognize that our system of 
student debt is layered on top of deep racial wealth gaps and a system 
that offers neither equal pay nor equal work. Individuals experience 
disparate outcomes in the labor market based on race and gender, so 
ensuring the affordability of repayment options is an important back-
end safety net for many students, as well. I know this is a topic that 
the Committee is also considering, and it is critical that we link 
efforts to improve accountability and quality, particularly in 
connecting to loan repayment outcomes, with those designed to increase 
affordability.
              Recommendations for Addressing Affordability
    I would like to highlight here two key recommendations for 
addressing affordability aligned with the context I've shared.

           (1) A Federal state partnership for affordability, quality, 
        and completion. A benchmark approach, or any other type of 
        affordability guarantee, would require a new type of 
        partnership between the Federal and state government in which 
        colleges also commit to lower prices and better outcomes for 
        students over time. The Federal Government could encourage 
        states to advance affordable options for low-and moderate-
        income students by providing matching dollars for states that 
        can meet affordability and quality guarantees. Without this 
        kind of partnership with states and institutions, the Federal 
        Government in effect tolerates continued state disinvestment 
        and tuition increases, reducing the efficacy of the Federal 
        investment over time. States can pull back on their commitment 
        to aid and low tuition, allowing for Federal grants and loans 
        to fill the gap for students.

           Inasmuch as a Federal state partnership promotes greater 
        affordability by leveraging state investment, it should also 
        ensure that states and institutions focus on increasing post-
        secondary enrollment and completion. Focusing on affordability 
        without insisting on improved access for underrepresented 
        groups could just mean that states would make college more 
        affordable for those already attending, without actually 
        working to open doors to new students who wouldn't have 
        otherwise enrolled. This is an important point when considering 
        the potential unintended consequences of fixating on 
        affordability without connecting to a larger vision of 
        increased student success and closing equity gaps. We might 
        begin to see more affordable options across states, but 
        constricted to serve only those with high GPAs, without 
        providing access the very students who need it most.

           Additionally, because affordability can't really be 
        separated from value, this kind of partnership would also 
        require being more vigilant about quality, both to root out 
        fraudulent practices and ensure credentials are meaningful. The 
        hearing the Committee hosted last week, on accountability, 
        began to consider some of these concepts. I applaud the 
        Committee's exploration of accountability and quality. A 
        reauthorized HEA should guarantee that new investments will 
        raise institutional quality and improve outcomes with a 
        particular eye on equity.

           (2) Strengthen the Foundation of Pell. First, the Pell grant 
        program has served as an important commitment to low-income 
        students over the past several decades. Unfortunately, the 
        grant itself has not kept up with the rising price of 
        education. I urge the Committee to consider ways to strengthen 
        the Pell grant so that it remains available for future 
        generations, and to encourage implementation of early awareness 
        and information campaigns to ensure would-be students are aware 
        of its availability. Too often, students are not aware that 
        they might be eligible for Pell grants, even as past 
        reauthorizations tried to address this challenge by directing 
        the Department of Education to implement early awareness 
        campaigns. Those campaigns haven't materialized as concretely 
        as Congress may have hoped, perhaps due to funding or the 
        imposition of other priorities. Unfortunately, the challenge of 
        student awareness of their eligibility for financial aid 
        remains, limiting the power of Pell to act as an effective 
        incentive, empowering student access.
                               Conclusion
    The rising costs of a post-secondary education--and the growing 
portion of those costs being borne by students--represent a clear 
barrier to reaching the Nation's attainment goals. Federal policy must 
not only focus on students' ability to pay for post-secondary 
education, but should hold states and providers accountable for keeping 
prices at an affordable level and while maintaining quality so that 
ultimately financial aid is well spent on a quality education.

    The success of today's students and the success of our Nation is 
one and the same. But that success is not possible without your help. 
We must work together to ensure a post-secondary education system that 
has affordable, high-quality options that recognize all types of 
learning.

    I would be happy to share in more detail about any of the ideas 
raised here at your convenience.

    Thank you and I look forward to your questions.
                                 ______
                                 
    The Chairman. Thank you, Dr. Smith.
    Dr. Baum, welcome.

STATEMENT OF SANDY BAUM, PH.D., SENIOR FELLOW, URBAN INSTITUTE, 
                         WASHINGTON, DC

    Dr. Baum. Thank you, Chairman Alexander, Ranking Member 
Murray, and Members of the Committee.
    Thank you for hearing my testimony today. I commend your 
efforts to strengthen the Federal system that supports 
students' futures. I am grateful for the opportunity to share 
insights into these issues drawing on my many years as a higher 
education economist.
    I am a Fellow at the Urban Institute. As you heard, I 
research student aid, higher education finance, college access 
and success, and the payoff of higher education. I am also a 
Professor Emerita of Economics at Skidmore College. And as you 
also heard, since 2002, I have co-authored the College Board's 
annual reports, ``Trends in Student Aid,'' and ``Trends in 
College Pricing,'' which Senator Alexander earlier cited.
    I benefited greatly from the support of the organizations 
with which I have worked and my colleagues. That said, the 
views expressed in this testimony are my own.
    My written testimony includes a lot of data on college 
prices, financial aid, and the expenses students face while 
enrolled. I hope these data will inform your efforts to reform 
the Federal aid system.
    Beyond my statement today, I urge you to visit two 
websites, the Urban Institute's Understanding College 
Affordability site [http://collegeaffordability.urban.org] and 
the College Board's Trends in Higher Education site [https://
trends.collegeboard.org].
    I would like to use the few minutes I have today to focus 
on the concept of college affordability and outline what the 
available evidence suggests about the most constructive steps 
Congress can take to alleviate existing problems.
    What does it mean for college to be affordable? College 
affordability depends on the value of the education in addition 
to prices and the resources available to students at the time 
of enrollment.
    Making college cheaper will not, on its own, make it more 
affordable. No matter how low the price a program or an 
institution that does not support students in completing an 
education that serves them well, in terms of both life 
opportunities and labor market success, will prove 
unaffordable.
    An education that provides a significant earnings premium 
and opens doors to opportunities for students may be affordable 
even if it requires borrowing and using some of the added 
earnings to repay student debt.
    Our Nation has made a lot of progress in increasing access 
to college, but students from low income families are less 
likely than others to complete their programs. And when they do 
complete, too often their credentials are of limited value in 
the labor market.
    High and rising tuition prices create a real challenge, but 
non-tuition expenses--including books and supplies, housing and 
food, et cetera--create the greatest financial hurdles for many 
students and families.
    These expenses affect students differently depending on 
their financial circumstances. The incomes of low and middle 
income students have stagnated or declined in recent years.
    Published prices have been rising faster than average 
prices in the economy for decades. And my read in that of many 
economists is that the reliable literature suggests that 
Federal aid is not a significant explanation for rising prices. 
Increases in both institutional grant aid and Federal aid have 
reduced the barriers to college education and lowered the net 
prices for many students.
    Congress has made progress in supporting college 
affordability and has the opportunity to do even more.
    What can Congress do?
    The goal should be ensuring that more students can access 
and succeed in high quality programs. I would be happy to 
provide more details about the following evidence-based 
suggestions, strengthening the existing system.
    First, Congress should ensure that aid programs are simple, 
predictable, and easy to apply for. Notices with information 
about Federal and state grants sent to families on the basis of 
tax returns could significantly boost preparation for college.
    Pell Grant award levels should be indexed for inflation and 
the system designed to provide assurance that political and 
economic vicissitudes will not threaten the program from year 
to year.
    Similar principles apply to loan repayment. There should be 
one income-based repayment plan, preferably with a well 
designed payroll withholding system. Payments should be 
manageable for all borrowers, and most borrowers should repay 
their entire debts with appropriate interest. The amount repaid 
should relate to the amount borrowed, possibly linking the 
length of time before balances are forgiven to the amount of 
debt.
    Second, Congress should enact policies that help students 
make better choices by placing meaningful restrictions on 
institutional eligibility for participation in Federal student 
aid programs, and providing better guidance for students 
choosing where and what to study.
    It should hold institutions receiving Federal funds 
accountable for outcomes. Students should not be able to take 
their Federal aid to schools that have little chance of serving 
them well. The aid system could also incorporate personalized 
guidance before students enroll.
    Finally, Congress should design effective Federal 
incentives to increase state funding of need-based grant aid 
and of the public institutions that educate most low income 
students.
    A stronger Federal-state partnership will make Federal 
dollars go farther in achieving their goals.
    Thank you for the opportunity to participate today.
    I would be happy to answer your questions and provide 
further data and resources that may be helpful to your 
deliberations.
    [The prepared statement of Dr. Baum follows:]
                    prepared statement of sandy baum
    Chairman Alexander, Ranking Member Murray, and Members of the 
Committee:

    Thank you for the opportunity to testify today about college 
affordability. I commend your efforts to strengthen the Federal system 
that supports students striving to invest in themselves and their 
futures. I am privileged to have the opportunity to share some insights 
into college affordability emerging from my long career as a higher 
education economist studying these issues.

    I am a fellow at the Urban Institute, where I research student aid, 
higher education finance, college access and success, and the payoff of 
higher education for both students and society as a whole. In addition, 
I have co-authored the College Board's annual reports, Trends in 
College Pricing and Trends in Student Aid, every year since 2002. These 
reports are a trusted source of detailed data on college prices over 
time and on the history and distribution of student aid. I am also 
professor emerita of economics at Skidmore College.

    The views expressed in this testimony are my own, not those of any 
organization with which I am affiliated, its trustees, or its funders.

    My testimony begins with a discussion of the concept of college 
affordability, including the resources available to students and 
families and the economic value of college education. An overview of 
proposals for congressional action to ameliorate existing problems 
follows. I then provide critical data on issues central to college 
affordability including tuition prices, net prices, student aid, non-
tuition expenses, and student debt. These data underlie my 
recommendations and I hope they will help inform the decisions facing 
Congress.
            College Affordability: Understanding the Concept
    High tuition and fees and living expenses, along with a shortage of 
grant aid to help students with limited means cover those expenses, 
obviously make college less ``affordable'' than it would be if the 
prices of all the things students have to pay for were lower. But 
knowing these prices is not enough to evaluate the financial hurdles 
students and families face.

    As the comprehensive view on the Urban Institute's Understanding 
College Affordability website (collegeafforedability.urban.org) 
suggests, whether college is affordable for college and for society as 
a whole depends on how much it costs to deliver quality education; on 
the resources available to institutions, governments, students, and 
families to pay those costs; and on the value of the education. Making 
college cheaper won't make it more affordable unless sufficient 
resources are invested in providing the academic and personal supports 
students need to succeed and unless the degrees and certificates they 
earn serve them well in the labor market and throughout their lives.

    Rising prices certainly contribute to the financial strain of 
paying for college. But much of the hardship is caused by low 
completion rates of students who enroll; by stagnant family incomes and 
rising inequality; and by the reality that while, on average, college 
degrees pay off very well in the labor market, earnings vary widely 
among adults with similar levels of education. Post-college income is 
one important indicator of the value of education; for most students, 
it includes a premium over what they would otherwise have earned, some 
of which can reasonably be devoted to repaying student loans. Higher 
education improves life prospects for most students substantially, but 
some students, especially many of those who do not complete their 
degrees, end up worse off after paying for college than they would have 
been if they had never made the investment.
                      Student and Family Resources
    The failure of real median pretax family income to grow measurably 
in recent years makes it more and more difficult to pay for college 
(figure 1).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Moreover, the personal savings rate is too low to support most 
families in planning ahead and spreading the costs of college over the 
years before their children enroll. The personal savings rate in the 
United States fell from 8.0 percent of after-tax income in December 
1987 to 5.8 percent in 1997, 3.0 percent in 2007, and 2.4 percent in 
2017. \1\
---------------------------------------------------------------------------
    \1\  Federal Reserve Bank of St. Louis, FRED Economics Data, 
``Personal Savings Rate,'' February 3, 2018, https://
fred.stlouisfed.org/series/PSAVERT.

    Changes in median family income understate the problems families 
from the lower half of the income distribution face in paying for 
college. Students from low-and moderate-income families get more grant 
aid and pay lower net prices than more affluent students, but the 
differences are far from what would be required to compensate for the 
large and growing gaps in income across families. The share of total 
family income accruing to those in the bottom 40 percent fell from 13 
percent in 1996 to 12 percent in 2006 and to 11 percent in 2016. Over 
the same period, the share of the top 20 percent rose from 49 percent 
to 50 percent to 52 percent. \2\ In other words, low-and moderate-
income families face increasing struggles relative to others.
---------------------------------------------------------------------------
    \2\  U.S. Census Bureau, Historical Tables: Income Inequality, 
Table H-2, 2017. within 8 years.
---------------------------------------------------------------------------
                         Access Versus Success
    Our nation has done an admirable job of increasing access to 
college. Significant gaps in enrollment rates across socioeconomic 
groups persist, but more than 85 percent of high school graduates have 
some college experience within 8 years. \3\ However, students from low-
income families disproportionately enroll in public 2-year and for-
profit institutions. They are less likely than others to complete their 
programs; and, when they do complete them, too often the credentials 
have limited value in the labor market. \4\
---------------------------------------------------------------------------
    \3\  American Academy of Arts and Sciences Commission on the Future 
of Undergraduate Education, 2017, Top Ten Takeaways About 
Undergraduates (based on data from NCES, Education Longitudinal Study), 
https://www.amacad.org/multimedia/pdfs/publications/
researchpapersmonographs/PRIMER-cfue/PRIMER-Top-Ten--Takeaways.pdf.
    \4\  Harry Holzer and Sandy Baum, Making College Work: Pathways to 
Success for Disadvantaged Students (Washington, DC: Brookings 
Institution Press, 2017).

    The average payoff to college degrees is quite high, but earnings 
vary considerably among adults with the same education level.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    A third of 35-to 44-year-olds whose highest degree is a bachelor's 
degree had incomes of $80,000 or higher between 2009 and 2013, compared 
with just 6 percent of those with only a high school diploma. But a 
quarter of bachelor's degree recipients earned less than $35,400. Not 
all bachelor's degrees--or degrees of any other type--pay off equally 
well in the labor market. For those whose degrees do not pay off, 
college turns out not to have been affordable. \5\
---------------------------------------------------------------------------
    \5\  Graduates who make the choice to follow career paths with low 
earnings are in very different situations from those who do not have 
viable choices.

    The reality is that lowering college prices for students is an 
important strategy for helping them succeed. More generous grant aid 
can make a real difference in student success. But ensuring that 
students have the support they need to make good choices about where to 
enroll and what to study and to succeed in completing their programs is 
also critical. College is a very good investment but an uncertain on. 
Insurance against unexpected weak outcomes is an important part of the 
federal government's role in ensuring college affordability.
                  Seeking Solutions: The Federal Role
    The Federal student aid system plays a significant role in reducing 
the barriers to college access and success. Federal grants and loans 
have allowed millions of Americans to earn college credentials that 
improve their lives and increase their contributions as citizens and as 
workers.

    Many of the significant remaining barriers originate outside the 
higher education system. Largely because of extreme inequalities of 
income and wealth and limited access to high-quality early education 
and health care for many Americans, too many young adults are not 
prepared to succeed in college. \6\
---------------------------------------------------------------------------
    \6\  See, for example Helen Ladd, ``Education and Poverty: 
Confronting the Evidence,'' Journal of Policy Analysis and Management 
31, no. 2 (2012): 203--27; and Phillip Oreopoulos, Mark Stabile, Leslie 
Roos, and Randy Walld, ``The Short, Medium, and Long Term Effects of 
Poor Infant Health,'' Journal of Human Resources 43, no. 1 (2008): 88--
138.

    The Federal Government is also limited by the reality that a great 
strength of our higher education system is the diversity of 
institutions and credentials it offers. The autonomy of states, and of 
colleges and universities, to innovate and meet the needs of differing 
---------------------------------------------------------------------------
populations is central to our success.

    Reauthorization of the Higher Education Act cannot solve all the 
problems facing higher education and its students. But Congress does 
have the opportunity to create a more equitable society and a more 
efficient economy by making changes such as these to the existing 
system:

        <bullet>  1. Simplify the application process for Federal 
        student aid. Reducing the amount of information students must 
        provide on the FAFSA and relying more on data the IRS already 
        has would increase the number of students who successfully 
        access Federal aid. \7\
---------------------------------------------------------------------------
    \7\  For clear evidence of the role of easing the application 
process, see, for example, Eric Bettinger, Bridget Long, Philip 
Oreopoulos, and Lisa Sanbonmatsu, ``The Role of Application Assistance 
and Information in College Decisions: Results from the H&R Block FAFSA 
Experiment,'' Quarterly Journal of Economics 127, no. 3 (2012). A 
summary of the results is available from The National Bureau of 
Economic Research at http://www.nber.org/digest/feb10/w15361.html.

        <bullet>  2. Simplify the formula for calculating eligibility 
        for Pell grants so prospective students can predict well in 
        advance how much aid they will receive. The Federal Government 
        could actively work to improve awareness of Pell grants and 
        encourage young people to prepare for college both financially 
        and academically. A good option would be to send out notices to 
        school children and their parents, based on the families' tax 
        returns, that would provide information about the Federal and 
        state grant available to them if their circumstances stay the 
---------------------------------------------------------------------------
        same.

        <bullet>  3. Ensure that the Pell grant program is amply and 
        securely funded. Award levels should be indexed for inflation 
        and the system designed to provide assurance that political and 
        economic vicissitudes will not threaten the program from year 
        to year.

        <bullet>  4. Place meaningful restrictions on institutional 
        eligibility for participation in Federal student aid programs 
        and better guide students making post-secondary choices. 
        Students should not be able to use their aid at institutions 
        with very low transfer and completion rates, low student loan 
        repayments rates, or poor employment outcomes. \8\
---------------------------------------------------------------------------
    \8\  For discussion of setting benchmarks for these measures of 
institutional success, see Sandy Baum and Saul Schwartz, For Which 
Institutions Should Students Borrow? Setting Benchmarks, Urban 
Institute, forthcoming

        <bullet>  5. Even with the least successful institutions 
        eliminated from the system, students need better guidance about 
        choosing where and what to study. Proposals to integrate 
        personalized guidance into the Federal aid system, such as one 
        from myself and Judith Scott-Clayton in Redesigning the Pell 
        Grant Program for the Twenty-First Century could increase the 
        value of students' investments in post-secondary education--
        thus increasing its affordability. \9\
---------------------------------------------------------------------------
    \9\  Sandy Baum and Judith Scott-Clayton, Redesigning the Pell 
Grant Program for the Twenty-First Century, Hamilton Project Policy 
Brief 2013-04 (Washington, DC: Brookings Institution, 2013).

        <bullet>  6. Hold institutions that receive Federal student aid 
        funds accountable for student outcomes. Developing ideas about 
        holding institutions responsible for a share of the Federal 
        loans their students do not repay deserve serious 
        consideration. Most promising is a recent proposal from Tiffany 
        Chou, Adam Looney, and Tara Watson that would base 
        institutional obligations on the repayment rate--the amount 
        each institution's students have repaid after 5 years--and use 
        the recovered funds to provide support to institutions that 
        serve low-income students well. \10\
---------------------------------------------------------------------------
    \10\  Tiffany Chou, Adam Looney, and Tara Watson, A Risk-Sharing 
Proposal for Student Loans, Hamilton Project Policy Proposal 2017-04 
(Washington, DC: Brookings Institution, 2017).

        <bullet>  7. Design effective incentives to increase state 
        funding of need-based grant aid and of the public institutions 
        that educate most low-income students. Federal dollars can go 
        farther toward increasing educational attainment if they 
        support state efforts to subsidize students who do not have the 
---------------------------------------------------------------------------
        resources they need to enroll and succeed in college.

        <bullet>  8. Simplify and reform the Federal student loan 
        repayment system. Income-driven student loan repayment is a 
        critical component of college affordability. While it should be 
        possible to diminish the number of students whose investments 
        in higher education do not pay off by restricting institutional 
        eligibility for participation in Federal student aid programs 
        and providing better guidance for students, outcomes will 
        always be variable. There will always be students for whom 
        college does not pay off well financially, and even if they 
        have borrowed responsibly, they will struggle to repay their 
        loans. The Federal Government should provide reliable insurance 
        against these unanticipated poor outcomes by linking loan 
        repayment obligations to post-college incomes.

    There should be one income-driven loan repayment plan, and Congress 
should authorize a pilot program to develop a system of collecting 
payments through payroll withholding. The system should be designed so 
payments are manageable for all borrowers and most borrowers repay 
their debts with appropriate interest. The amount repaid should relate 
to the amount borrowed, possibly by linking the length of time before 
balances are forgiven to the amount of debt. There is no solid evidence 
of the availability of Federal student aid contributing significantly 
to rising college prices outside the for-profit sector, but allowing 
students to borrow virtually unlimited amounts they are never likely to 
have to repay will surely diminish the incentive to hold tuition prices 
down. \11\
---------------------------------------------------------------------------
    \11\  For careful overviews of the evidence--or lack thereof--for 
the relationship between Federal aid and tuition prices, see Adam 
Stoll, David Bradley, and Shannon Mahan, Overview of the Relationship 
between Federal Student Aid and Increases in College Prices, 7-5700 
(Washington, DC: Congressional Research Service, 2014), http://
c.ymcdn.com/sites/www.ncher.us/resource/collection/1CFB07FA-74C6-4F0A-
8E79-3ADB2C453546/R43692.pdf; U.S. Government Accountability Office, 
Federal Student Loans: Patterns in Tuition, Enrollment, and Federal 
Stafford Loan Borrowing Up to the 2007-08 Loan Limit Increase 
(Washington, DC: GAO, 2011), https://www.gao.gov/assets/100/97510.pdf; 
and Bridget Terry Long, ``College Tuition Pricing and Federal Financial 
Aid: Is there a Connection?'' testimony before the U.S. Senate 
Committee on Finance, December 5, 2006, https://www.finance.senate.gov/
imo/media/doc/120506bltest.pdf.
---------------------------------------------------------------------------
                             College Prices
    Members of Congress, students and families, and everyone interested 
in ensuring broad access to higher education should be concerned about 
high levels of tuition and fees and the rapid rise in these prices. 
However, these prices constitute only one piece of the complex picture 
of college affordability in the United States.
                  Published Tuition and Fees Over Time
    The prices colleges and universities list for tuition and fees do 
not represent what students actually pay. Many institutions, 
particularly private non-profit colleges and universities but also many 
public 4-year ones, provide considerable amounts of institutional grant 
aid. In other words, they discount the prices they charge many--and in 
some cases, all--students. But the published prices still matter. A 
significant number of students do pay these prices. In 2015--16, 63 
percent of students received grant aid from some source and 27 percent 
did not. Among full-time students, 77 percent received grant aid and 23 
percent did not. \12\ Moreover, high sticker prices may discourage 
students, particularly low-income students whose parents lack college 
experience, from even applying to college.
---------------------------------------------------------------------------
    \12\  David Radwin et al., 2015--16 National Post-Secondary Student 
Aid Study (NPSAS:16) Student Financial Aid Estimates for 2015--16: 
First Look, National Center for Education Statistics, NCES 2018-466, 
table 1 (January 2018).

    What has happened to published tuition and fees over time? As the 
College Board's Trends in College Pricing 2017 report (of which I am a 
co-author) documents, in 2017--18, average tuition at public 4-year 
colleges and universities is more than three times as high, after 
adjusting for inflation, as it was 30 years ago. Prices in the public 
2-year and private non-profit 4-year sectors are more than twice as 
high in real terms as they were in 1987--88 (figure 3).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Tuition rising more rapidly than average prices in the economy (the 
consumer price index) is not a new development. In fact, between 2007--
08 and 2017--18, average prices at private non-profit 4-year and public 
4-year institutions rose at a slower rate than they had over the 
previous two decades. In the private non-profit sector, average 
published tuition and fees rose by 3.3 percent beyond inflation between 
1987--88 and 1997--98, by 2.7 percent over the following decade, and by 
2.4 percent over the most recent decade. These figures, reported in 
figure 4, compare percentage rates of growth. In dollar terms, the 3.2 
percent average annual rate of increase in published in-state tuition 
and fees in the public 4-year sector between 2007--08 and 2017--18 
corresponds to an average annual increase of $270 in 2017 dollars, 
compared with $160 per year between 1987--88 and 1997--98 and $250 per 
year between 1997--98 and 2007--08. \13\
---------------------------------------------------------------------------
    \13\  Jennifer Ma, Sandy Baum, Matea Pender, and Meredith Welch, 
Trends in College Pricing 2017 (New York: College Board, 2017), p. 13.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                     Variation in Tuition and Fees
    Elite private colleges frequently make the headlines with their 
tuition prices. It's true that published tuition and fee prices at the 
most expensive colleges exceed $50,000 and, when room and board are 
added in, the price tag for students not receiving aid can be about 
$65,000. But even at private non-profit colleges, only 13 percent of 
students are enrolled at institutions charging more than $50,000 in 
tuition and fees, and about a quarter face charges less than half that 
amount. \14\
---------------------------------------------------------------------------
    \14\  Ma et al., Trends in College Pricing 2017, figure 2.
---------------------------------------------------------------------------
    In 2017--18, average published tuition and fees were $3,570 for 
full-time students at community colleges. The average for full-time in-
state undergraduates at public master's universities was $8,670, 
compared with $10,830 at public doctoral universities. In the private 
non-profit sector, average published tuition and fees ranged from 
$29,960 at master's institutions to $42,920 at doctoral universities 
(table 1).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Charges also differ significantly within sectors. In 2017--18, 
average published tuition and fee prices for in--state students at 
public 4-year institutions range from $5,220 in Wyoming and $6,360 in 
Florida to $16,040 in Vermont and $16,070 in New Hampshire (table 2).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               Net Prices
    As noted above, most students receive grant aid to help them pay 
for college. Many students also benefit from Federal tuition tax 
credits. (In 2017--18, more than 13 million students--almost twice the 
number of Pell grant recipients--received education tax credits and 
deductions.)

    Because of this aid, the average tuition prices students pay are 
much lower than the average published prices. Moreover, net prices have 
risen more slowly than published prices. Federal and institutional aid 
explain most of this difference. Figure 5 reveals a few key points 
about the difference between net prices and published prices:

        <bullet>  At public 2-year colleges (community colleges), on 
        average grant aid and tax benefits combined more than cover 
        tuition and fees. However, the average net tuition and fee 
        price reached a low of--$910 in 2010--11 and has risen every 
        year since, as increases in grant aid have failed to keep pace 
        with price increases. In 2017--18, the average full-time 
        community college student has $330 of grant aid left to put 
        toward books and other expenses after paying tuition and fees. 
        Net tuition, fees, room, and board average over $8,000.

        <bullet>  At public 4-year colleges and universities, the 
        average net price fell dramatically in 2008--09 and 2009-- 10 
        as the Federal Government increased Pell grants and tax credits 
        in the face of diminished state subsidies and rising tuition 
        prices. The average net price has risen every year since 2009--
        10 and is now about $4,100--less than half the published price. 
        When room and board are added, the average net price for full-
        time, public 4-year college students is about $15,000 a year--
        expenses that have to be covered with a combination of parental 
        support, work, and loans.

        <bullet>  The average full-time student at a private non-profit 
        4-year institution receives about $20,000 a year in a 
        combination of grant aid and Federal tax benefits to help pay 
        for college. About three-quarters of that aid comes from the 
        institutions in which the students are enrolled. The average 
        2017--18 net tuition and fee price of $14,500 is lower (after 
        adjusting for inflation) than the average net price in 2007--
        08, but it has risen every year since 2011--12. Average net 
        tuition, fees, room and board is almost $27,000 per year.
        
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              Student Aid
    The difference between the published prices and the net prices 
students actually pay results from aid provided by Federal and state 
governments, colleges and universities, and employers and other private 
sources. In addition to this aid, Federal education loans help students 
and families spread their payments for college over time.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Since 2010--11, as the economy has been recovering from the Great 
Recession, total grant aid has risen (figure 6), but total education 
borrowing has declined year after year (figure 7). Part of the decline 
in borrowing is due to declining enrollments in the for-profit sector 
and, to a lesser extent, community colleges. But borrowing per students 
has also declined (figure 8).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Understanding trends in the grant aid that helps students pay for 
college is complicated by the recession. The choice of beginning years 
can dramatically alter the picture that emerges. For example, the $26.6 
billion in total Pell grant expenditures in 2016--17 represented a 75 
percent increase in inflation-adjusted dollars over 10 years--but a 26 
percent decline from 2011--12. Federal aid to veterans and active 
military has grown dramatically and now represents 30 percent of all 
Federal grant aid to undergraduate students.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In 2011--12, institutional grant aid to undergraduates was similar 
to Pell grants--$34.9 billion versus $35.8 billion. But by 2016--17, 
institutional grant dollars for undergraduates were 75 percent higher 
than Pell grants--$46.1 billion versus $26.6 billion. Federal grants 
(including aid to veterans and active military) declined from 46 
percent of total grant aid in 2011--12 to 37 percent in 2016--17 (table 
3).

    Federal Pell grants provided basic funding to more than 7 million 
low-and moderate-income students in 2016--17. More than half of those 
students were independent, not relying on parents for financial 
support. Among dependent recipients, three-quarters came from families 
with incomes of $40,000 or lower. In 2016--17, when the maximum Pell 
grant was $5,820, the average award was $3,740. \15\ These funds do not 
come close to covering expenses for low-income students, but they do 
make it possible for many who would otherwise be unable to piece 
together the necessary funds to enroll in college.
---------------------------------------------------------------------------
    \15\  Sandy Baum, Jennifer Ma, Matea Pender, and Meredith Welch, 
Trends in Student Aid 2017 (New York: College Board, 2017), figures 16, 
18B.
---------------------------------------------------------------------------
                          Nontuition Expenses
    Because it is difficult to combine successful engagement in college 
studies with full-time work, many students struggle to cover their 
living expenses while they are in school. These living expenses, 
especially when added to the cost of books and other necessary 
supplies, are considerably larger than published tuition and fees for 
most students.

    In 2016--17, tuition and fees represented 20 percent of the total 
estimated expense budgets for full-time students at public 2-year 
colleges and 39 percent for those at public 4-year institutions. 
Published tuition and fees constitute more than half the budget only 
for public 4-year college students enrolled outside their state of 
residence and for private non-profit 4-year college students (figure 
9).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    These total budgets are based on estimates of living expenses 
developed by financial aid offices. They include many expenses that 
people would incur even if they were not in school, such as food and 
rent. But even though most students work at least part time, few earn 
enough to cover these expenses.

    Many low-income students do not actually pay tuition and fees. In 
fact, on average, low-income students at both 2-year and 4-year public 
institutions paid $0 in net tuition and fees in 2011--12, the latest 
year for which these detailed data are available (figure 10). Still, we 
know that many low-income students struggle financially while they are 
in school. Research from the Urban Institute has documented a 
significant amount of food insecurity, particularly among community 
college students. \16\ While it is difficult to isolate the role of 
finances in students' dropping out without completing their programs, 
it is clear that many need assistance with meeting other expenses--not 
just tuition and fees--if they are to succeed.
---------------------------------------------------------------------------
    \16\  Kristin Blagg, Craig Gundersen, Diane Schanzenbac, and James 
Ziliak, ``Assessing Food Insecurity on Campus, (Washington, DC: Urban 
Institute, 2017), https://www.urban.org/sites/default/files/
publication/92331/assessing--food--insecurity--on--campus--3.pdf.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              Student Debt
    Much of the current concern over college affordability relates to 
the attention to rising student debt levels. There is no question that 
an increasing share of undergraduates are borrowing to help finance 
their education and that average debt levels are growing. But there is 
a considerable amount of misunderstanding about where the real problems 
lie.

    As noted above, investing in college pays off well on average and 
for most students. The 60 percent of those who completed bachelor's 
degrees at private non-profit and public institutions in 2015--16 who 
had taken students loans borrowed an average of $28,400. \17\ Median 
annual income for 25-to 34-year-olds with bachelor's degrees is $19,500 
higher than the median for high school graduates. \18\ It doesn't 
require a large share of this earnings premium to repay the average 
debt in a few years.
---------------------------------------------------------------------------
    \17\  Baum et al., Trends in Student Aid 2017 (New York: College 
Board, 2017), figure 12.
    \18\  U.S. Census Bureau, Educational Attainment-People 25 Years 
Old and Over, by Total Money Earnings, Work Experience, Age, Race, 
Hispanic Origin, and Sex, PINC-03 (2017).

    The debt levels of 4-year college graduates, however, vary 
considerably. Students who earn their degrees at for-profit 
institutions, independent students, and black students are particularly 
likely to borrow at high levels. \19\
---------------------------------------------------------------------------
    \19\  Urban Institute, ``Understanding College Affordability,'' 
http://collegeaffordability.urban.org/after-college/student-debt/#/.

    The real problems lie with students who borrow relatively little 
but leave school without a degree or certificate or earn a credential 
with little labor market value. Among students who entered repayment in 
2011--12, 24 percent of those who had not completed their programs had 
defaulted within 2 years, compared with 9 percent of completers. \20\ 
Default rates are highest for those with the lowest levels of debt, and 
about two-thirds of defaulters owe less than $10,000. \21\ Improving 
rates of program completion is an important policy goal in improving 
college affordability.
---------------------------------------------------------------------------
    \20\  Urban Institute, ``Understanding College Affordability,'' 
http://collegeaffordability.urban.org/after-college/loan-repayment--
and-default//delinquency--and--default.
    \21\  Baum et al., Trends in Student Aid 2017, figure 12B.

    Households in the upper quartile of the income distribution hold 
most of the outstanding student debt. \22\ They have advanced degrees 
or at least bachelor's degrees, and the vast majority will successfully 
repay their loans. The more serious student debt problem is too many 
students borrowing for programs in which they have a low chance of 
succeeding and accruing debts that will impede their abilities to 
support themselves and their families.
---------------------------------------------------------------------------
    \22\  Sandy Baum and Victoria Lee, ``Affluent households owe the 
most student debt,'' Urban Wire, January 22, 2018, https://
www.urban.org/urban-wire/affluent-households-owe-most-student-debt.
---------------------------------------------------------------------------
                               Conclusion
    Many factors combine to create challenges for students and families 
paying for post-secondary education. The Federal Government has a 
responsibility to ensure that those with the most limited resources can 
overcome the multiple challenges they face in earning college 
credentials that will allow them to lead successful and productive 
lives and create opportunities for their children.

    Congress should use the reauthorization of the Higher Education Act 
to strengthen the student aid system so it better supports student 
success and protects against unanticipated poor outcomes and to ensure 
that institutions provide high-quality educational opportunities to 
their students.
                                 ______
                                 
                   [summary statement of sandy baum]
    High and rising tuition prices create a real challenge to many 
students and families attempting to finance a college education. But 
many other factors also contribute to college affordability. Incomes at 
the top of the income distribution have grown enough in recent years to 
keep up with the price of college, but the incomes of lower-and middle-
income households have stagnated or declined. Low savings rates mean 
that few families successfully prepare in advance for college payments.

    College affordability depends on more than tuition prices and other 
expenses students incur and the resources available at the time of 
enrollment. The value of the education helps determine its 
affordability over the long run. No matter how low the price, a program 
or an institution that does not support students in completing an 
education that will serve them well, both in life opportunities and 
labor market success, will turn out to be unaffordable. An education 
that provides a significant earnings premium and opens doors to 
opportunity for students is affordable, even if it requires borrowing 
and using some of the added earnings to repay student debt.

    The Federal student aid system plays a critical role in increasing 
the number of Americans who can enroll and succeed in post-secondary 
education. Yet too many barriers remain, and Congress has an 
opportunity to address some of them with the impending reauthorization 
of the Higher Education Act.

    Congress should help make college more affordable for students and 
families by simplifying the aid application process, making Pell grants 
more predictable and reliable, eliminating institutions with very poor 
outcomes from Federal aid programs and holding institutions accountable 
for student success, providing better information and guidance for 
students, and improving the income-driven system for student loan 
repayment.

    The data required to understand trends in college affordability 
include information on

        1. the net prices students actually pay in addition to 
published prices,

        2. non-tuition expenses students must be able to meet in order 
to succeed in college,

        3. institutional grant aid as well as the grants and loans 
available from the Federal Government, and

        4. student debt.

    Basing policies on reliable data and evidence about effectiveness 
is the best strategy for increasing college access and success.
                                 ______
                                 
    The Chairman. Thank you, Dr. Baum.
    Dr. Anderson, welcome.

STATEMENT OF ROBERT E. ANDERSON, PH.D., PRESIDENT, STATE HIGHER 
  EDUCATION EXECUTIVE OFFICERS ASSOCIATION, BOULDER, COLORADO

    Dr. Anderson. Chairman Alexander, Ranking Member Murray, 
and Members of the Committee.
    Thank you for the opportunity to testify.
    My name is Rob Anderson, and I am President of the State 
Higher Education Executive Officers Association.
    For the first time in our Nation's history, we are at the 
cusp of college students and their families paying for the 
majority of college costs. In 2016, net tuition revenue 
accounted for 47.3 percent of total revenue in higher 
education, up from 36.7 percent 10 years earlier.
    This increased reliance on tuition dollars most adversely 
impacts those students who can least afford it: our 
historically underserved populations.
    The combination of increased costs and stagnant wage growth 
has resulted in an increasingly large gap between the cost of 
college and a family's ability to pay for college.
    There are several noticeable trends during economic 
downturns.
    First, state funding per student declines while enrollments 
increase as the newly unemployed enter higher education for up-
skilling and retraining. Consequently, institutional reliance 
on tuition revenue increases as do tuition rates.
    During periods of economic recovery, state appropriations 
generally increase and increases in tuition tend to moderate.
    Unfortunately, the most recent educational recovery has not 
been as robust as we have experienced in the past; state 
investment in higher education declined by 26 percent per 
student between 2008 and 2012. In constant dollars, this marked 
the lowest funding level per student since 1980. By 2016, 
funding had partially recovered, but remained 15 percent below 
pre-recession levels. Only four states reported in 2016 that 
their state and local funding exceeded 2008 levels.
    While state funding per student has declined, we also know 
that the situation is worse in the institutions where the 
majority of our underserved students reside. These institutions 
receive fewer state resources.
    A 2016 study by Bridget Terry Long notes that while holding 
other factors constant, public research institutions received 
$2,500 more per Full Time Equivalent student than other public 
4-year institutions, and $5,200 more than public 2-year 
colleges.
    However, there is good news in that reducing these funding 
inequities can result in meaningful gains. Recent research by 
David Deming and Christopher Walters found that at community 
colleges, a 10 percent rise in spending increases Associate's 
Degree completion by 10 percent and certificates by 23 percent, 
both within a 1-year period of time. Bachelor's Degree 
completion rose between 4 and 5 percent within 3 years.
    Similarly, the researchers cleared that directing increased 
aid to low income students raises both enrollments and 
graduation rates.
    With this context in mind, we must provide a targeted 
approach to address system inequities and inefficiencies. 
President Trump recently proposed a partnership that includes 
Federal, state, and local entities to address our Nation's 
infrastructure needs. I agree that this is a national 
imperative.
    A similar post-secondary partnership that incentivizes 
increased investment in students and institutions, that are 
most in need, would benefit us all and is of similar national 
importance.
    Funding should flow to keep tuition increases modest and 
predictable, while expanding system-wide strategies resulting 
in increased college completion and accountability.
    Additional resources should be targeted and focused on 
outcomes. Forty-one states now have attainment goals, set at a 
level that matches workforce demands, and nine states have 
well-designed allocation models aligned to pay for outcomes, 
particularly the improved outcomes of underrepresented 
students.
    States and systems are also developing plans informed by 
data with campus level completion goals and strategies to 
expand lower priced options.
    Members of the Committee, yes, money matters and both the 
Federal Government and states will need to spend more if we 
want double digit improvements in the next decade. But this is 
not just a matter of resources, but also of leadership and 
system alignment.
    This Committee, and the Nation you represent, should have 
assurances that state governments, higher education systems and 
their campuses are in lockstep regarding attainment goals, 
spending, and strategies.
    Thank you, and I would be happy to answer any questions.
    [The prepared statement of Dr. Anderson follows:]
                 prepared statement of robert anderson
    Chairman Alexander, Ranking Member Murray and Members of the 
Committee:

    Thanks you for the opportunity to testify today. My name is Rob 
Anderson, and I am the President of the State Higher Education 
Executive Officers (SHEEO) Association. SHEEO is the national 
association of the chief executives of statewide governing, policy, and 
coordinating boards of post-secondary education. We seek to advance 
public policies and educational practices to achieve more widespread 
access to and completion of higher education, more discoveries through 
research, and more applications of knowledge that improve the quality 
of human lives and enhance the public good.

    I have been asked to address the issue of college affordability. As 
the only national membership organization representing the state 
perspective on higher education, I feel a special obligation to focus 
on the role of higher education finance and policy in either removing 
or raising barriers to college student success and to address how we 
might utilize the tools available to us to move our states and our 
country forward toward greater prosperity and equity. To do this, I 
will be addressing the following interrelated topics: 1) state higher 
education finance trends, 2) the implications of cost and 
affordability, 3) the implications of institutional resources, 4) 
aligning state appropriations and tuition policies with strategies for 
affordability, 5) the concept of a Federal/state partnership for 
affordability, and 6) recommendations moving forward.
                 State Higher Education Finance Trends
    It is well known that the cost of attending college has been rising 
for students and families for decades. This steady increase in cost has 
constrained student choice and priced generations of potential students 
out of higher education. Every state and Federal higher education 
finance decision made moving forward ought to reflect this reality. In 
order to accurately understand and respond to the reality of this cost 
crisis, accurate data and relevant high-quality research are needed. In 
that regard, the State Higher Education Finance (SHEF) report brings 
important context and trend analysis to help inform policy decisions 
made in this arena. Since 2003, SHEEO's State Higher Education Finance 
report has been a leading national resource for tracking national and 
state-level trends in state and local funding, tuition revenue, and 
enrollment. These trend data go back to 1980, and depict the impact of 
the economic cycle on the balance between tuition and state 
appropriations.

    The SHEF report depicts educational appropriations from state and 
local sources and how these resources interact with tuition. In 2016, 
net tuition revenue accounted for 47.3 percent of total revenue in 
higher education, up from 36.7 percent 10 years earlier. \1\ This 
increased reliance on tuition dollars most adversely impacts those 
students who can least afford it--our historically underserved 
populations.
---------------------------------------------------------------------------
    \1\  Carlson, A. and Laderman, S. (2016). State Higher Education 
Finance 2015, Figure 5. Retrieved from http://sheeo.org/sites/default/
files/project-files/SHEEO--SHEF--2016--Report.pdf

    There are several noticeable trends during economic downturns. 
First, per student funding declines as states struggle to maintain 
current levels of support for higher education. Concurrently, 
enrollments increase as the newly unemployed enter higher education for 
upskilling and retraining. Third, during downturns, institutional 
reliance on tuition revenue increases as do tuition rates in most 
cases. During periods of economic recovery, these trends reverse. Per 
student funding levels increase, enrollments decline, and reliance on 
tuition stabilizes.
    Figure 1 indicates that the Great Recession had a profound impact 
on state funding for higher education. Immediately before the downturn, 
in 2008, educational appropriations per student in the United States 
were $8,372. By 2012, this amount declined to $6,185. In constant 
dollars this is the lowest per student funding level since 1980. By 
2016, funding per student had recovered to $7,116, still 15 percent 
below pre-Recession levels. Only four states report 2016 state and 
local funding that exceeds 2008 levels.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Of further concern is an easily missed downward trajectory in the 
data. Focusing on state educational appropriations per FTE (the light 
blue bars in Figure 1), reveals not only declines resulting from the 
recessions, but that each of the subsequent recoveries has been 
sequentially smaller, indicating a steady downward trend in state 
support.

    It is evident why this matters for affordability when we look at 
the other side of the revenue equation, net tuition revenue. Over the 
same 8-year period, per student net tuition revenues increased 35 
percent in constant dollars from $4,682 in 2008 to $6,321 in 2016. In 
other words, tuition rate increases helped institutions offset 
reductions in per student state funding, but at a significant cost to 
students.
    Figure 2, below, clearly shows the trend toward greater reliance on 
tuition revenue. Before the Great Recession (in 2008), 35 percent of 
higher education revenue came from tuition. This share peaked in 2013 
at 48.5 percent and declined only slightly to 47.3 percent by 2016. If 
history is any indication, the next downturn will result in tuition 
reliance that exceeds 50 percent, meaning students and families will be 
paying the majority of the cost. While this would be a significant 
development for the United States as a whole, it is worth noting that 
24 states have already reached this point.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Further recessions could accelerate these trends. It is impossible 
to make precise projections of what will happen to state funding for 
higher education in the future, but recent history portends an alarming 
outcome. One attempt at extending state support of higher education 
trends from the 1980's into the future projects that if trends persist 
into the future, states would reach zero support for higher education 
in 2056. \2\ This represents the increasing privatization of public 
higher education. Read another way, if the Federal investment in higher 
education takes on a larger and larger percentage of overall revenue 
(in addition to student tuition and fees) this would also represent an 
increasing Federalization of higher education. While I do not believe 
that states will zero out public higher education, such projections 
highlight the serious dilemma facing state lawmakers, SHEEOs, and 
institutional leaders. Action needs to be taken now to correct current 
trends.
---------------------------------------------------------------------------
    \2\  Mortenson, T.G. (2017). State fiscal investment effort in 
higher education: fiscal year 1961 to fiscal year 2017. Post-Secondary 
Education Opportunity, 292.

    To compound these trends, the recently adopted Tax Cuts and Jobs 
Act (Public Law No: 115-97) will likely affect state decisions on 
funding for higher education. This legislation placed a $10,000 cap on 
the state and local income and property tax (SALT) deduction, which has 
significantly changed the revenue decisions that states and localities 
can make to support public investments through their income and sales 
taxes and is already a source of debate in many state legislatures. 
Limiting additional revenue sources could stagnate or further reduce 
---------------------------------------------------------------------------
state funding for higher education.

    In considering the shift toward a majority tuition-financed public 
higher education system, it is important to recognize the factors 
driving a greater reliance on tuition. The need for institutions to 
raise tuition stems from many factors, including covering inflation 
costs, salary increases for faculty, rising health insurance expenses, 
expanded institutional financial aid and, in some cases, pension 
obligations. \3\ Many public institutions have already made cuts in 
recent decades to trim costs and expenses in areas where efficiencies 
could be found, often in an effort to avoid raising tuition. This is 
particularly true for those institutions that are state appropriations 
dependent and enroll larger shares of low-income students However, the 
biggest factor in public institutions deciding what tuition rate is 
charged is the level of state funding support.
---------------------------------------------------------------------------
    \3\  Carlson, A. and Laderman, S. (2016). State Higher Education 
Finance 2015, Figure 8. Retrieved from http://sheeo.org/sites/default/
files/project-files/SHEEO--SHEF--2016--Report.pdf

    The empirical evidence in the peer-reviewed literature has 
established that state appropriations are related to the price 
institutions charge students. The exact scale of this relationship is 
still being analyzed, but the overwhelming consensus supports this 
finding of a causal impact. Most recently, in a peer reviewed study, 
Douglas Weber estimated an average pass-through rate from state 
appropriations to tuition and fee revenue of between 25 percent and 41 
percent. Put differently, for every $1,000 per student cut in state 
appropriations, over time, the average student has paid $257 more in 
tuition. \4\ That same research also showed that students are 
shouldering higher tuition increases from these cuts in recent years 
than in previous decades. Since 2008, the pass-through rate has been 
41.2 percent.
---------------------------------------------------------------------------
    \4\  Webber, D. A. (2017). State divestment and tuition at public 
institutions. Economics of Education Review, 60, 1-4.

    Some other analyses of state fiscal support over time have shown a 
smaller and less causal relationship between state appropriations and 
tuition. However, many of these studies fail to properly account for 
the complexity of state laws in appropriation and tuition-setting 
authority; states vary in how and when institutions can increase 
tuition and fees--and these decisions often change over time and many 
years after a recession. Legislatures also do not make uniform 
appropriation decisions for each college, so it is important to measure 
the impact of this institution-specific state support to institution-
specific net tuition and fee revenue. Additional research is needed to 
continue to monitor this question and add great clarity and specificity 
to the relationship.
                 Implications of Cost and Affordability
    Student loan debt and the cost of higher education in the United 
States have received considerable attention in the popular media and in 
the academic literature. The price of higher education has grown faster 
than the cost of health insurance, prescription drugs, and family 
income. \5\ According to the College Board, tuition and fees at public 
4-year institutions have increased at an average annual rate of 3.2 
percent above inflation over the last 10 years. Tuition and fees at 
public 2-year institutions have risen at an annual rate of 2.8 percent 
above inflation over the same period. \6\ This growth in tuition prices 
has slowed since the peak of the Great Recession, but continues to 
outpace inflation. \7\ Concurrent with the increasing price has been 
stagnant wage growth for the average worker. While, on average, top 
earners have experienced significant income growth over the last 
several decades, middle-and lower-income earners have not experienced 
comparable growth. \8\ The combination of increased costs and stagnant 
wage growth has resulted in an increasingly large gap between the cost 
of college and a family's ability to pay for college.
---------------------------------------------------------------------------
    \5\  College Board (2016). Trends in College Pricing (Trends in 
Higher Education series). Washington, DC: College Board. Bureau of 
Labor Statistics (2017). Consumer Price Index Summary. Washington, DC: 
Bureau of Labor Statistics.
    \6\  Ma, J., Baum, S., Pender, M., and Welch, M. (2017). Trends in 
College Pricing 2017. Retrieved from https://trends.collegeboard.org/
sites/default/files/2017-trends-in-college-pricing--0.pdf
    \7\  Ibid.
    \8\  Stone, C., Trisi, D., Sherman, A., & Horton, E. (2016). A 
Guide to Statistics on Historical Trends in Income Inequality. 
Washington, DC: Center on Budget and Policy Priorities.

    Not surprisingly, both college participation and attainment rates 
are considerably higher for students in the highest income quartile 
compared with those in the lowest income quartile. \9\ Researchers 
further find that low-income students are less likely to enroll in 
college even when controlling for student achievement. \10\ This is 
concerning for many reasons, including that future earnings are clearly 
associated with educational attainment. According to the Georgetown 
Center on Education and the Workforce, the average difference between a 
high school and college graduate's wages is $1 million over a lifetime. 
\11\ And the impacts reverberate across generations as children from 
higher-income families, and those whose parents went to college, are 
significantly more likely to attend and graduate from college. \12\
---------------------------------------------------------------------------
    \9\  Bailey, M. J., and Dynarski, S. (2011). Gains and Gaps: 
Changing Inequality in U.S. College Entry and Completion (University of 
Michigan Population Studies Center Report 11-746). Retrieved December 
1, 2013, from http://www.psc.isr.umich.edu/pubs/pdf/rr11-746.pdf. 
Belley, P. & Lochner, L. (2007). The Changing Role of Family Income and 
Ability in Determining Educational Achievement. Journal of Human 
Capital. University of Chicago Press, vol 1(1). Pages 37-89
    \10\  Bowen, W.G., Chingos, M.M., and McPherson, M. (2009). 
Crossing the Finish Line: Completing College at America's Public 
Universities. Princeton, New Jersey: Princeton University Press. Hoxby, 
C.M. and Avery, C. (December 2012). The Missing ``One-Offs'': The 
Hidden Supply of High-Achieving, Low Income Students . NBER Working 
Paper No. w18586. Available at SSRN. https://papers.ssrn.com/sol3/
papers.cfm'abstract--id=2186316
    \11\  Carnevale, A. P., Cheah, B., & Hanson, A. R. (2015). The 
Economic Value of College Majors. Washington, DC: Georgetown University 
Center on Education and the Workforce.
    \12\  Putnam, R. D. (2016). Our Kids: The American Dream in Crisis. 
New York, NY: Simon and Schuster.

    Figure 3 shows average net price \1\ as a percent of median income 
within each of the lowest four income quintiles. As this figure shows, 
those who come from families earning $15,000 (the median income of the 
bottom income quintile) experience a disproportionately larger burden 
in paying for college, with net price making up as much as 69 percent 
of their annual income. By comparison, net price at a 4-year 
institution makes up only 19 percent of annual income for families in 
the fourth income quintile.
---------------------------------------------------------------------------
    \1\  Net price is calculated by subtracting the average amount of 
Federal, state/local government, and/or institutional grant and 
scholarship aid from the total cost of attendance using IPEDS 2013-2014 
Average Net Price by Income Quintile and Total Price for In-State 
Students (weighted by living situation).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Issues related to affordability take on even more significance when 
one considers the changing makeup of college students in the United 
States. As the Center for Post-Secondary and Economic Success notes, 
``today's typical college student is no longer an 18-year-old recent 
high-school graduate.'' \13\ Between 2004 and 2014, part-time student 
enrollments grew by 17 percent and enrollments of students age 25 and 
over increased by 16 percent. \14\ Students over the age of 25 now 
comprise 40 percent of undergraduate students in post-secondary 
education. A majority of students work full-or part-time while 
enrolled, and over a quarter are parents. \15\ These trends are 
expected to continue and are likely to increase. These formerly 
``nontraditional'' students face significant cost barriers and unique 
and significant challenges in earning a post-secondary degree.
---------------------------------------------------------------------------
    \13\  Center for Post-Secondary and Economic Success (2015). 
Yesterday's Non-Traditional Student is Today's Traditional Student. 
https://www.clasp.org/sites/default/files/public/resources-and-
publications/publication-1/CPES-Nontraditional-students-pdf.pdf
    \14\  NCES (2016). Characteristics of Post-Secondary Students. 
Washington, DC.: National Center for Education Statistics.
    \15\  Taliaferro, W. and Duke-Benfield, A. (2016). Redesigning 
State Financial Aid to Better Serve Nontraditional Adult Students: 
Practical Policy Steps for Decisionmakers. Washington, DC: CLASP.

    It is imperative for states to develop long-term strategies to 
address these concerns in order to meet the needs of their citizenry 
and workforce. If states are to achieve their post-secondary education 
attainment goals, they must take direct and immediate action to address 
the equity gaps between underserved populations and upper-income white 
and Asian students (who are succeeding at higher rates). As Steve 
Murdock, demographer and former director of the U.S. Census Bureau, has 
said, the economic prosperity of the entire nation hinges on reducing 
these gaps, since reducing them is the single greatest way for us to 
drive economic growth. \16\ One necessary step in closing these gaps is 
to make college affordable for low-income individuals.
---------------------------------------------------------------------------
    \16\  Murdock, S. (2015). Population Change in the United States: 
Implications for Education and Socioeconomic Development. Presentation 
at SHEEO Higher Education Policy Conference, Newport Beach, CA.
---------------------------------------------------------------------------
                Implications of Institutional Resources
    Not only must we ensure that college is affordable for all 
students, we must also ensure that our colleges and universities have 
the resources to serve them properly. In her paper, State Support for 
Higher Education: How Changing the Distribution of Funds Could Improve 
College Completion Rates, Bridget Terry Long argues that increasing the 
resources committed to public institutions and addressing current 
funding inequities between institutions could help the country make 
significant progress toward increasing the number of adults with post-
secondary credentials. \17\
---------------------------------------------------------------------------
    \17\  Long, B. T. (2016). State Support for Higher Education: How 
Changing the Distribution of Funds Could Improve College Completion 
Rates. The Miller Center. http://web1.millercenter.org/commissions/
higher-ed/Long--No9.pdf

    Long gives particular attention to the unequal distribution of 
resources between different types of institutions and between 
institutions that serve students with varying levels of preparation. In 
her analysis, Long found that while holding other factors constant, 
public research institutions received $2,504 per full-time equivalent 
student more than other public 4-year schools and $5,227 more than 
public 2-year colleges. She further showed that institutions that 
enroll the students who are best prepared academically to succeed, and 
therefore may require the fewest resources, are receiving a 
disproportionate amount of state funding relative to institutions that 
enroll students who are less prepared academically. \18\
---------------------------------------------------------------------------
    \18\  Ibid.

    These differences in funding and institutional resources matter. 
Deming and Walters found that at appropriations-dependent institutions 
(community colleges and non-selective public 4-year universities), an 
institution's financial resources had a substantial impact on degree 
completion. \19\ At community colleges, a 10 percent rise in spending 
increases associates degree completions by 10.6 percent and 
certificates by 23.2 percent (one year after the spending increase). 
For bachelor's degrees, a 10 percent rise in spending increases 
completions by between 4 and 5 percent (2 to 3 years after the spending 
increase). Further, Deming and Walters found that when the institutions 
in their study experienced revenue increases, the institutions directed 
those resources primarily toward student and academic support services. 
Increases in spending in such areas have been shown to directly and 
positively impact student success. \20\ The authors conclude that 
institutional spending increases are more effective per-dollar than 
price cuts as a means of increasing post-secondary attainment. \21\
---------------------------------------------------------------------------
    \19\  Deming, D. J., & Walters, C. R. (2017). The Impact of Price 
Caps and Spending Cuts on US Post-Secondary Attainment (No. w23736). 
National Bureau of Economic Research. http://www.nber.org/papers/w23736
    \20\  Ehrenberg, R. G., & Webber, D. A. (2010). Student Service 
Expenditures Matter. Change: The Magazine of Higher Learning, 42(3), 
36-39.
    \21\  The relationship between state support, institutional 
resources, and student outcomes has been investigated in a number of 
other studies which likewise show that institutional resources, and 
state support in particular, matter for student outcomes. See, for 
example: Bound, J., Lovenheim, M. F., & Turner, S. (2012). Increasing 
Time to baccalaureate Degree in the United States. Education, 7(4), 
375-424. Kane, T., & Orszag, P. (2003). Funding Restrictions at Public 
Universities: Effects and Policy Implications. Brookings Institution 
Working Paper. Koshal, R. K., & Koshal, M. (2000). State Appropriation 
and Higher Education Tuition: What is the Relationship?. Education 
Economics, 8(1), 81-89. Robst, J. (2001). Cost Efficiency in Public 
Higher Education Institutions. Journal of Higher Education, 730-750. 
Titus, M. A. (2009). The Production of Bachelor's Degrees and Financial 
Aspects of State Higher Education Policy: A Dynamic Analysis. The 
Journal of Higher Education, 80(4), 439-468. Toutkoushian, R. K., & 
Hillman, N. W. (2012). The Impact of State Appropriations and Grants on 
Access to Higher Education and Outmigration. The Review of Higher 
Education, 36(1), 51-90. Volkwein, J. F. (1989). Changes in Quality 
among Public Universities. The Journal of Higher Education, 136-151. 
Zhang, L. (2006). Does Public Funding for Higher Education Matter? 
Cornell University, School of Industrial and Labor Relations, Working 
Paper. Retrieved from: http://digitalcommons.ilr.cornell.edu/
workingpapers/149/

    The research is clear--if the goal is to improve rates of degree 
completion and increase educational attainment, states and the Federal 
Government will need to get serious about increasing the resources at 
institutions that serve the largest share of students at risk of 
dropping out.
    The State Imperative: Aligning State Appropriations and Tuition 
               Policies with Strategies for Affordability
    As I have tried to establish, it is critical that we address the 
affordability crisis with the urgency it deserves. It is also critical 
that we ensure that our appropriations-dependent institutions, where 
the majority of our underserved populations are enrolled, have adequate 
institutional resources to foster student success. To do this, the 
states and the Federal Government will need a coordinated and strategic 
effort.

    States need a more educated workforce to meet workforce demands and 
grow their economies. States also accrue benefits from an educated 
populace, including higher tax revenues, better civic engagement, and 
an overall higher quality of life. \22\ Realizing this, 41 states have 
enacted state attainment goals to raise the percentage of their 
population with post-secondary credentials. \23\ The combination of 
decreasing college affordability (driven in part by tuition rate 
increases), and the focus on increasing college attainment has resulted 
in some states enacting new policies designed to expand access to 
public institutions while removing financial barriers to college 
completion. Ideally, these policies have the support of state 
government, higher education system offices, and post-secondary 
institutions. Concerted alignment between these entities creates the 
greatest opportunity for a rational path forward. I will highlight a 
few examples of states that have developed coordinated approaches 
addressing college costs and helping students enroll and succeed in 
college.
---------------------------------------------------------------------------
    \22\  Li, J.(2009). How Taxpayers Benefit When Students Attain 
Higher Levels of Education. Retrieved from https://www.rand.org/pubs/
research--briefs/RB9461/index1.html
    \23\  Lumina Foundation (2017). A Stronger Nation 2017. Retrieved 
from https://www.luminafoundation.org/resources/a-stronger-nation-2017-
report
---------------------------------------------------------------------------
                        Best Practice--Colorado
    Colorado's legislature utilizes the Colorado Department of Higher 
Education (CDHE) to assist the legislature by estimating tuition 
changes based on an increase or decrease in the state general fund 
appropriation. CDHE develops an estimate of the additional revenue that 
each post-secondary institution will need to cover inflation and 
increases due to other cost drivers, (e.g., utilities, employee 
benefits). Once a total additional-revenue figure is developed, CDHE 
models how much the tuition rate would need to be increased if state 
funding is to be kept constant, and for each potential percentage point 
increase or decrease in state appropriations. This allows legislators 
to explore the hypothetical, ``If we cut the appropriation to higher 
education by 2 percent, tuition will increase by this amount at each of 
our public institutions.'' \24\
---------------------------------------------------------------------------
    \24\  Armstrong, J., Carlson, A., Laderman, S (2017). The State 
Imperative: Aligning Tuition Policies with Strategies for 
Affordability. Retrieved from http://www.sheeo.org/sites/default/files/
State--Tuition--Fees--Financial--Assistance--2017.pdf
---------------------------------------------------------------------------
                        Best Practice--Tennessee
    Tennessee was the first state to implement a statewide ``Free 
Community and Technical College'' program. The first cohort of 
Tennessee Promise students enrolled in fall 2015. The program grew out 
of a local promise program in Knox County. Now in its fourth year, 
Tennessee Promise functions as a last-dollar scholarship for students 
enrolling in one of the 13 community colleges or 27 colleges of applied 
technology in the state. Eligible students must apply and complete 
specific tasks (fill out the Free Application for Federal Student Aid, 
meet with a volunteer mentor, and complete community service hours) 
during their senior year of high school.

    Early results indicate that Tennessee Promise is proving effective, 
and that non-financial aspects of the program have contributed to its 
success. The mentorship component of Tennessee Promise is key to 
helping low-income and traditionally underserved populations navigate 
post-secondary education. Furthermore, the first years of the statewide 
program have clarified the importance of messaging. For many of the 
students enrolled in Tennessee Promise, community college would be 
``free'' without the program (tuition and fee costs are covered by 
Federal aid). Many students may not realize this, however, and making 
it clear that Tennesseans can attend community and technical colleges 
with very little cost has boosted access significantly across the 
state. According to the Tennessee Higher Education Commission, 
enrollment at community colleges has increased by 25 percent in the 
first 2 years of the program, while retention rates have not changed 
from prior years. Approximately 30 percent of the additional students 
come from the lowest income quintiles. \25\ Although many of these 
students may not receive additional funds, the Tennessee Promise 
program is proving effective in increasing access and success for low-
income students.
---------------------------------------------------------------------------
    \25\  E. House, phone call with John Armstrong, September 22, 2017.

    Other states have implemented or proposed other promise programs 
similar to Tennessee. These programs often include structuring 
financial aid policies to make community college tuition-free or debt-
free. Some of these proposals limit the benefits of ``free'' college to 
low-income students by enacting eligibility restrictions that have not 
always allowed all students to access the programs or in ways that do 
not reflect the student body of today, including requirements to remain 
in state after college or to pass drug tests. Further, programs have 
often restricted eligibility to students starting college right out of 
high school. Unfortunately, these restrictions may reduce the potential 
---------------------------------------------------------------------------
benefit and reach of the initiatives.

    Most of these ``last dollar'' programs are structured only to cover 
tuition with state or local resources after other Federal aid has been 
applied. Other models include some stipends for other costs of 
attendance. In many cases, college affordability is addressed ``at the 
margins,'' meaning that very specific categories of students who are 
likely to benefit from increased aid are targeted by these proposals 
and policies. Further research is needed to see how these programs are 
meeting students' total financial needs.
                    Best Practice--Washington State
    The State of Washington provides a case study that demonstrates how 
state support and tuition rates are inextricably linked, and the key 
role of state policy in protecting affordability for students.

    In the depths of the Great Recession, Washington policymakers 
granted their public colleges and universities additional flexibility 
in setting tuition rates. This meant that institutions could enact 
increases, sometimes double-digit percentage increases, to meet revenue 
needs and offset state funding reductions. However, in 2014, as the 
economy began to recover, Washington legislators reasserted their role 
in the tuition-setting process. Tuition rates were decreased in 
exchange for a large increase in state appropriations to institutions. 
Reductions in tuition rates are rare, and Washington's was made 
possible through a significant state reinvestment. Legislators in 
Washington clearly understood the relationship between state funding 
and tuition, and considered institutional revenue needs.

    As these changes in tuition-setting authority were being made in 
Washington, the impact on state financial aid was on the minds of state 
policymakers. Washington has one of the best funded need-based 
financial aid programs in the country. \26\ Washington's Need Grant 
program is a flexible award that is explicitly tied to tuition. A 
student's maximum award is determined by both her family's income (as a 
percentage of the state's median income) and the tuition rate charged 
at the public institution she attends. Students who attend high-tuition 
universities in Washington receive higher awards than those who attend 
less expensive institutions. Their impact on the state's need-based 
grant program was a key factor in deciding how to adjust the parameters 
for tuition setting. When tuition rates increased sharply, the 
appropriation for need-based aid also increased in the state. 
Washington has a long history of protecting need-based aid from changes 
in tuition levels brought about by changes in policy. \27\
---------------------------------------------------------------------------
    \26\  See http://www.nassgap.org/viewrepository.aspx--
categoryID=421#
    \27\  See https://education.illinoisstate.edu/downloads/csep/
stateprofiles.pdf
---------------------------------------------------------------------------
                          Best Practice--Ohio
    In Ohio, an annual report is due to the legislature and Governor to 
track progress on how efficiency gains made at the state's public 
universities benefit students. \0\ The Ohio Board of Regents estimates 
that the savings from efficiency gains across its public institutions 
in 2016 totaled $250 million. In the most recent report, institutions 
outlined how their cost savings were redistributed to students, either 
in the form of decreased tuition or increased financial aid. 
Institution-level information for cost savings is available in the full 
report and this information is updated on an annual basis.
---------------------------------------------------------------------------
    \0\  https://www.ohiohighered.org/sites/ohiohighered.org/files/
uploads/affordability-efficiency/2016-efficiency--advisory-committee-
report--FINAL--011317.pdf
---------------------------------------------------------------------------
       SHEEO Federal State Partnership for College Affordability
    States alone may not be able to reach true college affordability. 
In 2014, Lumina Foundation organized an effort to generate innovative 
ideas for approaches to student financial aid. As a component of this 
effort, SHEEO proposed a Federal/state student financial aid 
partnership. Under the proposed SHEEO model, Federal funds would match 
any additional funding the states provided to support low-income 
students, with the goal of each state eventually meeting an 
affordability threshold of students devoting no more than 10 percent of 
their discretionary income toward student loan repayment. These 
matching funds would incentivize states to prioritize the increased 
investment of any higher education resources.

    There are additional examples of Federal-state partnerships and 
proposed partnerships in other areas that lead us to believe such a 
model could prove fruitful to higher education. President Trump 
recently proposed an initiative to address our Nation's infrastructure 
needs that includes the framework of a Federal/state/local partnership 
where Federal funds would incentivize matches from the other two 
entities. Other areas of the Higher Education Act embrace the concept 
of institutions matching Federal funds to enhance the combined impact, 
including college access and campus-based aid programs. A similar 
incentive within core higher education investments to encourage state 
investment in our traditionally underserved populations would mitigate 
a portion of the price sensitivity that often prohibits college access 
and completion.

    While we believe Federal involvement is needed to properly incent 
state action, we also realize that state and institutional action can 
and should be taken now. The primary responsibility is with the states, 
and each state needs to approach increasing student access and success 
in a manner that reflects state needs as well as innovative approaches 
and interventions that are proven to increase efficiency. The recent 
rise in performance funding models is indicative of a more widespread 
acknowledgment that student outcomes are of significant importance--and 
many states are working to refine these models to achieve the desired 
results. The investment of family, state, and Federal resources must 
result in a meaningful credential to prove worthwhile.
                         Policy Recommendations
                             Federal Policy
    Given what we know about state best practices, and the long-term 
trends that risk further privatization or Federalization of higher 
education, I recommend that the HEA reauthorization fund and implement 
a Federal-state partnership that includes incentives for states to 
bring down college prices for students, and in particular for lower-
income students. The Federal investment must be sufficiently large to 
adequately leverage new state commitments, given that states may need 
to seek new revenue sources or change existing budget allocations. The 
new Federal investment should reflect an intentional and rational 
balancing of shared roles between the Federal Government and the 
states.
                              State Policy
    In regard to state higher education finance policy I recommend the 
following and further encourage that any Federal-state partnership 
should also recognize or promote the following components:

    Link state financial support for higher education to long-term 
state goals: Cuts and inadequate support for higher education may limit 
its ability to support states in accomplishing their broader goals. For 
example, as indicated earlier, the financial resources of an 
institution directly impact the quality of education and student 
completions. Both factors, in turn, impact a state's economy and 
workforce. In this regard, state appropriations to higher education 
should be viewed as investments.

    Focus financial aid on the students who need it the most: As states 
consider revising their existing financial aid programs or adopting new 
ones, the most efficient use of resources would be to focus their 
scarce state dollars on those students for whom cost is a limiting 
factor. Financial aid can be the deciding factor between whether they 
enroll and persist to graduation or not. The research on the impact and 
importance of need-based financial aid is overwhelming. \28\
---------------------------------------------------------------------------
    \28\  Goldrick-Rab, S., Harris, D., Kelchen, R., & Benson, J. 
(2012). Need-Based Financial Aid and College Persistence Experimental 
Evidence from Wisconsin. SSRN: https://papers.ssrn.com/sol3/
papers.cfm--abstract--id=1887826 Heller, D. E. (1999). The Effects of 
Tuition and State Financial Aid on Public College Enrollment. The 
Review of Higher Education, 23(1), 65-89. Alon, S. (2011). Who Benefits 
Most from Financial aid? The Heterogeneous Effect of Need-Based Grants 
on Students' College Persistence. Social Science Quarterly, 92(3), 807-
829. Heller, D. E. (2013). The Role of Finances in Post-Secondary 
Access and Success. The State of College Access and Completion: 
Improving College Success for Students from Underrepresented Groups, 
96-114. Kim, J. (2010). The Effect of Prices on Post-Secondary Access: 
An Update to Heller. Higher Education in Review, 7.

    Ensure adequate resources at the institutions that serve 
underrepresented students: Intentional efforts are needed to ensure 
that institutions have the necessary resources to support their 
students to graduation. state policymakers should evaluate their 
institutions' current resources and the allocation of state dollars. If 
inequalities exist, states should take deliberate corrective action. 
Further, if a state has or decides to adopt a performance funding 
program, policymakers should ensure that the formula rewards 
institutions for enrolling and graduating underserved students. \29\
---------------------------------------------------------------------------
    \29\  Umbricht, M. R., Fernandez, F., & Ortagus, J. C. (2017). An 
Examination of the (Un)Intended Consequences of Performance Funding in 
Higher Education. Educational Policy, 31(5), 643-673. Kelchen, R., & 
Stedrak, L. J. (2016). Does Performance-Based Funding Affect Colleges' 
Financial Priorities?. Journal of Education Finance, 41(3), 302-321. 
Hillman, N., & Corral, D. (2017). The Equity Implications of Paying for 
Performance in Higher Education. American Behavioral Scientist, 61(14), 
1757-1772. Gandara, D., & Rutherford, A. (2017). Mitigating Unintended 
Impacts? The Effects of Premiums for Underserved Populations in 
Performance-Funding Policies for Higher Education. Research in Higher 
Education, 1-23. Kelchen, R. (forthcoming). Do Performance-Based 
Funding Policies Affect Underrepresented Student Enrollment? Journal of 
Higher Education. Hillman, N. & Crespin-Trujillo (forthcoming). State 
Accountability Policies: Can Performance Funding be Equitable? Jones, 
T., Jones, S., Elliott, K. C., Owens, L. R., Assalone, A. E., & 
Gandara, D. (2017). Outcomes Based Funding and Race in Higher 
Education: Can Equity be Bought?. Springer.

    Evaluate tax and revenue structures to ensure an adequacy in 
capturing the appropriate level of state resources: The changing 
economy has made capturing sales tax and other resources much more 
difficult. States should evaluate their tax and revenue structures to 
ensure that they are receiving adequate resources to appropriately fund 
---------------------------------------------------------------------------
state obligations, including higher education.

    Incorporate tuition policy into broader affordability and 
attainment strategies: Consider tuition policy within the broader 
context of affordability and attainment strategies so that tuition 
setting at the institution level does not undermine comprehensive 
strategies. Encouraging or requiring longer-term tuition setting that 
allows students and families to plan ahead may facilitate better 
planning and enrollment decisions. Further, tuition policy that 
facilitates progress toward completion should be considered.

    Seek coordination of key institutional revenue sources: State 
policymakers, SHEEOS, and boards of higher education institutions 
should coordinate institutional revenues--including state 
appropriations, financial aid and tuition--toward meeting broader state 
college attainment goals. While the unique demographic, economic, and 
political circumstances of each state will influence the level of 
coordination, considering the primary revenue streams based on progress 
toward state attainment goals can help stakeholders make tough 
decisions. There are many ways that appropriations, tuition, and 
financial aid policies can be coordinated to ensure that changes in one 
or more revenue streams are linked with meeting the state educational 
attainment goal. For example, allowing for an increase in tuition but 
reserving a portion of the increase for need-based aid during a period 
of declining appropriations can mitigate tuition increases for the most 
price-sensitive students.

    Consider the impact of tuition policy on state financial aid 
programs: State policymakers and SHEEOs should understand how tuition 
policy impacts state financial aid programs. In some states, state 
need-based grants cover the full cost of tuition and fees. When tuition 
rates increase in these states, unless there is a concomitant increase 
in the total amount of state aid, the number of students who receive 
grants is reduced. In other words, the tuition increase lessens the 
impact of the state's aid program. Care should be taken to understand 
how tuition policy and aid programs interact and make sure state needs 
are addressed along with institutional revenue needs.

    Allow for longer-term, multiyear strategies around tuition rate 
setting: In many states, the limitations on how much tuition can 
increase vary from year to year. One year, the legislature may limit 
tuition increases to an inflationary adjustment; the next year they may 
freeze the allowable rate increase. In this environment, there is 
little incentive for governing boards to raise tuition to an amount 
below the allowed limit in a single year as there is no way to 
anticipate what the future will allow. A more rational approach would 
provide allowable increases for three to 5 years and be based on state 
revenue projections and policy direction from the state. This would 
allow for better planning by institutions, and create a more 
transparent environment for the students and families who ultimately 
must pay the tuition costs.
                                 ______
                                 
                 [summary statement of robert anderson]
    For the first time in our Nation's history, we are at the cusp of 
college students and their families paying the majority of college 
costs. In 2016, net tuition revenue accounted for 47.3 percent of total 
revenue in higher education, up from 36.7 percent ten years earlier. 
This increased reliance on tuition dollars most adversely impacts those 
students who can least afford it--our historically underserved 
populations. The combination of increased costs and stagnant wage 
growth has resulted in an increasingly large gap between the cost of 
college and a family's ability to pay for college.

    Unfortunately, the most recent higher education recovery has not 
been as robust as we have experienced in the past. State investment in 
higher education declined by 26 percent per student between 2008 and 
2012. In constant dollars, this marked the lowest funding level per 
student since 1980. By 2016, funding had partially recovered but 
remained 15 percent below pre-Recession levels. Only four states report 
2016 state and local funding that exceeds 2008 levels.

    Conversely, over the same eight-year period, per student net 
tuition revenues increased 35 percent in constant dollars from $4,682 
in 2008 to $6,321 in 2016. In other words, tuition rate increases 
helped institutions offset reductions in per student state funding, but 
at a significant cost to students. The empirical evidence in the peer-
reviewed literature has established that state appropriations are 
related to the price institutions charge students. The exact scale of 
this relationship is still being analyzed, but the overwhelming 
consensus supports this finding of a causal impact.

    Concurrently, states realize they need a more educated workforce to 
meet workforce demands and grow their economies. Forty-one states have 
enacted state attainment goals to raise the percentage of their 
population with post-secondary credentials. The combination of 
decreasing college affordability (driven in part by tuition rate 
increases), and the focus on increasing college attainment has resulted 
in some states enacting new policies designed to expand access to 
public institutions while removing financial barriers to college 
completion.

    Given what we know about state best practices, and the long-term 
trends that risk further privatization or federalization of higher 
education, I recommend that the HEA reauthorization fund and implement 
a federal-state partnership that includes incentives for states to 
bring down college prices. These additional resources should be 
targeted and focused on outcomes, particularly the outcomes of 
underrepresented students. This initiative is not just a matter of 
resources but also leadership and alignment. Our Nation should have 
confidence that state governments, higher education systems and 
campuses are working together to address this cost and affordability 
crisis.
                                 ______
                                 
    The Chairman. Thank you, Dr. Anderson.
    Dr. Pollard, welcome.

  STATEMENT OF DERIONNE POLLARD, PH.D., PRESIDENT, MONTGOMERY 
                  COLLEGE, ROCKVILLE, MARYLAND

    Dr. Pollard. Good morning, Chairman Alexander, Ranking 
Member Murray, Members of the Committee.
    Thank you for the opportunity to speak here this morning.
    Affordability is the most significant challenge students 
face. I know this, because I am a community college President 
and I am also a person who lived that experience.
    While I was in college, I worked three part-time jobs and I 
relied on food stamps to get through college. Growing up on the 
South Side of Chicago, I was the first in my family to complete 
college, and my father struggled mightily with the FAFSA 
application.
    Ultimately, those Federal grants and loan programs got me 
through college, but they would not have gotten me across the 
finish line in today's economy.
    This is the untold story of higher education today. 
Students who leave college without completing do so usually 
because of cost.
    When I look at the 8,600 Pell Grant recipients at my 
college, two-thirds of them have an expected family 
contribution of zero dollars. Their incomes are so low that 
they could not afford to pay any of their tuition. This is at a 
college where full time tuition is less than half of that at 
the University of Maryland.
    Pell Grants are invaluable to getting students through the 
door of college, but many recipients do not stay because they 
cannot afford their other expenses. Others, further on the 
margin, do not enroll at all.
    The cost of living has risen. Workplace demands for post-
secondary education have risen. But our national investment in 
a growing body of vulnerable students has not kept pace.
    At Montgomery College, thousands of our students rely 
heavily on college-funded programs to help make ends meet. We 
have a food pantry in all three of our campuses because food 
insecurity is so commonplace.
    We run free shuttle buses between our campuses because 
students struggle with the cost of public transportation. And 
textbooks can cost almost $1,500 a year, so our faculty strives 
to use open educational resources.
    We set up a loaner laptop program because many students do 
not have computers, but many still do not have Internet service 
at home.
    Many of these students already have Pell Grants. In fact, 
26 percent of my credit students have Pell Grants and another 
53 percent have some form of financial aid, but that is not 
enough.
    These students are living on the edge. Poverty, not the 
lack of personal effort, is the biggest barrier to their 
degrees.
    Federal support has not kept up with this need, in part, 
because our image of a typical college student needs updating. 
That 18-year-old living in a dorm at a 4-year college on his 
parents' bill is no longer the norm. While that student might 
be worrying about beer money or entertainment money, my 
students are budgeting for health insurance and childcare.
    The typical community college student is 28 years old, 
works while she goes to school, and takes an average of five 
and a half years to attain a 2-year degree. nationwide, one-
third of all community college students are the first in their 
family to go to college. More than half of them are women, and 
at my college, 72 percent of them are people of color. This is 
critically important to note when one considers the racial 
disparities and financial need, college, debt, and family 
wealth.
    The provisions the Federal Government has made to support 
college students no longer match the demographics or the 
economies of our communities. At Montgomery College, the 
average income for our Pell Grant recipients is $24,800 a year 
in a county where a family of four needs $80,000 a year to 
subsist without help.
    The Federal Government galvanized a generation of students 
in 1947 when it acted on the recommendations of the Truman 
Commission to expand community colleges. The educational needs 
of today's students are equally urgent and the Government can 
answer them with six steps in mind.
    Raise the maximum amount of the Pell Grant awards to cover 
the true cost of college attendance.
    Peg the Pell Grant to inflation and free us from the annual 
debate about funding.
    Expand Pell Grant eligibility to those who are often 
forgotten when we think about today's student: ex-offenders, 
those without parents to verify their application, and 
Dreamers.
    Provide Federal aid for short-term credentials that allow 
workers to fill middle skill jobs which change lives and 
strengthen the economy. My college's DOL TAACCT Grant is a 
great example of that dynamic in action and Congress should 
reauthorize it.
    Simplify the overly complex FAFSA verification process and 
draw more students in who are first-generation.
    Encourage Federal-state partnerships and incentivize state 
investments.
    Let me end with what I know for sure; it benefits none of 
us if the family in which you were born remains the dominant 
determinant in how you are able to pursue and fund quality 
education.
    The reauthorization of the Higher Education Act is a 
crucible moment for my students: the working poor, the American 
with or without a birth certificate, the displaced worker, the 
ex-offender, the disconnected youth, and many more.
    I thank you in advance for what I know that you are going 
to do on behalf of those students.
    Thank you.
    [The prepared statement of Dr. Pollard follows:]
                 prepared statement of derionne pollard
Testimony on Reauthorizing the Higher Education Act: Improving College 
                             Affordability
    Affordability is the biggest challenge facing community college 
students today. As a college student from a low-income household 
myself, I worked three part-time jobs and relied on food stamps while 
attending college. Growing up on the south side of Chicago, I was the 
first in my family to go to college, and my father struggled mightily 
with the Free Application for Federal Student Aid (FAFSA). Ultimately, 
those Federal loans and Pell grants got me through college, but they 
would not have enabled me to complete in today's economy.

    The untold story of American higher education today is how many 
students leave college without completing because of costs. At 
Montgomery College, where I am president, there are 8,600 Pell grant 
recipients. Two-thirds of them have an Expected Family Contribution of 
zero dollars. The Federal Pell formula has determined that their annual 
incomes--an average of $24,864 in 2018--would not enable them to pay 
any tuition. In fiscal year 2017, 65 percent of our Pell grant students 
had annual incomes below $30,000 and 78 percent had incomes below 
$40,000. These students live in one of the most expensive regions in 
the country, where a family of four is deemed sustainable on a minimum 
annual income of $80,000. As income inequality continues to grow, 
students who start out in low-income families are less likely to be 
able to afford college, and more likely to start their own families 
while in poverty.

    Tuition for full-time, credit enrollment at Montgomery College (MC) 
is $5,000 a year, which is less than half of the tuition at the 
University of Maryland. So, while my college works hard to keep tuition 
increases to a minimum, this total still keeps some students from 
enrolling. For students who do enroll, usually with the help of Pell 
grants or other financial aid, many of them do not complete their 
education because they cannot afford their other academic and living 
expenses. Pell grants are invaluable to getting students in the door to 
college, but the grants' buying power has diminished so students must 
still work--many full time--to make ends meet. Twenty-two percent of 
full-time students at community colleges nationwide work full-time, 
while 40 work part-time, according to the American Association of 
Community Colleges data in 2017. Others, even further on the margin, 
decide not to enroll at all.

    The cost of living has risen, workplace demand for post-secondary 
education has risen, but our national investment in a growing body of 
vulnerable students has not kept pace. At Montgomery College thousands 
of our students rely heavily on College-funded programs and 
partnerships to help them make ends meet: we have a food pantry on each 
of our three campuses because food insecurity is widespread. In 
addition, we have a partnership with the Capital Area Food Bank that 
has distributed 63,000 pounds of food on our campuses in the last 5 
months. Two thousands students have visited these mobile markets for 
free food packages, which are sized according to the number of people 
in their households. The markets are staffed by College volunteers and 
travel to all three campuses.

    We began running free shuttle buses among our campuses in 2015 
because students struggle with the steep cost of commuting by local 
public transportation. The shuttle ridership increased 48 percent over 
2 years, and we now transport about 2,000 students each week. The cost 
of textbooks is another barrier to affordability. Costs have risen 
three times faster than the rate of inflation and can reach $1,500 a 
year. To lessen the burden, our faculty strive to use Open Educational 
Resources, free online teaching materials. MC has begun offering 
courses with zero textbook costs. More than 330 sections of such 
courses benefited more than 6,000 students at MC in 2017. \1\ The 
College has also set up a loaner laptop program, because many students 
do not have computers. They still struggle to submit assignments 
electronically, though, when they lack Internet service at home. At one 
campus, we have a ``clothing library'' where students who cannot afford 
clothes can come in and ``shop'' at no cost. This winter we had an 
extraordinary number of students looking for winter coats and boots 
because of the extreme cold. Many of these students already have 
Pellgrants--in fact, 26 percent of our credit students have Pell grants 
and 53 percent have some form of financial aid--but it is not enough. 
These students are living on the edge. Poverty--not lack of personal 
effort--is the biggest barrier to their degrees. The Montgomery College 
Foundation provided $2.4 million in scholarship that benefited 2,000 
students last year. The foundation helps dozens of students each month 
with emergency aid for utility bills, rent, and childcare costs, when 
some unforeseen expense--like a health care need--derails their tight 
budgets.
---------------------------------------------------------------------------
    \1\  A $100,000 grant from Achieving the Dream in August 2016 
allowed the College to offer its General Studies degree free of 
textbook costs.

    Despite the burdens that college costs entail for students, most 
enroll because they understand it will increase their employment 
prospects and their earning potential. Countless studies have shown 
that workers are more competitive when they attain more education. 
Having an associate's degree, for example, can raise a worker's average 
annual income in Maryland by almost $17,000. A bachelor's degree, adds 
$30,000 to the average income in Maryland. Many fields that are 
predicted to grow significantly in the next decade, do not require a 4-
year degree. An associate's degree or a technical certificate can move 
a person into an array of middle-skills job opportunities that can make 
a difference of $10,000 to $20,000 a year in income for a single 
worker. \2\
---------------------------------------------------------------------------
    \2\  Montgomery College: The Workforce Development Anchor, 2015

    Federal support has not kept up with need, in part, because our 
image of a typical college student needs updating. That 18-year old 
living in a dorm at a 4-year college on his parents' bill, is no longer 
the norm. While that student might have been worrying about money for 
entertainment, my students are budgeting for health insurance and 
childcare. The typical community college student is 28 years old, works 
while she goes to school, and takes an average of 5.6 years to attain 
an associate's degree. \3\ nationwide, a third of all community college 
students are the first in their family to go to college, and more than 
half are women. At my college, 72 percent are people of color. The 
provisions that the Federal Government has made to support college 
students no longer match the demographics or economics of our 
communities. At Montgomery College, the average income for our Pell 
grant recipients is $24,800 in one of the most expensive regions in the 
country. In Montgomery County, a family of four needs $80,000 a year to 
subsist without help. For students who are forced to take our loans 
because Pell grants are not available, default rates are high, 
according to a recent Brooking Institute study. Students' explanation 
for these defaults is telling: the earnings of students who do not 
complete their degrees do not allow them to make the required payments. 
The report concludes that several factors would improve these 
outcomes--address more fully the challenges faced by students of color; 
improve degree attainment; and promote loan repayment that is tied to 
income, so that students are able to cover other expenses while they 
work. \4\
---------------------------------------------------------------------------
    \3\  Time to Degree: A National View of the Time Enrolled and 
Elapsed for Associate and Bachelor's Degree Earners, National Student 
Clearinghouse Research Center, 2016
    \4\  Scott-Clayton, Judith ``The Looming Student Loan Default 
Crisis Is Worse Than We Thought,'' Brookings, January 11, 2018

    Since the Federal Government promoted the expansion of community 
colleges through the Truman Commission, it has set the tone for the 
direction of higher education. Today it can do even more by increasing 
the maximum Pell grant award and pegging Pell grants to inflation. This 
would allow students to cover the true cost of living, stay in school, 
and continue making progress on their degrees. Research has shown that 
students who work too many hours while in school do not complete their 
degrees. \5\ A recent study of alternate tuition pricing at Montgomery 
College found that discounting students' fifth class at 50 percent of 
tuition costs would incentivize full enrollment. \6\ Students who 
enroll full time are more likely to complete. \7\
---------------------------------------------------------------------------
    \5\  Carnevale, Smith, Melton and Price, Learning While Earning: 
The New Normal, Georgetown University, 2015
    \6\  Montgomery College: Strategic Enrollment Alignment & Tuition 
and Fee Pricing: Study prepared for the College Enrollment Management 
Advisory Team, 2015.
    \7\  Even One Semester: Full-Time Enrollment and Student Success, 
Center for Community College Student Engagement, University of Texas at 
Austin, 2017.

    Making workforce development students eligible for Pell grants 
would help, too. Certificates are the fastest growing higher education 
credential. They are usually shorter and based on time in class rather 
than an industry exams required by certifications. They allow workers 
to fill gaps in our middle skills jobs and increase their earning 
potential, according to a study by the Georgetown University Center on 
Education and the Workforce. \8\ Almost half of my college's students--
roughly 27,000 students--are enrolled in these programs, where the 
average age is 35. These programs help students to get a good job at a 
good wage and to move up the career ladder. A home health care worker 
becomes a certified nursing assistant; an IT worker gets a Certified 
Information Systems Security Professional (CISSP) certification; a 
maintenance worker gets an HVAC certificate. Allowing Pell grants to be 
used for short-term trainings in high-demand areas would benefit 
students and our economy. \9\
---------------------------------------------------------------------------
    \8\  Certificates: Gateway to Gainful Employment and College 
Degrees, Center on Education and the Workforce, Georgetown University, 
2012
    \9\  Ibid.

    Community college students form a rich tapestry of Americans 
working to advance themselves and contribute to their families and 
neighborhoods. They are workers who have been displaced by contractions 
in the economy. They are low-income students who are priced out of 4-
year colleges. They are immigrants and refugees who are learning 
English while they train for entry-level jobs. Their circumstances are 
different, but they are all part of a diverse fabric that makes up our 
Nation. They are also essential parts of our labor force, filling 
critical gaps in middle skills job areas. In Maryland there are 
currently 20,000 unfilled jobs cyber-security. Grants such as the Trade 
Adjustment Assistance Community College and Career Training grant are 
preparing students to fill them, among other jobs. Federal investments 
in community colleges shows that they already believe that community 
---------------------------------------------------------------------------
colleges are doing this work well.

    Simplifying the overly complex FAFSA and certification processes, 
would draw in more students who are the first in their families to go 
to college. An in-depth analysis of MC enrollment patterns cited 
trouble with financial aid as a large barrier to students. It stressed 
more energy be invested in ``assisting low-income prospective students 
to manage the financial aid application process. Many prospective 
students likely have demonstrated need, but do not finish the FAFSA or 
fail to send it to MC.'' \10\ Once students get the FAFSA submitted, 
many face the hurdles of verifying the answers they gave on the FAFSA, 
most of which were already confirmed by a Federal agency. Verification 
is a process that has very little effect on the expected family 
contribution of most students, but further confuses students with 
additional paperwork. MC's financial aid staff spend over 80 percent of 
their time on verification processes, when they could be spending that 
time helping students through the aid process.
---------------------------------------------------------------------------
    \10\  Montgomery College: Strategic Enrollment Alignment & Tuition 
and Fee Pricing: Study prepared for the College Enrollment Management 
Advisory Team, 2015.

    Lowering the barriers for students with special circumstances, such 
as a parent who is incarcerated or one who cannot be located, is 
another step forward. Giving Dreamers, like other Americans, the chance 
to advance themselves would also improve our Nation's strength. 
Montgomery College has over 6,000 students who were born outside the 
United States. Community colleges are often the places they start to 
improve their English in order to work. About 6,000 students a year 
take some form of English as a Second Language at our college. \11\ A 
specialized program that combines job skills training with English 
language classes, the Maryland Integrated Basic Education and Skills 
Training (MI-BEST) initiative, helps move non-native English speakers 
into employment more quickly by teaching targeted job skills while they 
improve their language capabilities.
---------------------------------------------------------------------------
    \11\  Montgomery College: The Workforce Development Anchor, 2015

    Immigrants are among the most vulnerable of our Nation's people. At 
MC, our Refugee Training Program offers language skills and 
acculturation to hundreds of refugees a year. The College also offers 
GED classes and other skills training in the Montgomery County 
Correctional Facility, so that inmate-learners will have at least the 
---------------------------------------------------------------------------
minimum needed to enter the workforce upon release.

    Making college accessible is also about preparing at-risk students, 
who are almost always low-income, for post-secondary education. The 
Achieving Collegiate Excellence and Success (ACES) program, now in its 
fifth year, begins preparing high school juniors in 13 of our local 
public high schools, for college finances and academics. Since 70 
percent of its students are the first in their families to attend 
college, ACES coaches assist students while still in high school, to 
apply for scholarships and understand their financial aid options. In 
addition to teaching students how to navigate the College, ACES helps 
students transition to our partner, the Universities at Shady Grove, a 
higher education center of the University System of Maryland, to 
complete a 4-year degree. Since the program's inception, ACES has 
served more than 3,500 students.

    Helping Pell-grant students keep their eligibility is another 
challenge that our college is tackling. Students who lose their 
eligibility for Pell grants because they cannot maintain satisfactory 
academic performance (SAP) is another way that needy students miss 
opportunities to succeed. Montgomery College is now creating financial 
aid coaches, who will help monitor students in danger of losing their 
funding due to violations of SAP.

    Accountability is a core tenet at Montgomery College. We track our 
students' success on an annual, public scorecard. Factors such as time-
to-degree, progress on benchmarks, course pass rates, and completion 
data are disaggregated by race and gender. From there we can see trends 
emerge, and target certain populations for special attention. The 
College's the Boys to Men mentoring program, for example, is designed 
for African American males who need support, offering academic and 
personal mentoring, to foster greater overall success.

    These are just some ways in which Montgomery College goes to 
extraordinary lengths to prepare students to plan for college, make 
college financially accessible, and keep students in school by helping 
to meet their living expenses. These strategies have evolved from years 
of working closely with ambitious, talented students who want to earn 
degrees and certificates. They understand the value of higher education 
and its potential to transform their lives. But they face multiple 
challenges: rising income inequality, ignorance about financial aid 
programs, and the disadvantages of households in which no one has ever 
gone to college. Lowering the barriers to a post-secondary education is 
critical. For those who want to earn a certification, their financial 
options are limited as Pell grants are largely unavailable. All of 
these students are striving for opportunity, one of the fundamental 
values of our Nation. As we invest in them, we are investing in our 
communal future.

    When the Truman Commission on Higher Education produced its report 
in 1947, it realized that leadership was necessary to manage the 
significant changes in the economy and society in the post-war era. 
Expanding the reach of community colleges was its strategy for bringing 
more skilled workers into the labor market and building the middle 
class. At the crossroads of profound demographic and economic changes 
in the 21st century, our Nation needs leadership again. Affordable 
higher education that closes the skill gaps will fuel America's 
economy. Students who are given clear paths to and up the ladder of 
opportunity will return that investment to their families and their 
communities. It is time to move from a K to 12 model of thinking to a K 
to J--from Kindergarten to Job paradigm. It's time to make college 
affordable for all.
                                 ______
                                 
                [summary statement of derionne pollard]
    Affordability is the biggest challenge facing community college 
students today. The American college student of 2018 is not the one 
that so many of us imagine: a recent high school graduate, at a 4-year 
school, living in a dorm, and relying on parental support. Community 
college students today are people who grew up in households without a 
college graduate; they are low income people; they are displaced 
workers, returning workers, and immigrants; they are women; they are 
often people of color.

    Many of them are so daunted by the cost of higher education that 
they do not enroll. Others enroll, but do not complete their degrees 
because of the high cost of living. Two-thirds of the 8,600 Pell grant 
recipients at Montgomery College have an Expected Family Contribution 
of zero dollars. Their average income in 2018 is $24,864. Community 
colleges like Montgomery College in Maryland expend extraordinary 
energy and resources trying to support students' financial needs beyond 
tuition so that they can complete their studies.

    Our college, like many others in the Nation, has food pantries, a 
clothing library, loaner laptops, and free shuttle buses. We know that 
any of these extra expenses could break the budget of a student living 
on the edge. The College is supported by a foundation that even 
provides emergency aid to students for utilities and rent. The 
Montgomery College Foundation distributed $2.4 million in scholarships 
in fiscal year 2017, July 1, 2016, through June 30, 2017.The College 
also offers special academic support programs, financial aid coaching, 
and personal mentoring to help students navigate college while working 
and caring for family members.

    The reason that so many students leave college without completing 
their degrees is not complex--it comes down to finances. Several 
strategies by the Federal Government could provide support that would 
transform these outcomes that cripple people's job prospects, their 
earning potential, and their ability to contribute to our Nation's 
skilled workforce: increase the amount of Pell grants; tie Pell amounts 
to inflation; simplify the FAFSA and certification processes; and make 
workforce development training programs eligible for Pell. Increasing 
the buying potential of the Pell grant and making the FAFSA more 
accessible would work wonders in moving more students to degrees. As 
the Truman Commission on Higher Education saw so clearly in 1947 when 
it expanded the reach of community colleges, investments in higher 
education for more students benefit us all.
                                 ______
                                 
    The Chairman. Thank you, Dr. Pollard.
    Thanks to all of you.
    We will now go to a round of 5 minute questions. I am going 
to try to keep the exchanges between Senators and witnesses to 
5 minutes so everybody can participate.
    Senator Cassidy has deferred to Senator Young.
    Senator Young. Thank you, Chairman, and I thank my 
colleague, as I head out to preside monetarily.
    We know college is becoming increasingly unaffordable for 
far too many Americans, which is the reason we are having this 
series of hearings.
    In fact, over the last 7 years, the amount of student loan 
debt has doubled while median household incomes has decreased 
for so many middle income Americans and people of more modest 
means.
    When we look at how to address college affordability as a 
whole, there is no single entity, we are discovering, to blame. 
Real reform should encompass all aspects of the affordability 
conversation. Part of this conversation should include the 
opportunity that income share agreements provided to students.
    I visited Purdue University last October, and I met with a 
student, Amy Wroblewski. She is a first generation college 
student who became increasingly worried about her student loans 
and her ability to pay them back.
    By participating in Back a Boiler, their variant of an 
Income Share Agreement at Purdue, Amy can financially plan for 
the future and focus on excelling in her classes.
    Dr. Smith, I would appreciate your insight.
    What role do Income Share Agreements play in the broader 
conversation of college affordability?
    Dr. Smith. Certainly. Particularly for students who have 
maxed out their Federal student loans, and are relying on 
financial products in this private market, private student 
loan, Income Share Agreements could be a good alternative to 
those private student loans.
    They have an inherent risk sharing in the way that Purdue 
has done them, and I think that is probably the best possible 
mechanism for the school itself to have some skin in the game 
and not just some kind of investor somewhere else; that the 
school itself is relying on the students to pay back. But 
first, the student should be maxing out their Federal student 
loan so that they are using those kinds of products to offset 
credit card debt and other things like that.
    Senator Young. Well, it sounds like you think they should 
play a role in the overall.
    Dr. Smith. I think they could play a role for many students 
that have that need.
    Senator Young. Well, I have legislation that would 
establish a framework so that these contracts will be legally 
recognized and instill consumer protection for income sharing.
    Dr. Smith. Yes. We need a framework for Income Share 
Agreements because right now, as you know, there is not one.
    Senator Young. Yes. Thank you, doctor.
    For Dr. Anderson, there are several institutions in Indiana 
taking great strides to address college affordability. In fact, 
it is state law that all public higher education institutions 
must provide degree maps to all first time, full-time students.
    Institutions have found clever ways to address 
affordability, like launching financial literacy programs, and 
switching from a credit hour system to a flat rate for tuition 
fees.
    Other institutions have made pledges to freeze tuition or 
lower other student fees. I know we see these things occurring 
in other states as well.
    Dr. Anderson, in your experience, what are some successful 
initiatives that institutions of higher education have launched 
to combat affordability concerns?
    Dr. Anderson. Thank you very much for the question, 
Senator.
    I think you have hit on some of the important ones that 
Indiana is moving in the direction of. They are a state that 
has gotten it, the connectivity between these completions and 
building out a robust economy. There are other states as well 
where we see similar types of developments.
    But regarding these types of programs, there are certain 
reforms that we know are working. When I am speaking of a state 
and Federal partnership, these are the types of reforms they 
could incentivize and should incentivize.
    One of the big ones, where we have seen tremendous strides 
where both work, I have seen in Tennessee and Georgia is the 
developmental education reform. This whole idea that if a 
student is not seen as prepared to go straight into credit 
bearing classes that they have a developmental experience. It 
can be a series of classes, one to maybe even three, where they 
have to get to square one in order to pass go.
    To make these credit bearing, so that immediate supports 
are being added where students can get through these 
experiences, and they are already going down their career path, 
gaining less debt, finishing more quickly, is an important 
outcome to look for, for many states.
    Senator Young. Dr. Anderson, just to interject, is this to 
compensate for a lack of complete preparation as certain 
students enter the post-secondary education atmosphere?
    Dr. Anderson. That is the concept there.
    Senator Young. Yes.
    Dr. Anderson. We have seen better alignment between K 
through 12 and higher education trying to work in a lot of 
these shortfalls during their senior year, but there are still 
students who were assessed and seen as not being college ready.
    Instead of going into a noncredit bearing format, what we 
have seen are students even with a 12, 13, 14 ACT have been 
successful in these credit bearing experiences if you add the 
right supports.
    We have these interventions that are working. What they 
have to do is be scaled, though, nationwide, not just one state 
doing good work, this state doing good work. We have to build 
on these practices that work.
    Senator Young. My time is up. I just state the obvious 
here. I know this is about higher education and its 
affordability.
    I do think it is lamentable that if someone spends 12 years 
in a classroom or more, they enter college not prepared to 
handle the basics.
    Dr. Anderson. Yes.
    Senator Young. Thank you.
    The Chairman. Thank you, Senator Young.
    Senator Murray.
    Senator Murray. Well, thank you, Mr. Chairman.
    Before I begin my questions, I just want to note my concern 
with some of the framing that we just heard that Federal 
student aid is hurting college affordability. We have talked a 
lot about making this a student-centered reauthorization, which 
is why we have to increase investments and expand access for 
all students.
    I have three letters. One from the American Council on 
Education, the National Student Financial Aid Administrators, 
and from noted Professor David Feldman on how Federal aid 
actually makes college more affordable, not less.
    I would ask unanimous consent to put those in the record.
    The Chairman. It will be.
    Senator Murray. Thank you.
    [The following information can be found on pages 81 through 
84 in Additional Material:]
    Senator Murray. Dr. Smith, I wanted to start with you.
    I wanted to talk about the burden of student loan debt, 
something students and families across the country consistently 
say they want Congress to address this.
    Right now, we have millions and millions of workers who 
scramble every month just to pay back their loans. We have 
millions and millions of families who are unable to take 
important life steps, like buying a home, because they have 
student debt. And we have millions and millions of students who 
are being deterred from actually pursuing higher education 
because they were worried about having to shoulder that debt. 
So my question is kind of simple.
    How important is it that the reauthorization of the Higher 
Education Act take steps to help reduce their student debt?
    Dr. Smith. Extraordinarily expensive. Not all debt is bad, 
but we have a clear problem with some students, particularly 
low income students and students of color, who 
disproportionately rely on debt.
    Recent reports have come out that one-quarter of black 
Bachelor's Degree graduates are defaulting on their student 
loan. So we clearly have to do something to address 
affordability on the front-end for students, but also to make 
sure that there are really great repayment options on the back-
end. Default is the worst possible outcome.
    That kind of masks the many more students who are 
struggling, as you mentioned. They may be making the payments, 
but who knows what other sacrifices they are making in life.
    Senator Murray. Right.
    Dr. Smith. That message that it sends to would-be students 
that it can be really, really tough and life altering to go to 
college reduces their likelihood and their desire to take on 
debt. I think we are seeing that backlash now.
    We really must have, in the next reauthorization, something 
to make sure that debt is truly affordable. I know that is 
something that you all discussed in previous hearings that 
students do not have to take on so much debt in the first 
place.
    We know that debt is not, when we talk about averages, that 
masks some kind of clear and present issues within that debt 
bubble.
    Senator Murray. Right.
    In your testimony, you spoke to the need to strengthen Pell 
Grants to make college more affordable, and in particular, for 
working families. But not everyone has access to that important 
source of aid, and some students face challenges in keeping 
their grants.
    I wanted to ask you, in addition to increasing the maximum 
Pell award, what are some of the policy changes that you would 
recommend for Federal grants to help more students afford 
college and stay on track?
    Dr. Smith. As it relates to Pell Grants in particular?
    Senator Murray. Yes.
    Dr. Smith. One thing that has been talked about in many 
years past, and I do not know if it is possible now, but we 
have a Pell Grant program that effectively acts as an 
entitlement, but we do not fund it that way.
    We fund it as if it is a discretionary program year after 
year, and it would be really great to kind of see if we could 
bring that conversation about mandatory Pell back.
    Another thing is just the cost of living increases. Many 
other Federal programs have those. Instinctively year after 
year, we recognize that there is going to be inflation, and we 
have a cost of living increase added to them. Pell does not 
have that; so inflationary increases in the Pell Grant are also 
very, very important.
    Then there is the prospect of even expanding Pell to 
students that do not get it now. The drug question is part of 
Pell Grants. Really, we do a lot of work at Lumina with 
incarcerated populations. And even if they actually do not meet 
the definition of not being eligible for Federal student aid, 
the fact that the question is there really deters many 
students.
    Senator Murray. Deters them from even applying, yes.
    Dr. Pollard, let me ask you. The data is clear that a 
college degree or credential, including an Associate's Degree, 
is necessary to compete in today's economy. For many low income 
students, it provides them just a path to middle class.
    But as the cost of college continues to climb, many 
students have increasing concerns about whether college will 
pay off for them personally, whether they will be able to land 
a good paying job, and whether they will be able to even manage 
their debt.
    What are some of the ways we can address those challenges?
    Dr. Pollard. Thank you, Senator.
    I think a couple of things become paramount in this.
    One is that I think we have to actually talk about the 
impact of not being educated in today's economy. We know the 
Georgetown Center for Workforce Education recently released a 
study that indicated that 60 percent of all jobs in the future 
will require some form of post-secondary education.
    The idea that someone should not have a path to education 
to ultimately increase the quality of life is a struggle for me 
to understand that.
    Our economy demands post-secondary education. We are in a 
knowledge economy and to ignore that, and to assume that some 
people can and should be left behind, while others are not, is 
a problem for me as well.
    College and job training is a must. That is something we 
specialize in, in community colleges. We know the lifetime 
earnings of an individual by having an Associate's Degree is 
over $600,000 increase. Baccalaureate Degree is over 
$1,000,000.
    If, indeed, we are to make sure that everyone who is in the 
room is educated, we also think about the folks who are not in 
the room, and work deeply to form partnerships to have that 
happen.
    Senator Murray. Thank you very much.
    Dr. Pollard. Thank you.
    Senator Murray. I am out of time.
    Thank you, Mr. Chairman.
    The Chairman. Thanks, Senator Murray.
    Senator Cassidy.
    Senator Cassidy. Let me put some things in context, then I 
will make a statement trying to get colleagues onboard with 
some legislation, and then I have some questions in particular.
    College tuition is going up, programs are going up, and 
programs which are not sustainable. Students are being burdened 
with debt for decades, and oftentimes have no information about 
their likelihood of paying off that debt, and taxpayers will be 
burdened paying $36 billion in shortfalls related to student 
loan default.
    We have a College Transparency Act which is Senators Hatch, 
Cassidy, Warren, and Whitehouse, which creates a student level 
data network to have more complete, accurate information on all 
students and outcomes.
    Dr. Baum spoke about how students do not have the ability 
to pay off depending on what curriculum they are in.
    It streamlines reporting requirements for colleges--this 
will be dear to Senator Alexander's heart--saving colleges time 
and money, and decreasing burdens on currently reporting.
    It is a better system that allows students to compare 
similar situations--ma'am, you are going to love this--low 
income, black male, first time college student taking 
engineering; what is his potential to earn? Would that not be 
good? I like that.
    Last, it is a better system which allows students to better 
know their return on investment. I think that is what we heard.
    We need the student o have the information that he or she 
needs to know for the return on investment. So anyway, I say 
that with Senator Warren over there wearing her good Republican 
red.
    Dr. Anderson, and Dr. Baum, I think, or maybe Dr. Smith, 
alluded to this, but Dr. Anderson, I am going to shoot the 
question at you.
    We have spoken about the Federalization, and Dr. Robinson's 
testimony, the Federalization of how we pay for colleges. The 
more student loan dollars, the less states are putting out 
toward colleges. Dr. Smith is nodding her head.
    People have spoken of maintenance of effort. How do we get 
the states to continue to put up the funds that they previously 
have so that it is not falling upon students and upon Federal 
aid programs?
    But what is different is that if we have a maintenance of 
effort for primary and secondary schools that is institution-
based, or state-based loans, or grants, or money, whereas for 
colleges it is student-based.
    The issue is if the money is going to the student, how do 
you get maintenance of effort from the state because, really, 
the state is the bystander as the student pulls down the money?
    I hope that question is not too convoluted, but I think you 
know what I am speaking of. Dr. Anderson first and then perhaps 
Dr. Smith.
    Dr. Anderson. Thank you so much for the question, Senator.
    When I spoke to the opportunity for a Federal-state 
partnership on post-secondary education, this is what I had in 
mind, a way for the Federal Government to incentivize greater 
state participation. This incentivizing would need to be around 
completion, accountability, and transparency. Those would all 
need to be key to this process.
    I mentioned that 41 states have attainment goals, but what 
we need is a drill-down to completion goals in each of these.
    Senator Cassidy. But I am sorry, unless you have a hook on 
that, unless you say, ``State, you get more money for more 
completion.''
    Dr. Anderson. Right.
    Senator Cassidy. ``Or your children cannot borrow money if 
you do not.'' You have to have a hook.
    Dr. Anderson. My recommendation would be to create a 
program similar to what we had with LEAP and SLEAP, which were 
focused funding toward low income students. And at that time 
with LEAP and SLEAP, it was also toward community service 
oriented types of projects.
    Senator Cassidy. I do not comprehend how you can actually 
leverage the states. ``State, you do not get or you do get 
unless you keep putting state general fund money toward public 
universities.''
    Dr. Anderson. It would have to be that type of 
relationship.
    Senator Cassidy. Dr. Smith, your comments.
    Dr. Smith. You would have to really create a new program 
that is not available currently. There was maintenance of 
effort, kind of, in the last reauthorization that was going to 
a very small pot of funding.
    But in order to really leverage state spending, you have to 
create a really new paradigm that does not exist.
    Senator Cassidy. What is that paradigm? Do you know what 
that paradigm is?
    Dr. Smith. You would have to have someone from the state--
it could be a state higher education executive officer, it 
could be a Governor--agree, someone with the authority, to 
actually make some guarantees.
    Actually, the maintenance of effort was included in the 
American Recovery and Reinvestment Act, in ARRA----
    Senator Cassidy. Yes, but that was direct funding that you 
only got if you maintained.
    Dr. Smith. Yes.
    Senator Cassidy. Now, are you suggesting that is what we 
need to do if we are going to have the leverage?
    Dr. Smith. Yes, we are going to have to create something 
new that does not currently exist in the law.
    Senator Cassidy. Does that take dollars away that are 
currently being loaned to students and, instead, giving it to?
    Dr. Smith. I would not say that. I think you really need to 
have a substantial amount of new funding to be available for 
this. And right now, this is not leveraging any of the Federal 
money at all in this way, as you know----
    Senator Cassidy. We are totally not leveraging.
    Dr. Smith ----as you expertly outlined the challenges. I 
know we are over time, so we can talk more about specific ways 
that you could do that.
    Senator Cassidy. Thank you.
    I yield back.
    The Chairman. Did you notice how disciplined Vanderbilt 
graduates are in staying within the time?
    [Laughter.]
    The Chairman. Senator Warren.
    Senator Warren. Thank you, Mr. Chairman.
    At this point, anyone who denies we have a college 
affordability and debt crisis problem in this country has their 
heads buried pretty deep in the sand.
    We know the basic facts and we have talked a lot about them 
in multiple hearings here, but I wanted to zoom in on one 
particularly alarming statistic.
    The Education Department recently released data showing 
that almost half of all black students who took out loans in 
2003-2004 have defaulted on their Federal student loans. Black 
college students default at five times the rate of white 
college graduates. In fact, black college graduates are more 
likely to default than white college dropouts.
    Now, Dr. Baum, you have argued that the student debt 
problem is not really a problem for most people. So let me just 
focus in on these data that I just talked about.
    Do you believe that student debt has reached a crisis for 
African Americans?
    Dr. Baum. Student debt has reached a crisis for a number of 
subsets of students. Black students are notable in this. I 
think we need to understand much more about why.
    There are some obvious reasons even such as given income 
levels. Wealth levels among African American families are much 
lower than they are among others with similar incomes.
    We know that black students are more likely to wait longer, 
and be older, and have other responsibilities when they go to 
college. They borrow more and we know that their incomes 
afterwards are not as high for various reasons, including 
discrimination in the labor market.
    We clearly need to focus on the circumstances facing these 
students, on the circumstances facing older students, and in 
particular, on students who are attending for-profit 
institutions borrowing more than other students and not 
necessarily getting degrees of value.
    Notably, the questions about quantity of debt for 
individual students do not get at the real issues because many 
of the students struggling most are those who do not complete 
their degrees. They have low levels of debt and they cannot pay 
them because their education investment has not paid off.
    Senator Warren. This is what one of the subsets in the data 
looks at that most people are better off because they go to 
college, but this was not true for nearly half of all black 
students.
    What I want to think about is how we solve that problem? 
There are a lot of pieces to understand the data, but how do we 
fix the problem?
    Dr. Smith, let me ask you. Do you think that more financial 
aid counseling alone will fix this problem?
    Dr. Smith. No.
    Senator Warren. What about FAFSA simplification? Will that 
fix the problem?
    Dr. Smith. Very good, but will not fix it.
    Senator Warren. Okay.
    How about risk sharing or accreditation reform?
    Dr. Smith. Also really, really great things; will not fix 
this particular problem.
    Senator Warren. How about college deregulation?
    Dr. Smith. No.
    Senator Warren. No, not going to fix this problem. Okay.
    Recently, the Chair of the House Education Committee 
argued, quote, ``There is not any more money out there to spend 
on students in higher education.''
    Can we solve this problem without investing more money in 
our college students?
    Dr. Smith. I think it is really difficult, especially when 
Congress passes billions of dollars of tax cuts and things like 
that, which I know is not the purview of this Committee.
    But when I talk to people every single day, they do not 
understand the rhetoric that there is not money to better 
themselves through education, but there is for these other 
types of things.
    Senator Warren. Dr. Smith, actually, I think you put it 
exactly the right way.
    That we just learned that Congressional Republicans could 
find $1.5 trillion to give away to rich people in corporations, 
but suddenly there is no money left to invest in people who are 
trying to get a college education; an investment that not only 
pays off for the individual, but pays off for the whole economy 
and for the whole country.
    The higher education law that we write in this Committee 
could be the law of the land for the next decade.
    It would be unconscionable for us to write a law without 
making college more affordable and without dealing with the 40 
million Americans who are struggling to pay off $1.4 trillion 
in student loan debt. I think that should be our first job.
    Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Well-disciplined as well. Thank 
you, Senator Warren.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    Mr. Chairman, I apologize to our panelists. I had another 
Committee meeting and did not hear your testimony. I deeply 
apologize.
    Dr. Anderson, you are a native of Augusta.
    Dr. Anderson. Yes, sir.
    Senator Isakson. Worked for the University System of 
Georgia, as I understand; vice chancellor, if I am not 
mistaken.
    Dr. Anderson. Yes, sir.
    Senator Isakson. I appreciate your comments on 
developmental programs and students. In fact, the University of 
Georgia, when they accepted my son, they did not accept my 
daughter, but they did accept my son.
    He got in on developmental studies, which was an entry 
level program where he had to accomplish passing certain 
courses at the University of Georgia before he could earn 
credits at the University of Georgia.
    They changed him from a mediocre student performance-wise, 
to a student that graduated with honors at the University of 
Georgia. It taught him how to study. It also gave him a goal at 
the beginning of his college career to shoot for in achievement 
and attainment, which helped him be responsible in how he 
handled it. And also responsible in how he handled the money 
that he had to go to college, some of which was mine, some of 
which was borrowed.
    I appreciate your comment on the programs that you had to 
develop for students.
    Interestingly enough, that program was developed for 
athletes who were recruited to come, but were not passing the 
SAT scores with as high scores as they need to, and they built 
them back up to get it so they could play football.
    Now they do it for all students regardless of their 
athletic talents. It has had a measurable help in terms of 
doing that. So I appreciate you mentioning that.
    I just want to say two things. This morning I watched CNN 
and heard the testimony of two people in Cincinnati who took 
the bonus their company gave them, because of the tax law, and 
are paying tuition for their children going to college. So 
there was a reference about what would we do with our money 
from the tax cuts.
    I wanted to reference that some people, like the two I saw 
from Cincinnati this morning on T.V., took the money their 
company gave them based on the tax cut and are sending their 
two children to college, that they could not have done had they 
not gotten it. That was just their testimony.
    Economic policy does make a difference and every time we 
can put money in the pockets of parents through better 
management of the government, better management of the tax 
system, the more money is going to be available for children to 
become educated.
    Last, on the statement about African American students, 
which I appreciate so much Senator Warren bringing up, Georgia 
State University in Atlanta has done a remarkable job in 
meeting the needs of the African American community, No. 1.
    Two, providing access to financing that was affordable and 
repayable at the right time in their career. So good, that now 
Georgia State University graduates the highest number of 
baccalaureate degrees for African Americans of any university 
in the United States.
    That is because they focused on the affordability issue and 
because they did a little bit of the reverse of the performance 
base. They tracked the students from the day they went to the 
university and they looked for certain benchmarks that would be 
indicators they might be falling behind economically or sliding 
behind on their payments.
    They brought in what they called Panther Grants, which were 
mini micro loans to get them through a difficult time so they 
stayed on course, and did not end up dropping out of school at 
the end because they did not see that they could afford and pay 
for it.
    I think there are innovative ideas going on being applied 
in the universities around the country today that make a huge 
difference.
    But it is our responsibility to see to it that we do 
everything we can to move everybody toward the best education 
they can afford and achieve. A better educated America is a 
more productive America, and it is a safer America for our 
country, and I am glad to be a part of this hearing.
    I appreciate the time, Mr. Chairman.
    The Chairman. Thank you, Senator Isakson.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    Thanks to the witnesses for great testimony.
    I am interested, Dr. Robinson, in some of your testimony 
about the Bennett effect. Senator Murray introduced a letter 
from a William and Mary professor. I am from Virginia, so I 
cannot resist quoting from it, because I think there are some 
similarities. I think he has some different conclusions than 
yours, but there are some similar points.
    Just to quote from the letter that she has introduced in 
the record.
    ``There is serious social science research on the 
interaction between Federal higher education support and 
college access and affordability, and a number of conclusions 
from that literature are increasingly supported by strong 
evidence.
    ``One, public universities and private colleges that serve 
large numbers of the Nation's lower income and first generation 
students pass most, or all, of any increase in Federal aid back 
to students as a lower net tuition.
    ``Net tuition is the list price minus any government aid 
the student receives and any institutional discount the schools 
offers.''
    In other words, extra Federal support creates more access.
    ``Two, highly selective private colleges do not pass all of 
an extra dollar of Federal aid to students. They tax an extra 
dollar made by reducing their own need-based discount, but some 
of the aid does pass through as a lower net price.
    ``Third, the best evidence of a causal link between Federal 
education and list price tuition comes from the Nation's for-
profit higher education institutions.''
    You make a similar point on Page 10 of your testimony, ``As 
Gillen noted in his 2012 paper, the effect,'' the Bennett 
effect, ``Was also more marked at for-profit institutions than 
at public and private non-profit institutions. At public 
institutions, this is due to tuition caps and strong political 
pressure to keep tuition low. At private non-profit 
institutions, it is due to the common practice of price 
discrimination. (Price discrimination is the practice of 
charging students different prices based on their ability and 
willingness to pay.)''
    I think this is an important aspect of studying the effect 
as to segregate the kinds of institutions and not just use 
averages. And it sounds like both from the Feldman letter and 
your own testimony, you recognize that the inability to pass on 
student aid completely to students is more marked in the for-
profit institutions.
    I got to Page 14 of your recommendations, and I was 
interested in the recommendations.
    You have a recommendation about capping the growth of 
tuition and fees at public colleges and universities. But if 
this effect is more marked at the for-profit institutions, I 
did not necessarily see a recommendation that was really geared 
at the for-profit institutions that may be the more egregious 
examples of this Bennett effect.
    Do you have thoughts about what we might do as we approach 
the Higher Education rewrite to the for-profit institutions?
    Dr. Robinson. I think the question of for-profit 
institutions is a difficult one because they, as you know, rely 
on tuition more than any other type of institution.
    They do not have endowments. They do not have a state that 
is contributing. And so, they are faced with different kinds of 
pressures.
    I think it is definitely in keeping with Bennett's ideas, 
and with everything that we have seen, that a tuition-dependent 
institution is not going to see better effects, but more 
stronger effects from increases in aid.
    I think that having more transparency and accountability 
for every type of institution will affect those for-profit 
institutions.
    I think, as I said, any of the recommendations that have to 
do with targeting our aid better specifically focusing on Pell 
Grants for the neediest of students essentially reduces the 
amount that will flow through just to the bottom line for any 
type of institution, including for-profit schools.
    Senator Kaine. I think it is important because the original 
Bennett Hypothesis as articulated in an article, I think it was 
called ``America's Greedy Colleges,'' and painting a broad 
brush of our colleges as greedy when they are still the gold 
standard in the world for colleges for so many.
    But then you get into actually what the data shows after 20 
years and where is the greed in the institution? Where is there 
evidence that financial aid does not make it more affordable 
for students, but it is just padding the pocket of the 
institution?
    There is a suggestion that there might be greedy colleges, 
but it is unfair to paint everybody with that broad brush.
    I notice another recommendation you make that, I think, is 
interesting on Page 14. One way to deal with some of this issue 
is to make private student loan debt subject to bankruptcy 
laws.
    Explain why you think that would be a good idea and do 
other members of the panel also agree with that as a 
recommendation?
    Dr. Robinson. The reason I recommend that is all of the 
recommendations stem from the idea that we have to effect 
demand for higher education. We have to end artificial demand 
for education and, in particular, artificial demand for loans. 
I believe that students will not demand loans if they know that 
the loans are less available.
    But the idea is to make private student loans subject to 
bankruptcy, as every other type of loan is in the United 
States.
    Senator Kaine. A loan for a yacht, and a loan for a 
vacation home.
    Dr. Robinson. Right. The idea behind that is it will 
incentivize lenders to lend more widely and to lend less. And 
ultimately, it will decrease the number of private student 
loans going to students who ultimately cannot pay them back.
    Senator Kaine. I am out of time, but I am going to ask for, 
in writing, for other panel members to comment on that.
    Thank you, Mr. Chair.
    The Chairman. Thanks, Senator Kaine.
    Dr. Baum, you have studied every trend in higher education. 
Normally in this Committee, we have a price problem. Many 
Members of the Committee, not all, would say, ``Let us get some 
more competition in. That will lower the price of drugs. That 
will lower the price of computers. That will lower the price.'' 
And often, it does.
    [Showing smart phone.]
    The Chairman. These things do not get cheaper apparently.
    [Laughter.]
    The Chairman. But almost every other thing does.
    Now, you look at the higher education market, and for 
something so involved with government, it is a pretty 
remarkable market; 6,000 reasonably autonomous institutions, 
vouchers, really, for 20 million students to help them choose 
among those colleges.
    Why does the market not lower prices more? I mean, why do 
we have a situation where over 30 years, we do not have even 
twice as many students? We have gone from 13 to 20 million, yet 
we are spending 7 times as much on Pell Grants and 8 times as 
much on student loans.
    Dr. Baum. You get the aggregate spending, it can be a 
little bit misleading because, in fact, one of the things that 
the student aid system is designed to do is to increase demand 
for higher education. Right?
    This is not artificial demand for education. This is 
creating opportunities for people who do not have the resources 
on their own to actually enroll and succeed in college.
    Now competition, if you look at the way different markets 
work, of course, competition can sometimes reduce prices, but 
there is a lot of product differentiation. So colleges tend to 
compete based on their characteristics, and if you look for----
    The Chairman. Well, let me interrupt for just a minute.
    Why do not more people look at this market and say, ``Here 
is a high quality, lower priced degree,'' and you do not have 
to borrow to do this?
    Dr. Baum. That is a good question about why, for example, 
students choose to enroll in more expensive for-profit 
institutions than in public universities. But one problem is 
that there is a high correlation between the cost of educating 
students and the quality.
    There is a lot of evidence that if you add resources to 
public institutions or private institutions, they do a better 
job of educating students.
    The Chairman. Well then, if that is true, we should just 
turn the whole Federal budget over to the colleges and 
universities and let everybody go for free. Then we would have 
the best educated country in the world. Right? I mean, that is 
not the way we usually work.
    We usually leave opportunities for people to come in and 
say, ``I can offer you higher quality at a lower price.''
    Dr. Baum. Unfortunately, we have not been very successful 
at doing that.
    The Chairman. Yes. Well, let me ask this of any of you.
    Assuming we were to spend more taxpayer dollars, where 
would you put it?
    Now, it is nice to say, ``We will put it everywhere.'' But 
we never have that choice usually, and rarely have that choice 
as legislators.
    Would you put it on lowering rates for loans? Would you put 
it on forgiving more loans? Would you put it on larger Pell 
Grants? Would you put it on more Pell Grants?
    What would you do, Dr. Baum?
    Dr. Baum. I would put more money into low income students 
directly through the Pell Grant program and into the 
institutions in which they enroll. So we want to be very 
careful not to----
    The Chairman. Well, the money goes to the students, not to 
the institution.
    Dr. Baum. Well, the money goes to the students.
    The Chairman. Do you want more Pell Grants or higher Pell 
Grants, if you had a choice? Or if you put a priority on the 
available money, what would you put first priority?
    Dr. Baum. Higher Pell Grants for the students who need them 
most. This is a critical issue that the low income students who 
are enrolling in college do not have the money to both pay 
their tuition--they can cover tuition--but not to cover their 
living expenses. Need-based aid is critical.
    The Chairman. Wait a minute. Does that mean more Pell 
Grants or Pell Grants more generous?
    Dr. Baum. Pell Grants with higher dollars per student.
    The Chairman. Okay. So your choice would be to raise the 
Pell Grant limit from $5,920 instead of more Pell Grants.
    Dr. Baum. Well, of course, if you raise the limit the way 
the program is currently structured, you also increase the 
number of students who are eligible by raising the income limit 
on eligibility.
    The Chairman. Well, but you do not have that luxury, if you 
have X billion dollars here.
    Dr. Baum. Right. So you have to change the structure.
    I would say fund Pell Grants up to a certain percentage of, 
say, the poverty level and make sure the students----
    The Chairman. Even though that will reduce the number of 
Pell Grants, you would do that?
    Dr. Baum. It would not necessarily reduce the number.
    The Chairman. Well, you have to make a choice.
    Dr. Baum. The fixed number of dollars?
    The Chairman. Do you want more Pell Grants or do you want 
more generous Pell Grants?
    Dr. Baum. Yes, I would give more money. I would put more 
money to the neediest students and reduce somewhat the number 
of Pell Grant recipients. There are certain students receiving 
Pell Grants who do not need them nearly as much.
    The Chairman. Would you put money into Pell Grants before 
you would reduce the interest rate on student loans or forgive 
more student loans?
    Dr. Baum. Absolutely. The loan program needs to be better 
structured. The interest rate, if people are in income driven 
repayment plans, the interest rate matters less. It will affect 
how long it takes them to repay their loans, not their monthly 
payments.
    The Chairman. My time is up, but we had a good deal of 
testimony last week that would seem to get a number of Senators 
interested.
    Did I hear you say that you favor, you would prefer pay 
your loan back, but pay it based on your income with an 
automatic payment out of your salary? Did I hear that too?
    Dr. Baum. Yes, you did hear that.
    The Chairman. Okay. Thank you very much.
    Senator Smith. No, I am sorry.
    Senator Hassan.
    Senator Hassan. Thank you, Mr. Chair.
    The Chairman. Excuse me. I looked over there.
    Senator Hassan. I am always delighted to be confused with 
Senator Smith.
    I am very, very happy to see such a distinguished panel 
this morning. It is very hard to figure out how to find my way 
through just 5 minutes with you because you all have so much 
experience and expertise.
    I will say that the issue of affordability of higher 
education is something I hear about from constituents just all 
the time. In an economy where we know that 80 percent of jobs 
are going to require post-secondary credential or degree of 
some kind, it is even more imperative that we find a way to 
make sure that people can afford to continue to improve and get 
those credentials.
    I want to start, Dr. Anderson, with a question for you. I 
am from New Hampshire. So I have seen firsthand how state 
investment in public higher education can impact whether or not 
students are able to access an affordable education.
    Like many states, New Hampshire's investment in higher 
education declined during the recession. It has since struggled 
to get back up to where it needs to be.
    As you have just heard from the Chairman, as policymakers, 
we have to make tough decisions about where to invest finite 
funds and a large part of our discretionary budgets can take 
hits.
    What is clear, though, is that there is a far reaching 
return on investment when we support higher education.
    When I became Governor of New Hampshire, one of the first 
things I did was to work to freeze tuition for 2 years at our 
university system and to lower it at our community colleges. I 
have also seen how important things like TAACCT Grants and 
Federal aid are in our community college system.
    Dr. Anderson, can you talk some more? You have referenced 
it. How could we develop Federal-state partnerships that would 
incentivize states to invest more in higher education at all 
levels?
    Dr. Anderson. Thank you for the question.
    Tying into what was said by Senator Alexander regarding 
some of these investments into Pell. I think an increased Pell 
amount, I think looking at negative EFC on that front, will 
help fund more of those students who are most in need.
    Senator Hassan. Yes.
    Dr. Anderson. I think that will free up institutions and 
systems to put a little bit more of their aid more toward those 
institutions that serve these students.
    I referred to a study earlier in my comments regarding a 10 
percent investment upfront into these types of institutions--
community colleges and 2 year programs--resulting in a 10 
percent increase within a year for Associate's Degrees and 26 
percent for certification programs.
    What we found in that also, and what that research 
discovered is that increased money is put into academic 
supports and student supports. That is what is key.
    When an institution is having to cutback to what they would 
consider barebones, that is what leaves, and that is what 
students who are underserved need the most. They need the 
academic supports and the student supports.
    Senator Hassan. Well, thank you very much for that. I 
appreciate it.
    Dr. Smith, I wanted to drilldown on the concept of 
affordability goals with you.
    Last year, the University of New Hampshire launched a 
program called Granite Guarantee. Under this program, first 
year Pell Grant eligible New Hampshire students will receive 
free tuition for 4 years.
    Over 400 students have been served under the Granite 
Guarantee program, and the Tuition Assistance Program is 
expanding to our entire university system.
    In an effort to make college more affordable and expand 
access to low income students, institutions and state 
university systems are implementing these kinds of programs 
across the country.
    We also know that we need to be thinking about how to help 
students beyond tuition, because the entire panel has made this 
point. It is not just tuition; it is the cost of living.
    As we look at ways to leverage Federal aid to expand access 
to college, how do you think states and institutions of higher 
education should be using an affordability goal to inform their 
policies and funding?
    Dr. Smith. First, I think that is fantastic. I think more 
states need to have an affordability goal. Right now, we talk 
about affordability, but we do not tell people what that means.
    The average person does not know when you say, ``I want to 
make college more affordable,'' without something specific that 
resonates with them. They do not understand what you are trying 
to accomplish and what that requires of them. So I think having 
that goal is important.
    Then, second, having goals complementary around completion; 
you cannot just get people in. You also have to make sure that 
you are helping them through.
    You could, I want to make sure we say this, could actually 
have affordability just for people who are already going, and 
that would be terrible for us to just say, ``We are not going 
to use this to get more people in. We are going to just use 
this to make it less expensive for those who are already 
going.''
    Those things have to pair together.
    Senator Hassan. Well, thank you very much.
    I see I am out of time. Dr. Pollard, I will follow-up with 
you because you are not the first community college president 
who we have heard from in the last month or so to talk about 
the need for additional supports, financial and other kinds of 
assistance, for students on community college campuses to help 
them succeed.
    I will follow-up in writing with you about that.
    Thank you.
    The Chairman. Thank you, Senator Hassan.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    I wanted to broaden out the conversation that Senator 
Hassan started about how you build affordability into 
regulatory accountability measures to the panel here because I 
think this is an incredibly important conversation to have; in 
large part because we spend so much time and energy regulating 
colleges between state-based regulatory systems, Federal 
regulatory systems, and accreditation that have nothing to do 
with accountability. It has nothing to do with affordability. 
Has lots to do with the number of professors, and the number of 
books you have in the library, and what your financials look 
like. But in the end, it does not translate to a cheaper 
product.
    I want to just present a little out of the box way to think 
about this, and this is maybe also to Senator Alexander's point 
about why the market does not work.
    I get it that when thinking about the way that the 
government spends money, department to department, it is apples 
to oranges.
    But when we buy a submarine from Electric Boat in 
Connecticut we, at the outset, set expectations for the quality 
of that submarine and say, ``If you cannot meet these 
qualifications, then we are not going to buy it from you.''
    But then after that, we look to cost and we essentially try 
to buy the cheapest product for the specs that we set out. I 
understand we are not going to revolutionize the way that we 
spend Federal student aid dollars.
    Why do we not look at higher education in somewhat of the 
same way? In that we set an expectation that every degree has a 
quality metric attached to it. That we are not going to fund 
schools in which 40 percent of their students cannot pay back 
their loans.
    But that we are also going to have an affordability 
expectation that, ``We are not going to pay more than X for a 
degree. And if you cannot produce these results for a certain 
amount of money, then you are no longer in the game.''
    Give us a little bit more on what we should build-in to an 
accountability system when it comes affordability.
    Dr. Smith. I actually think what you have just described 
would revolutionize the way we spend Federal student aid and we 
should do it.
    We are at a breaking point. I think the statistic that we 
have referenced, the fact that so many African American 
students are struggling, and not just African American 
students, but so many students are struggling to pay, and they 
are struggling with loans. We have reached a point where there 
is a crisis in college affordability. And so, that crisis 
requires some kind of revolutionizing of the system.
    The amount of money that is currently spent on Federal 
student aid without any kind of clear guarantees--and we have a 
baseline default rate, and we all talked about that before and 
how that is in position, et cetera--but along with those 
quality criteria, some guarantees around affordability which 
could include about how many people repay their loans or how 
easy it is, recognizing the limits of that. There needs to be 
also some front-end. limitations that would revolutionize the 
system and is absolutely necessary.
    Senator Murphy. Dr. Baum, we spend all this time. Speak to 
my concern that we spend all this time regulating colleges on 
things that do not have to do with the price of college when, 
to most families, that combined with whether they get a job 
afterwards is the mot important thing to them.
    Am I wrong?
    Dr. Baum. Well, first of all, it is very reasonable to put 
a floor on quality and to say, ``We are not going to support 
institutions that do not meet that floor,'' but to suggest that 
beyond that, it does not matter.
    I mean, the reality is that people are willing to pay more 
for different kinds of education and different quality. If you 
look at where people who can afford to spend whatever they want 
to on college to send their kids, they pick the most expensive 
colleges.
    We have a very complicated situation here.
    What we really need to be looking at is what the Federal 
Government is willing to subsidize and where the Federal 
Government can create added opportunities, not worry about if 
there is some other, more expensive option out there. That is 
fine, if people want to pay for it.
    But the Federal Government needs to make sure that it 
provides reasonable subsidies for students to attend high 
quality institutions and it does not. And it does not now pay 
for students to pay the full tuition at the most expensive 
colleges in the country, and it should not.
    Senator Murphy. Dr. Robinson, talk to me. A lot of the 
focus of your work is around how to get students thinking more 
about affordability, but you referenced accountability for 
institutions as well.
    What do you think of my idea?
    Dr. Robinson. I think that the easiest way for the Federal 
Government, without doing anything revolutionary to go to 
exactly that point, is to change the aid eligibility formula.
    Right now, say you apply to go to Duke and UNC Chapel Hill, 
both in my home State of North Carolina. You fill out your 
FAFSA and as part of the formula the Federal Government uses to 
decide how much money you will get, it uses the cost to attend 
at each institution.
    Duke costs a lot more than UNC Chapel Hill. So when you get 
your loan information back from the Federal Government about 
how much you will be lent, you will get more to go to Duke than 
to Carolina.
    This is sending students, or at least stopping them from 
having an incentive to go to the less expensive schools. And 
so, I think we should change that formula.
    Instead of using the cost of attendance at a particular 
school, we use the median cost of college. That means you are 
no longer incentivizing students to choose a more expensive 
college. You are actually incentivizing colleges to compete 
more on price because they know that they are not going to be 
able to use those loans for the most expensive schools and to 
pad the bottom line at the most expensive schools.
    I think that without creating a new system, we are 
operating in this system that exists now where student loans 
are the main vehicle for Federal funding for higher education. 
Changing that eligibility formula would be the easiest and most 
direct way to do it.
    Senator Murphy. Thank you, Mr. Chairman.
    The Chairman. Thanks, Senator Murphy. Very, very 
interesting.
    Senator Murray.
    Senator Murray. I want to thank all of you. I have some 
questions I will submit for the record.
    But Dr. Pollard, I did want to ask you about community 
colleges because there are some unique challenges. There are 
some who have suggested that community college is already 
affordable or even already free for some students.
    But I know that data shows that students are borrowing or 
paying more than $7,000 a year out of pocket for community 
colleges in Maryland, even after their grants and scholarships.
    I think it is clear that we need to redefine how we talk 
about the total cost of college and I wanted to ask you what 
additional costs should be considered when we look at making 
college affordable for all of our students?
    Dr. Pollard. Thank you, Senator Murray.
    I would offer a couple of points in here. Students in 
community colleges are typically low and averse. Our students 
are typically first generation. More often than not, they come 
from families where the idea of taking on debt is highly 
irregular for them, and they also know over the long term, they 
are concerned about their ability to pay that back.
    As a result of that, this idea of looking at the total cost 
of education becomes a barrier for many of them: childcare, 
healthcare, transportation, food, living expenses, all of those 
things.
    I loved the reference earlier about the room and board. 
Room and board exists even if you are in a resident situation 
or you are not. So how are you going to live?
    If you have to make a choice oftentimes between providing 
for your children and your family versus you going to school--
even if you know the long term implications for your family are 
better if you go to school--you will not make that choice to go 
to college. You will, instead, invest it in things you need to 
do or you will be looking at social services in order to be 
able to meet that gap.
    It is a critical issue for the students that I work with 
each and every day.
    Senator Murray. Okay. Thank you.
    Dr. Pollard. Thank you.
    Senator Murray. I really appreciate you talking about that.
    Thank you, Mr. Chairman. I think this has been an excellent 
panel and I think this issue is one that we really need to 
address so all students can feel that they have access to 
higher education.
    The Chairman. Thank you, Senator Murray.
    I think we had this hearing because you suggested to me 
that we should have this hearing.
    [Laughter.]
    The Chairman. I think it has been very good too. If I could 
ask a couple of questions.
    Does anyone have any comment on Dr. Robinson's point about 
using the median cost of college rather than getting more money 
to go to Duke than North Carolina or Vanderbilt in Tennessee?
    Dr. Baum. I agree that giving students more aid because 
they go to more expensive institutions, more Federal aid, is 
problematic.
    That said, the current loan limits--particularly for 
dependent students as most of the students attending schools 
like Duke are--are not high enough for this issue to solve many 
of these problems for many students. There are just not very 
many people whose amount of loan is affected by anything that 
Duke might do to change its price.
    But it is certainly true that what we do for graduate 
students, however, we give them as much money as cost of 
attendance. We should not do that.
    Dr. Smith. I would concur with most of what Dr. Baum just 
said.
    Vanderbilt and colleges, I will just talk about Vanderbilt 
and not about Duke, but they actually offer very generous 
financial aid. So no student at Vanderbilt has to take out a 
loan to attend college at all because they offer financial aid 
and donors are able to pay for that. That comes out of 
Vanderbilt's endowment, actually.
    Not every college does that. More colleges that have the 
resources like Vanderbilt should be encouraged to do that and 
it would be ``shame on them'' if they have the resources and 
they are not doing what Vanderbilt does.
    But the specific challenge that she raised, I think that is 
the wrinkle. That, one, the current loan limits do not actually 
jump up against what even the tuition and fees are. I would 
venture to guess UNC is very inexpensive, but with the full 
cost of attendance, you cannot meet it just with Federal 
student aid, which is part of the challenge that we are faced 
with today.
    In theory, I think it makes sense, but in practice, I think 
where we are with college prices has unfortunately already 
outstripped what the Federal aid is that is available.
    The Chairman. Anyone else have a comment on that?
    I was thinking, though, that our conversation about 
simplifying the FAFSA, one of the advantages of it is that you 
would apply. You would fill out in the first semester of your 
senior year, when you still could shop around a little bit. You 
would not just receive your admission at the same time you knew 
how much money you had.
    In addition, given these things, and a simplified FAFSA, 
you could find out when you are a freshman in high school how 
much Federal aid you are able to get, and you could plan ahead 
with, hopefully, some counseling and make more decisions about 
what you could afford for college.
    My last question is explore this problem of state support 
for higher education. I have been around long enough to see it 
from both ends.
    In the 1980's, when I was Governor of Tennessee, $2 out 
every $3 was paid for by the taxpayer, mostly the state 
taxpayer. And if we raised tuition 2 percent, we raised the 
state contribution 2 percent. Now it is $1 out of $3; it is 
reversed and the reason is pretty obvious and none of you 
mentioned it. Nobody ever does. It is the cost of Medicaid.
    When I was Governor, 8 percent of the state budget was 
Medicaid costs, and today it is more than 30 percent and most 
of the money for that has come out of higher education. So from 
my vantage as a former Governor, that is the reason for it.
    Now, how you get back into the business of more state 
support for higher education, it seems to me that one way might 
be this growing movement as Tennessee has done of recognizing 
that the Pell Grant pays for most of the tuition for community 
college. And saying, ``To the extent it does it, we will pay 
the rest,'' and so, it is free; tuition free in any event. 
Along with mentoring services, most of the time spent filling 
out the FAFSA, and community service, and other things.
    Does the growing interest in tuition free 2 years of post-
secondary education present an opportunity for states to renew 
their funding support for higher education? And if so, what is 
a way for the Federal Government to encourage that without a 
bunch of Federal mandates on states that will boomerang, and 
backfire, and which I generally do not like?
    Who has a comment on that?
    Dr. Baum. I would like to comment on that. I wrote a paper, 
actually, last year about what the Federal role in free 
community college programs should be.
    The consensus of a diverse group of experts involved in 
this was the Federal Government should continue to use student 
aid programs to target low income students and a real concern 
about the state programs that are last dollar programs.
    The Federal Government has gone to great lengths to make 
sure that its largest subsidies go to the neediest students.
    If you have a program that just fills in the gaps left by 
Pell Grants, what you are saying is, ``Everybody gets the same 
subsidy.'' So the state should be encouraged to devote their 
extra dollars to students who need them most, not just the 
students who were not poor enough to get Pell Grants.
    The Chairman. Well, maybe the state thinks that is not its 
primary goal. That the Federal Government's primary goal is 
equity, and the state's primary goal is the largest number of 
well educated citizens and that it puts its dollar in at the 
last dollar in order to encourage that.
    I do not know as most of the people at the community 
college being----
    The average median income in Tennessee is $50,000. So there 
are not a lot of rich people at the community colleges.
    Dr. Pollard. No, there are not.
    I think the part that I appreciate about your comment, Mr. 
Chairman, is the fact that the issue stems back from the 
disinvestment, or the lack of investment, by states in public 
education, particularly at the community college level, but 
also across the board.
    In the State of Maryland, for instance, the master plan had 
been one-third, one-third, one-third; one-third from the local, 
one-third from the state, one-third from the student.
    At this particular point, about 50 percent of my budget 
actually comes from the county. The students pay about 33 
percent; 15 to 16 percent will come from the state, and that 
number has not changed in the last decade. In fact, it has 
continued to precipitously go down.
    This idea of figuring out a way to help states understand 
that the investment in higher education is not just one simply 
about ensuring equity, which we all should be working toward. 
It is also about the economy. Let us be very serious about 
that.
    There are 20,000 vacant jobs in Maryland right now in cyber 
security. We know that, contrary to popular opinion, there are 
not a lot of coal jobs coming back in our region. What is going 
to come back: cyber security, technology, and HVAC.
    How do we start to invest those dollars to create the 
economy that we want to see? That idea of a public-Federal-
state opportunity for collaboration, I think, is essential. 
Otherwise, we will continue leaving people behind in an economy 
where we do not have the luxury of that occurring.
    The Chairman. Well, thanks to each of you.
    Now, if when you leave you think, ``Well, here is one more 
thing I wish I had said,'' please know that we would be 
interested in it. And if you want to write us a letter, or a 
memo, or anything and say, ``Enlarging on the point I made or 
the one I did not get a chance to make,'' we would welcome 
that.
    This has been a very interesting hearing. I thank Senator 
Murray for working with me on it.
    The hearing record will remain open for 10 business days. 
Members may submit additional information and questions to our 
witness for the record within that time, if they would like.
    The next meeting of the full Committee will be on Thursday, 
February 8, 2018 at 10 a.m. on, ``The Opioid Crisis: Impact on 
Children and Families.''
    Thank you for being here.
    The Committee will stand adjourned.

                          ADDITIONAL MATERIAL

                      American Council on Education
                                                   February 5, 2018
Hon. Lamar Alexander, Chairman
Hon. Patty Murray, Ranking Member
U.S. Senate Committee on Health, Education,
Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC.

    Dear Chairman Alexander, Ranking Member Murray, and Honorable 
Members of the Committee:

    As your Committee continues its hearings into reauthorizing the 
Higher Education Act to explore the topic of college affordability, we 
would like to address claims that Federal student aid is responsible 
for tuition increases. Over many years, some individuals have asserted 
that there is a causal link between college tuition and Federal student 
financial aid. This claim is at least as long-standing as any proof of 
the connection is elusive. This concept has been rigorously explored 
and the full body of available research data does not support this 
theory.

    A number of methodologically sophisticated studies have concluded 
that there is no relationship between Federal student aid and tuition. 
In 2014 the congressional Research Service (CRS), in response to 
numerous requests from Members of Congress, examined the possible 
relationship between student aid and college prices and found no 
consensus or consistent set of findings across multiple studies on any 
causal relationship between student aid and tuition and fees.

    Several years earlier, in response to a congressional mandate, the 
U.S. Department of Education also examined the relationship between 
tuition prices and various general and targeted subsidies, including 
financial aid. Indeed, the department identified a single tuition price 
driver: reductions in direct state support for public 4-year colleges 
and universities. That is, when state support for higher education goes 
down, public sector tuition increases.

    A significant number of economists--including Don Heller, David 
Feldman, and Robert Archibald, among many others--have also evaluated 
this theory and concluded that there is no relationship between Federal 
aid and college prices.

    In any form of rigorous research, proving causation requires that 
the evidence demonstrates a clear and unambiguous relationship. Absent 
such results, it is simply wrong to contend that such a causal 
relationship exists or to state in any way that the research is 
conclusive.

    Colleges and universities are extraordinarily complex organizations 
that rely on many revenue sources to advance their missions of 
instruction, research, and community service. Numerous authors and 
researchers have examined the relationship between college tuition and 
Federal student aid programs,

    and as yet there is no consensus on the existence of any 
generalizable or causal link between the two. To claim otherwise is to 
misrepresent the state of the extensive existing research on this 
question.

    We hope to continue collaborating with you as the Committee on 
Health, Education, Labor and Pensions works to update and reauthorize 
the Higher Education Act, and that an increased Federal commitment to 
student financial aid will be seriously considered.

            Sincerely,
                                               Ted Mitchell
                                                          President
                                 ______
                                 
                    National Association of Student
                       Financial Aid Administrators
                                                   February 5, 2018
Hon. Lamar Alexander, Chairman
Hon. Patty Murray, Ranking Member
U.S. Senate Committee on Health, Education,
Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC.

    Dear Chairman Alexander, Ranking Member Murray, and Honorable 
Members of the Committee:

    On behalf of the National Association of Student Financial Aid 
Administrators (NASFAA), I respectfully submit the following letter for 
the record on the Senate Health, Education, Labor and Pensions (HELP) 
Committee hearing entitled Reauthorizing the Higher Education Act: 
Improving College Affordability.

    For decades, the theory that increases in Federal student aid lead 
colleges to increase their prices has permeated conversations about 
higher education cost and affordability. Unfortunately, that theory, 
often referred to as the ``Bennett Hypothesis'' is not supported by 
conclusive evidence, and yet frustratingly, still tends to drive higher 
education policy discussions. NASFAA is concerned that we have reached 
a point where the perpetuation of this hypothesis has become harmful, 
irresponsible, and will lead to misguided policy decisions if not 
refuted.

    On its surface, the idea that Federal, state, or other public 
subsidies would lead to higher, inflated prices resonates. But the 
higher education funding landscape is far too complex to attribute 
price increases to any single factor or source of funding. The diverse 
structure of the higher education system in the United States, combined 
with the fact that institutions of higher education are complex, unique 
organizations, makes it very difficult to isolate cost increases.

    In a 2013 issue brief, ``Does Federal Financial Aid Drive Up 
College Prices?'' \1\ Dr. Donald E. Heller stated that ``While the 
Bennett Hypothesis may be intriguing, there is little compelling 
evidence that it holds true with respect to the price-setting behavior 
of colleges and universities in the United States. This complex process 
involves far too many variables for it to be essentially explained by 
the simplistic notion that tuition-setting boards sit around and say, 
`Well, Pell grants are going up $200 next year, so we can raise tuition 
$100.' While any change in Federal aid may be a very small piece of the 
puzzle that leads to year-to-year tuition increases, there is scant 
evidence that it is a major contributing factor.'' \2\
---------------------------------------------------------------------------
    \1\  ``Does Federal Financial Aid Drive Up College Prices?'' 
Heller, 2013: http://www.acenet.edu/news--room/Documents/Heller-
Monograph.pdf
    \2\  Ibid

    Professors of economics at the College of William and Mary, David 
Feldman and Bob Archibald, have also researched this topic extensively, 
finding that there are a variety of reasons that lead to increases in 
college prices. In their book, ``Why Does College Cost So Much?'' \3\ 
Feldman and Archibald discuss the myriad reasons institutions must 
charge what they do.
---------------------------------------------------------------------------
    \3\  ``Why Does College Cost So Much?'' Robert B. Archibald and 
David H. Feldman, 2010.

    For example, they argue that while technology has played a role in 
decreasing output costs in other industries, the same has not held true 
in higher education. \4\ Colleges and universities are expected to keep 
up with the latest technological infrastructure--a costly endeavor--but 
purposefully try to keep student-to-instructor ratios reasonable in 
order to provide quality learning environments. Feldman and Archibald, 
as well as several other renowned researchers, have also pointed to how 
the interplay of different subsidies, and in particular subsidies at 
the state level, can positively or negatively impact costs and prices. 
As public state appropriations decrease, more of the costs of providing 
higher education are passed along to students and families.
---------------------------------------------------------------------------
    \4\  Ibid

    In the 2015-16 year, public appropriations per full-time equivalent 
(FTE) students were 11 percent lower in inflation-adjusted dollars than 
they were a decade earlier, and 13 percent lower than they were 30 
years earlier, according to the College Board. \5\ Put another way, 
shouldering the cost of providing higher education has shifted away 
from the public--mostly at the state and community levels--to 
individual students and families. In 1975, for example, the states 
covered 60 percent of the tab for a year in college while families 
shouldered 33 percent, according to Feldman.
---------------------------------------------------------------------------
    \5\  ``Trends in College Pricing 2017.'' The College Board, 2017: 
https://trends.collegeboard.org/sites/default/files/2017-trends-in-
college-pricing--1.pdf

    ``Today,'' Feldman states, ``the states pay only 34 percent while 
families bear 50 percent of the cost,'' and the Federal Government's 
share--through grants and tax credits--has risen to around 16 percent. 
\6\
---------------------------------------------------------------------------
    \6\  ``Myths and Realities about Rising College Tuition.'' David H. 
Feldman, 2012: https://www.nasfaa.org/news--item/4565/Myths--and--
Realities--about--Rising--College--Tuition

    The theory that financial aid inflates college prices is also 
weakened by the fact that the net price, the amount students actually 
pay, has been decreasing over many years. At the same period of time, 
Federal investment in the student aid programs has only grown modestly, 
on a student-by-student basis. There has not been an increase in loan 
limits in nearly 10 years, and in recent years the Pell Grant received 
only nominal annual increases. Yet over the last decade the average net 
tuition and fee price paid by full-time students at public 2-year 
schools and private, not-for-profit 4-year schools has actually 
decreased. \7\
---------------------------------------------------------------------------
    \7\  ``Trends in College Pricing 2017.'' The College Board, 2017: 
https://trends.collegeboard.org/sites/default/files/2017--trends--in--
college--pricing--1.pdf

    It is tempting to try to reduce the complexities of college pricing 
to some of the simplest, corollary variables available, such as Federal 
student aid. Yet to do so would require us to ignore the complicated 
intricacies of cross-subsidization, the myriad variables of college 
costs, and net prices associated with college funding. As we look 
forward to reauthorizing the Higher Education Act, we must rely on data 
and evidence to guide our student aid policy, which also requires an 
acknowledgement that any link between Federal student aid and college 
---------------------------------------------------------------------------
price increases is unsubstantiated.

    NASFAA members support conversations to modify the student aid 
programs to work for today's students. Modifying existing programs and 
funding--using evidenced-based research is vital. But NASFAA opposes 
any proposal that seeks to decrease student aid under the faulty notion 
that those decreases will in some vague, unsupported, and 
counterintuitive way result in lower college prices.

            Regards,
                                             Justin Draeger
                                                    President & CEO
                                 ______
                                 
                          College of William & Mary
                                                   February 4, 2018
Hon. Lamar Alexander, Chairman
Hon. Patty Murray, Ranking Member
U.S. Senate Committee on Health, Education,
Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC.

    Dear Chairman Alexander, Ranking Member Murray, and Honorable 
Members of the Committee:

    I am writing to offer my views on the contentious ``Bennett 
Hypothesis'' that will no doubt make an appearance at Tuesday's 
hearing. The Bennett Hypothesis is the supposed link between increases 
in Federal higher education support and subsequent college tuition 
increases.

    The literature on the Bennett Hypothesis offers no firm conclusions 
or consensus. One can find support for any position, so appeals to the 
Bennett Hypothesis often derail efforts to find a sensible middle 
ground where facts are agreed. This alone should lead you to steer 
clear of altering Federal student support policies on the basis of any 
particular study that purports to show a link between Federal student 
aid and list price tuition.

    Finding a correlation between Federal student aid and list price 
tuition is easy. Over time the consumer price index, the level of 
Federal aid spending, college operating costs, and list price tuition 
all have moved in the same direction. The many strands of causality 
that tie all of these things together are tangled and not well 
understood. As a result, statistical correlations often are spurious 
accidents even when researchers have tried to identify and control for 
various confounding factors.

    The current literature on links between Federal student aid and 
list price also suffers from many methodological flaws. The schools 
that make up the American higher education system are very diverse. 
Elite private colleges, non-selective public branch campuses, and for-
profit institutions face different constraints and have differing 
decision-making processes. Yet much of the work on the Bennett 
Hypothesis ignores these differences in how institutions behave, and 
many studies do not seriously explore college price-setting behavior at 
all.

    We should get away from the Bennett Hypothesis and its narrow focus 
on list price tuition. Most undergraduates in the United States don't 
pay the list price. Public and private non-profits offer need-based and 
merit-based discounts. According to the College Board's ``Trends in 
Student Pricing, 2017'' over half the students at the Nation's major 
public research universities pay less than the listed in-state tuition, 
and the average discount is 34 percent. At smaller private colleges 
fewer than 20 percent of students pay the list price, and the average 
discount is over 50 percent. List price tuition is a very poor measure 
of the cost of attendance for most students.

    The most important questions we face are about how Federal aid 
policy affects access to the higher education system. There is a 
serious social science research literature on the interaction between 
Federal higher education support and college access and affordability, 
and a number of conclusions from that literature are increasingly 
supported by strong evidence.

        <bullet>  Public universities and private colleges that serve 
        large numbers of the Nation's lower-income and 1st generation 
        students pass most or all of any increase in Federal aid back 
        to students as a lower net tuition. Net tuition is the list 
        price minus any government aid the student receives and any 
        institutional discount the school offers. In other words, extra 
        Federal support creates more access.

        <bullet>  Highly selective private colleges do not pass all of 
        an extra dollar of Federal aid to students. They ``tax'' an 
        extra dollar of aid by reducing their own need-based discount. 
        But some of the aid does pass through as a lower net price.

        <bullet>  The best evidence of a causal link between Federal 
        aid and list price tuition comes from the Nation's for-profit 
        higher education institutions.

    These conclusions from the literature make sense if you think about 
how non-profit and for-profit colleges actually behave.

    Non-profits use tuition discounting, and part of the motive is a 
mission-driven commitment to access. If Congress raises the maximum 
size of a Pell grant, lower-income students bring that larger aid 
package with them to any school that accepts them.

    At a non-profit college or university, the school can claim some of 
the extra Federal aid by cutting its own discount. The less it cuts its 
own discount, the more the student's net price falls. But ``taxing'' 
the aid isn't all bad. By decreasing the discount, schools have extra 
operating funds that they can use to build student support programs 
that improve retention and graduation or build better programming that 
benefits all students. They could also use the extra revenues to cut 
the list price for higher-income students. They have no incentive to 
raise it.

    The evidence suggests that state universities and less-selective 
private colleges choose to pass most or all of any increase in Federal 
aid to students as a lower net price. These are schools that often do 
not fully meet need because they are resource poor. The extra Federal 
aid helps them to meet a greater percentage of student need. Doing this 
would enlarge the pool of students who could afford to go. It would 
also improve retention and graduation rates by reducing students' 
financial stress. And public university tuition often is set by state 
legislatures, so schools do not respond with tuition hikes when the 
Pell maximum, for instance, is raised.

    Highly selective schools already meet much or all of their 
students' demonstrated need, so they have an incentive to allow a 
portion of extra Federal aid to displace some of their own 
institutional grant aid. Taxing the extra Federal aid in this way frees 
up resources to improve programming.

    The nation's for-profit colleges are different. There is more than 
a touch of irony in the evidence that higher Federal tuition support is 
linked to rising list price tuition in this sector of the higher 
education market. But the causal pathway is clear. These schools often 
receive eighty to one hundred percent of their revenues from Federal 
student loans, Pell grants, and GI benefits. Almost all of their 
students receive large amounts of Federal support. And these colleges 
do not use need-based discounts to build and diversify an incoming 
class of students. Like highly selective private universities, for-
profits can tax any increase in the package of Federal aid their 
students bring to the table. But since they have little institutional 
aid to reduce, they claim much of the Federal aid as revenue by raising 
the list price that virtually all of their students face. Yet even at 
for-profit colleges, a dollar of extra Federal support does not lead to 
a dollar of tuition increase. Extra Federal aid creates access here 
too.

    I urge you to keep your eye on the real prize. The substantive 
issues before you are about creating access to higher education for 
more families, and enabling success by helping a greater fraction of 
students move expeditiously through the higher education system. Of the 
two, your greatest leverage is over access.

    Improved access and greater success are needed if we are to help 
more young Americans earn the skills and credentials that will add 
value over their entire working lifetimes. This is how we fulfill the 
promise of our higher education system as an engine of social mobility.

            Sincerely,
                                           David H. Feldman
                                             Professor of Economics
                                 ______
                                 

                         QUESTIONS AND ANSWERS

 Response by Jenna Robinson to Questions from Senator Sanders, Senator 
                       Warren, and Senator Kaine

                            senator sanders
    Question 1. What is the role of career and college counselors to 
help students determine which college program of study and financial 
aid package will help them graduate college sooner and with less 
student debt?

    Answer 1. College advising should be an essential part of ensuring 
that students take the right number of credits to graduate on time and 
the right courses to earn the credits they need for their degree. In 
order for advising to be useful, it must also be proactive in 
identifying and aiding students who are in need of assistance.

    Financial aid advisors fulfill a separate role than academic 
advisors. In most cases, they simply serve as a contact point between 
students and their financial aid benefits. One way to improve 
communications about financial information is to change financial aid 
award letters. A recent study by New America found award letters to be 
almost uniformly confusing and opaque. Colleges and universities should 
change award letters so they are clear, transparent, and make obvious 
distinctions between different types of aid.

    Question 2. Post-Secondary education in the United States has 
traditionally been funded through a mixture of Federal and state 
government appropriations, institutional endowments, and student 
payments of tuitions and fees. However, state investments in public 
higher education paid for 83 percent of public college education costs 
in 1980 but only paid for 23 percent of costs by 2012. This massive 
reduction in state investment in public colleges has left students 
bearing a larger proportion of the price of college. What has been the 
impact of state divestment in public colleges on the affordability of 
higher education and the ability of students to finance their education 
with less student debt? Additionally, what role should state 
governments serve in ensuring that students are guaranteed a high-
quality, college education with less student debt?

    Answer 2. The limited research that exists on the effects of state 
divestment on tuition prices (summarized here by the Brookings 
Institution) show that between 6 and 28 percent of tuition changes can 
be attributed to changes in state funding. Moreover, most students who 
attend public colleges and universities leave with manageable debt: the 
average debt per borrower at public schools from the Class of 2016 was 
$26,828. Students who attend private institutions owe more: $30,281 for 
the Class of 2016. Average debt is not the problem. Non-completion is. 
A large proportion of students who default on their student loan debt 
never completed a degree.
                             senator warren
    Question 1. We heard many policy recommendations to make college 
more affordable for future students, including strengthening the Pell 
grant and establishing state-Federal financial partnerships. However, 
we must not forget the approximately 44 million people who are 
currently struggling with student loan debt. From your perspective, 
what should Congress do to support these former students who have been 
saddled with debt and ensure that their student loans do not prevent 
them from saving for a down payment on a home, saving for retirement, 
saving for their own kids' college education, or making other critical 
financial decisions and purchases that help our economy?

    Answer 1. Many students who have large amounts of student loan debt 
never completed their degrees. Students who are close to completion in 
terms of credit hours should be encouraged to return to college to 
complete their coursework. Repayment plans should be simplified so 
students can easily navigate their options. Private student loans 
should be subject to bankruptcy laws.

    Question 2. Multiple witnesses discussed that borrowers of color 
are disproportionately impacted by student loan debt and student loan 
default. What should Congress do to specifically address this fact and 
specifically support these traditionally underserved populations? How 
can Congress reduce the student debt burden of all students of color?

    Answer 2. Successful college completion is the key to helping 
students avoid default. Solutions to improve completion, including 
better advising and instituting evidence-based teaching practices, are 
institution-level rather than Federal-level reforms. At most, Congress 
can improve colleges' incentives to help students avoid default. 
Congress can give colleges skin in the game in student loans or begin 
using repayment rates instead of default rates when measuring 
universities' success and determining access to Federal financial aid.

    Question 3. Authors at the Levy Economics Institute of Bard College 
released a report in February 2018 that found huge economic benefits if 
the Federal Government would make a one-time policy decision to forgive 
all existing student debt. They found canceling all student debt would 
increase U.S. GDP, increases job production, decreases unemployment, 
and improves state budget deficits, with modest effects on interest 
rates and a host of additional positive spillover effects. Please 
respond to this report.

    Answer 3. Canceling student loans would be extremely expensive; 
there are more than $1.25 trillion of outstanding Federal loans right 
now. It would also fail to target debtors who need help the most. In 
2010, the median borrower would have had to spend about 6 percent of 
his or her income after leaving school to pay back loans. Most 
borrowers are not at risk of default or financial hardship. The highest 
earning 20 percent of borrowers carry roughly 36 percent of outstanding 
debt. Canceling these loans would be a hand-out to the wealthy. 
Overall, canceling student loans would be a popular, but deeply 
regressive, solution to the problems of student loan non-repayment and 
default.
                             senator kaine
    Question 1. Private student loans tend to lack some of the critical 
protections built into the Federal direct loan program for borrowers. 
This can leave struggling borrowers in the private student loan market 
in financial distress with few options.

    Question 1(a). Do you think private students loans should be 
subject to bankruptcy laws? Please explain.

    Answer 1. Yes, private student loans should be subject to 
bankruptcy laws. Doing so would create the proper long-term incentives 
for lenders, i.e. lenders would be more prudent in their lending. 
However, I believe bankruptcy protection should only be available after 
a certain time limit, perhaps 5 years after finishing a degree. (This 
would encourage students to work toward repayment first and view 
bankruptcy as a last resort.) I described my position on bankruptcy in 
Inside Higher Ed, here.

    Question 2. What can Congress do to drive more students toward 
affordable options and help Federal student aid go further for at-risk 
students?

    Answer 2. Difficulty comparing options is one source of students 
making sub-optimal decisions about college and university attendance. 
One solution would be to improve student aid award letters so they are 
clear, transparent, and uniform. A recent study showed that more than 
one-third of student financial aid award letters omitted the total cost 
of attendance. Others failed to differentiate between grants and loans. 
This is an understandable source of confusion that can lead students to 
choose less affordable options. Ideally, student aid letters would also 
be uniform so that students could easily compare offers from different 
institutions. The FAFSA should also be improved. More students should 
be able to file the simple version and FAFSA should be available via 
mobile app.
                                 ______
                                 

   Response by Sandy Baum to Questions from Senator Sanders, Senator 
                       Warren, and Senator Kaine

                            senator sanders
    Question 1. What is the role of career and college counselors to 
help students determine which college program of study and financial 
aid package will help them graduate college sooner and with less 
student debt?

    Answer 1. Unfortunately, the current infrastructure for career and 
college counselors is inadequate. Ideally, every student considering 
post-secondary options would have access to a knowledgeable counselor 
who could provide personalized information about available programs, 
costs of attendance, financial aid, probabilities of success, and 
career paths. But only students graduating from well-resourced high 
schools now have this access. As Judith-Scott Clayton and I argued in 
our 2013 Hamilton Project paper, Redesigning the Pell Grant Program for 
the 21st Century, integrating federally funded services into the Pell 
Grant program has the potential to increase success rates and make 
investments in college more productive for both taxpayers and students.

    Question 2. Post-Secondary education in the United States has 
traditionally been funded through a mixture of Federal and state 
government appropriations, institutional endowments, and student 
payments of tuitions and fees. However, state investments in public 
higher education paid for 83 percent of public college education costs 
in 1980 but only paid for 23 percent of costs by 2012. This massive 
reduction in state investment in public colleges has left students 
bearing a larger proportion of the price of college. What has been the 
impact of state divestment in public colleges on the affordability of 
higher education and the ability of students to finance their education 
with less student debt? Additionally, what role should state 
governments serve in ensuring that students are guaranteed a high-
quality, college education with less student debt?

    Answer 2. The failure of state appropriations for public higher 
education to keep up with rising enrollments has contributed both to 
rising tuition and fees and to a reduction in the resources available 
to public institutions to provide high quality educational and support 
services to their students. The results include both higher debt levels 
and lower completion rates. Low completion rates at community colleges 
and broad-access public institutions are among the most serious 
problems related to the under-funding of higher education. The states 
and the Federal Government share responsibility for ensuring access to 
high quality post-secondary education to all who can benefit. Federal 
incentives for increased and better-targeted state funding have the 
potential to mitigate these problems.
                             senator warren
    Question 1. We heard many policy recommendations to make college 
more affordable for future students, including strengthening the Pell 
grant and establishing state-Federal financial partnerships. However, 
we must not forget the approximately 44 million people who are 
currently struggling with student loan debt. From your perspective, 
what should Congress do to support these former students who have been 
saddled with debt and ensure that their student loans do not prevent 
them from saving for a down payment on a home, saving for retirement, 
saving for their own kids' college education, or making other critical 
financial decisions and purchases that help our economy?

    Answer 1. The problems with existing student debt are mounting as 
the Department of Education stalls the processes designed to forgive 
the debt of students who are the victims of fraud and abuse and of 
institution closings that prevented them from completing their studies. 
The former students struggling most with debt are not those who have 
borrowed the largest amounts, but those who have left school without a 
credential. Default rates are inversely related to amounts of debt and 
are more than twice as high for non-completers as for completers within 
each sector.

    Some groups of students borrow much more than others for similar 
degrees: older students, those who attend for-profit institutions, and 
African-American students are particularly vulnerable. Efforts to 
relieve existing debt burdens should focus on these groups, not on 
borrowers with high levels of debt, the majority of whom have completed 
bachelor's degrees and many of whom have professional degrees or other 
credentials that are likely to generate high levels of earnings.

    Question 2. Multiple witnesses discussed that borrowers of color 
are disproportionately impacted by student loan debt and student loan 
default. What should Congress do to specifically address this fact and 
specifically support these traditionally underserved populations? How 
can Congress reduce the student debt burden of all students of color?

    Answer 2. African American students borrow more than others for a 
variety of reasons. Hispanic students do not have the same borrowing 
patterns. There is no doubt that the lower income and asset levels of 
African American families explain much of this problem. But these 
students also disproportionately enroll in for-profit institutions, 
come to college with low levels of academic preparation, begin college 
at older ages, and take longer to complete their credentials-if they do 
complete them. African Americans also earn less in the labor market 
than others with the same credentials.

    All of these circumstances need to be addressed. It is probably not 
reasonable to target debt relief at specific racial and ethnic groups, 
but it is vital that we work to change the circumstances that create 
these problems.

    Question 3. Authors at the Levy Economics Institute of Bard College 
released a report in February 2018 that found huge economic benefits if 
the Federal Government would make a one-time policy decision to forgive 
all existing student debt. They found canceling all student debt would 
increase U.S. GDP, increases job production, decreases unemployment, 
and improves state budget deficits, with modest effects on interest 
rates and a host of additional positive spillover effects. Please 
respond to this report.

    Answer 3. This report basically asks what would happen if there 
were an influx of money into the economy, targeted specifically at 
people who borrowed for education and have not yet repaid their loans. 
There is no doubt that these individuals would spend more on other 
things if they did not have loan payments. But it does not address the 
real questions. Why forgive student debt and not, for example, medical 
debt? Would there be some compensation for people who recently 
completed their loan payments? How would this cost to the Federal 
Government be financed? Would there be a tax increase and how would the 
distribution of that tax increase compare to the distribution of the 
benefits to borrowers? About half of all education debt is held by 
households in the top quarter of the income distribution, so this would 
not be a progressive policy. And many of the loans causing problems are 
nonFederal loans. Would these loans be included, using Federal funds to 
make private lenders whole?

    The expansionary impact of expanded government spending is well 
established. This does not make the idea of forgiving the loans of 
people with high levels of education a wise policy.

    Question 4. In your testimony, you suggested the value of 
developing a state-Federal Government partnership to make higher 
education more affordable. How should Congress structure such a 
partnership? What factors should Congress consider when developing 
these partnerships and what should be avoided?

    Answer 4. Designing a fair and effective policy would be 
challenging, but there are strong arguments for the Federal Government 
providing incentives for states to increase their investments in higher 
education and reducing the inequities in educational opportunities 
across the Nation. The goals should include both lowering the prices 
students pay and increasing the resources available to institutions to 
provide high quality education and support student success.

    An exclusive focus on price-whether that price is zero or not-risks 
reducing quality. Moreover, it is important to recognize that the 
financial barriers facing low-income students are frequently associated 
with living expenses rather than tuition and fees, which are often 
covered by need-based state and Federal aid. Free tuition policies that 
build on existing aid programs do not address this problem and instead 
provide incremental funds to students whose resources prevent them from 
being eligible for need-based aid. The Federal Government has 
successfully built and maintained a Pell Grant program that diminishes 
the inequality of resources available to students. Last-dollar free 
tuition programs move in the opposite direction, providing identical 
subsidies to students attending the same institution regardless of 
their financial circumstances. Because low-income students tend to 
enroll in lower-cost institutions and to stay in school for a shorter 
time than their more affluent peers, low-income students actually end 
up with the smallest public subsidies under this type of policy.

    Debt-free tuition is a more reasonable target than ``free'' or 
``debt free.'' Such a policy would use Federal funds to motivate and 
supplement state funding, ensuring that all students can cover public 
4-year college tuition with a combination of expected family 
contribution and grant aid.

    Question 5. You have argued that, ``We should worry a lot less 
about 18-year-olds going off to college and borrowing $20,000, $25,000, 
for a bachelor's degree'' because the investment pays off, and because 
the median earnings for young bachelor's degree recipients is higher 
than the median earnings for high school graduates.

    Question (a). In an economy with stagnant wages, should Congress 
care only about borrowers who are in economic distress?

    Answer 5. The Federal Government should care about everyone who is 
not able to find a job that supports a reasonable standard of living 
whether or not they went to college and however they financed their 
education. A stronger safety net would reduce food and housing 
insecurity for all Americans.

    Targeting subsidies at everyone with student debt does not help the 
least well-off members of society, who do not have a college education. 
It also penalizes people who worked more and borrowed less in college 
and people who focused on quickly paying off their debts after 
colleges.

    Answer (a). The problem is inadequate wages. Tackling this problem 
directly makes more sense than just alleviating one expense faced by a 
segment of the population that actually includes many of those in the 
upper segment of the income distribution.

    Question (b). Should Congress also consider borrowers who can 
afford their monthly payments, but don't have any money left over to 
save for a down payment on a home, save for retirement, save for a 
medical emergency, save for their own kids' college education, or make 
other critical financial decisions and purchases that help our economy 
grow?

    Answer (b). Congress has taken important steps by implementing 
income-driven repayment for Federal student loans. Allowing people to 
repay their loans through a program that requires payments that are a 
low percentage of discretionary income should ensure that only 
borrowers in unusual circumstances face the choice between loan 
payments and other critical expenses.

    Congress should focus on strengthening this program. Simplifying 
and consolidating the system and making enrollment automatic for all 
borrowers would solve the problem of borrowers being unable to access 
the program and being thrown out because of failure to verify income 
annually. Using the payroll deduction system, as other nations do, 
would allow payments to adjust immediately when borrowers lose their 
jobs or suffer earnings declines. It would also greatly reduce default, 
which carries severe negative consequences for borrowers.

    Question (c). As long as a borrowers is able to afford her monthly 
payments, and is able to earn marginally more than if she had never 
attended college, is that borrower a success?

    Answer (c). In order for education to pay off-and to be affordable 
in retrospect-students should be able to live at a higher standard of 
living than they would have if they had not gone to college, even after 
both repaying their debts and making up for wages forgone because of 
time spent in school. Much of the apparent student loan ``crisis'' is 
attributable to students borrowing to enroll in programs in which they 
have little chance of success and that are unlikely to lead to good job 
prospects even for students who do graduate. Better Federal oversight 
of the programs and institutions for which students are allowed to take 
out Federal loans (and to which they are allowed to bring their Pell 
Grants) would go a long way toward ameliorating this problem in the 
future. No amount of assistance with loan repayment can compensate a 
student for the lost time and resources dedicated to a fruitless 
education.

    A borrower doesn't just have to be able to repay her debts out of 
her earnings premium. She also has to be able to cover forgone earnings 
and other funds invested in her education.

    Money is, of course, not the only measure of a valuable education. 
Fortunately, many successful students do not focus on maximizing their 
incomes, but on having satisfying and socially useful careers.
                             senator kaine
    Question 1. Private student loans tend to lack some of the critical 
protections built into the Federal direct loan program for borrowers. 
This can leave struggling borrowers in the private student loan market 
in financial distress with few options.

    Question (a). Do you think private students loans should be subject 
to bankruptcy laws? Please explain.

    Answer 1. Private student loans are really just unsecured loans 
from private lenders. There is no reason why lenders should be 
privileged just because they put the word ``student'' on a loan. In 
fact, having a legally recognized category of private student loans 
confuses students, who do not understand the difference between Federal 
student loans and these loans that do not have the same protections. It 
encourages students to take loans that are likely to cause them 
problems.

    Answer (a). Borrowers should be able to discharge private loans in 
bankruptcy as easily as they can discharge other loans. The whole 
question would disappear if these loans were recognized as what they 
really are-not a form of student financial aid.

    Question 2. What can Congress do to drive more students toward 
affordable options and help Federal student aid go further for at-risk 
students?

    Answer 2. The goal should not be just to help students choose 
cheaper options, but to help them choose more promising options. No 
matter how low the price, an education is not affordable if it is not 
productive for a student. Congress should implement stricter rules 
about which institutions and programs can participate in Federal 
student aid programs. The Federal Government should not be supporting 
students to enroll in programs that have a very small chance of helping 
them achieve their goals. Allowing Federal aid to go to an institution 
is essentially a Federal stamp of approval.

    In addition to stronger regulation and thresholds for 
participation, the government could increase access to high quality 
counseling and personalized advice for disadvantaged students. As 
Judith-Scott Clayton and I argued in our 2013 Hamilton Project paper, 
Redesigning the Pell Grant Program for the 21st Century, integrating 
federally funded services into the Pell Grant program has the potential 
to increase success rates and make investments in college more 
productive for both taxpayers and students.
                                 ______
                                 
    [Whereupon, at 11:50 a.m., the hearing was adjourned.]

                                 [all]
</pre></body></html>
